<html>
<title> - THE ROLE OF SCIENCE IN ENVIRONMENTAL POLICY MAKING</title>
<body><pre>[Senate Hearing 109-1003]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1003
 
           THE ROLE OF SCIENCE IN ENVIRONMENTAL POLICY MAKING

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 28, 2005

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate
                               __________



                     U.S. GOVERNMENT PRINTING OFFICE

38-918 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED NINTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
LISA MURKOWSKI, Alaska               THOMAS R. CARPER, Delaware
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
DAVID VITTER, Louisiana
                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 28, 2005
                           OPENING STATEMENTS

Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    10
Boxer, Hon. Barbara, U.S. Senator from the State of California...    14
Clinton, Hon. Hillary Rodham, U.S. Senator from the State of New 
  York...........................................................     7
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     6
Jeffords, Hon. James M., U.S. Senator from the State of Vermont..     4
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Murkowski, Hon. Lisa, U.S. Senator from the State of Alaska......    13
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...    16

                               WITNESSES

Benedick, Hon. Richard E., president, National Council for 
  Science and the Environment....................................    21
    Prepared statement...........................................    43
    Responses to additional questions from:
        Senator Inhofe...........................................    51
        Senator Jeffords.........................................    52
Crichton, Michael, M.D., author, doctor..........................    18
    Prepared statement...........................................    52
    Responses to additional questions from:
        Senator Jeffords.........................................    55
Gray, William, Ph.D., Professor, Department of Atmospheric 
  Science, Colorado State 
  University.....................................................    24
    Prepared statement...........................................    56
    Responses to additional questions from:
        Senator Inhofe...........................................    66
Roberts, Donald R., Ph.D., professor, Division of Tropical Public 
  Health, 
  Department of Preventive Medicine and Biometrics, Uniformed 
  Services 
  University of the Health Sciences..............................    27
    Prepared statement...........................................    71
    Responses to additional questions from:
        Senator Jeffords.........................................    78
Sandalow, David, director, Environment and Energy Project, the 
  Brookings Institution..........................................    28
    Prepared statement...........................................    80

                          ADDITIONAL MATERIAL

Articles:
    DDT: A Case Study in Scientific Fraud........................   144
    Health risks and benefits of DDT.............................   150
E-mail distributed on September 23, 2005 from Dr. Gerhard Hess of 
  Bayer Environmental Sciences S.A.S.............................   161
Fact sheet, Union of Concerned Scientists........................    95
Letters from:
    Alberts, Bruce, president, National Acadamy of Sciences to 
      Hon. Larry E. Craig........................................    93
    Craig, Hon. Larry E., U.S. Senator from the State of Idaho to 
      Bruce Alberts..............................................    94
    Mann, Michael E., Ph.D., associate professor and director of 
      Earth System Science Center Department of Meteorology, The 
      Pennsylvania State University to Chairman Barton and 
      Chairman Whitfield.........................................   109
Statements:
    Cicerone, Ralph J., Ph.D., president, National Academy of 
      Sciences, The National Academies...........................    85
    Hansen, James, director, Columbia University Earth Institute 
      and Goddard Institute for Space Studies....................    83
Testimony of Roger Bate and Richard Tren.........................   120


           THE ROLE OF SCIENCE IN ENVIRONMENTAL POLICY MAKING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 28, 2005

                               U.S. Senate,
         Committee on Environment and Public Works,
            Subcommittee on Superfund and Waste Management,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Thune 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Bond, Voinovich, Murkowski, 
Thune, DeMint, Isakson, Jeffords, Boxer, Clinton, and 
Lautenberg.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Our hearing will come to order. First of 
all, this is a real heavy group we have got here today, and I 
really appreciate all of your being here. You have come a long 
way to be here. We are so appreciative. We, I am sure, are 
going to have more members coming in, but the staffs are here, 
and we have been talking about how to handle this, because we 
want to make sure that everyone has ample time to make 
presentations.
    So it is my suggestion--and if it is all right with you, 
Senator Jeffords--that we will go ahead and start with, say, 5-
minute opening statements up here, and then as we recognize our 
panel, each one can have 10 minutes. You don't have to take 
that long, or even go a little bit over that would be fine, 
depending on how many people show up.
    I think probably what we will do is confine our opening 
statement to 4 minutes, see who comes up, how many we have, 
then we will turn it over to the panel. Then, of course, that 
will give us time for several rounds of questioning. We will be 
stopping promptly, though, at 11:50.
    I am excited about this hearing because, when I first 
became the chairman of this committee back in, oh, it is two 
and a half years ago, I guess, now, the three objectives I had 
was to make our decisions on sound science. Too often there is 
a policy that is involved in that. You see this type of 
research that gets funded by the discretionary grants that get 
awarded. It is pushing people's political agenda many times, as 
opposed to really concentrating on sound science.
    I am particularly interested in hearing the testimony of 
Dr. Michael Crichton. I think I have read most of his books. In 
fact, I have read them all. Everyone knows Dr. Crichton as a 
best selling author and an Emmy award winning producer, but 
what most people don't know is that Dr. Crichton's background 
includes degrees from Harvard College and Harvard Medical 
School.
    He was also a visiting lecturer in physical anthropology at 
Cambridge University and a post-doctoral fellow at Salk 
Institute for biological studies, where he worked on media and 
science policy with Jacob Bronowski, author of Common Sense of 
Science, Science and Human Values, and The Identity of Man. Dr. 
Crichton's science background has served him well in providing 
material for his books.
    And, of course, of all of his books that I have read, I 
enjoyed the most ``State of Fear''. I have tried to say that is 
required reading for this committee, but you just can't get by 
with that when you are dealing with Senators. While ``State of 
Fear'' is a novel, it is fiction, the footnotes are 
incontrovertibly scientific. So I have enjoyed that.
    We will also hear from Dr. Bill Gray. Dr. Gray is known as 
the pioneer of hurricane prediction. In the wake of Hurricane 
Katrina, German Environmental Minister Juergen Trittin alleged, 
``the increasing frequency of these natural events can only be 
explained through global warming which is caused by people.''
    Now, this is totally absurd. If you look at the chart 
behind us here, you can see that the data from the National 
Oceanic and Atmospheric Administration demonstrates clearly 
that 100 years ago, even 50 years ago, we had just as many 
intense hurricanes as we do today. So we look forward to your 
thoughts on that, Dr. Gray.
    We will also hear from Dr. Don Roberts, an epidemiologist 
in the field of science regarding DDT. The EPA banned DDT in 
the 1970's despite a finding by its own experts that DDT did 
not cause cancer in human beings, nor did it have an adverse 
effect on wildlife. Since then, DDT has become the most studied 
chemical in the world, and the only thing that has been proven 
is that there is no other substance, method or treatment as 
effective in eradicating malaria.
    You know, most of the members of this committee--and I know 
Dr. Crichton and I have talked about this--know that I have 
been very active, for about 10 years, in Africa, and when you 
take Uganda--if you look at this up here--I would like my 
colleagues to see this. That is the effects of malaria. Just in 
Uganda alone--which I will be there in about 3 days, or at the 
end of this next week--it kills about 70,000 people a year. The 
interesting thing is we are all so concerned and the public 
attention is on HIV/AIDS. The same number of people who died in 
Uganda from AIDS are dying from malaria. So we will be looking 
forward to that testimony.
    I would also like to welcome David Sandalow of The 
Brookings Institute, who is here to provide the committee with 
his beliefs on global warming and its perceived effects.
    Finally, we have Richard Benedick, President of the 
National Council for Science and the Environment. He was one of 
the authors of the 1987 Montreal Protocol, which is a precursor 
for the international framework for dealing with emissions 
reductions.
    So we look forward to meeting and hearing from all of you.
    [The prepared statement of Senator Inhofe follows:]

          Statement of the Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma
    Today's hearing will focus on one of the three objectives I set out 
when I assumed the Chairmanship of the committee--to ensure that 
regulatory decisions are based on sound science.
    Too often the environmental policy decisions made by EPA and other 
science-based agencies are driven by political or personal agendas. You 
see this in types of research that gets funded or the types of grants 
that get awarded. It is my hope this hearing will help shed some light 
on how science is used by policy-makers and that we can arrive at some 
concrete suggestions for making the process better.
    I am particularly interested in hearing the testimony of Dr. 
Michael Crichton. Everyone knows that Dr. Crichton is a best-selling 
author and Emmy award-winning producer. But what most people do not 
know is that Dr. Crichton's background includes degrees from Harvard 
College and Harvard Medical School. He was also a visiting lecturer in 
Physical Anthropology at Cambridge University; and a post-doctoral 
fellow at the Salk Institute for Biological Studies, where he worked on 
media and science policy with Jacob Bronowski, the author of Common 
Sense of Science, Science and Human Values, and The Identity of Man. 
Dr. Crichton's science background has served him well in providing 
material for his books, many of which explore scientific issues, my 
favorite of which is ``State of Fear''. I urge you all to read this 
book. It's fiction, but it contains an enormous number of footnotes to 
real studies backing up the scientific points made in the book. Dr. 
Crichton, thank you for agreeing to testify today on your observations 
and recommendations about the use of science in public policy-making.
    We also will hear today from Dr. Bill Gray, known as the pioneer of 
hurricane prediction. In the wake of Hurricane Katrina, German 
Environmental Minister Juergen Trittin (Yer-gan Trit-in) alleged, ``the 
increasing frequency of these natural events can only be explained 
through global warming which is caused by people.'' This is absolutely 
absurd. This chart behind me, based on data from the National Oceanic 
and Atmospheric Administration, demonstrates clearly that 100 years 
ago, even 50 years ago, we had just as many intense hurricanes as we 
have today. I look forward to your thoughts on this, Dr. Gray.
    We will also hear today from Dr. Don Roberts, an epidemiologist and 
a leader in the field of science regarding DDT. EPA banned DDT in the 
1970s despite a finding by its own experts that DDT did not cause 
cancer in humans nor did it have an adverse effect on wildlife. Since 
then, DDT has become the most studied chemical in the world and the 
only thing that has been proven is that there is no other substance, 
method or treatment as effective in eradicating malaria.
    As many of my colleagues are aware, I travel throughout Africa 
several times a year. In fact, next week, I plan to make my third visit 
to Uganda this year. Malaria is devastating that country and the entire 
continent of Africa. It kills almost the same number of people as AIDS. 
Yet we focus little attention on this enormous human tragedy. Malaria 
kills 70,000 Ugandans every year, most under the age of five. It 
enlarges their spleen such as in the picture behind me, causing acute 
suffering and eventually death. In all of Africa, a child dies from 
malaria every 30 seconds.
    Yet, developed counties continue to stand on their environmental 
agenda in the face of this human rights tragedy. Earlier this year, the 
European Union strongly warned Uganda that its exports to Europe would 
be in jeopardy if it goes ahead with current plans to use DDT to fight 
malaria. I look forward to your thoughts on the matter, Dr. Roberts.
    I would also like to welcome David Sandalow, of the Brookings 
Institution, who is here to provide the committee with his beliefs on 
global warming and its perceived effects.
    Finally, we have Richard Benedick, the President of the National 
Council for Science and the Environment. He was one of the authors of 
the 1987 Montreal Protocol, which was a precursor international 
framework for dealing with emissions reductions.
    I look forward to hearing the testimony from our witnesses today.

    Senator Inhofe. With that, I will turn it over to Senator 
Jeffords.

OPENING STATEMENT OF HON. JAMES M. JEFFORDS, U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Jeffords. Mr. Chairman, I know that today's hearing 
is the one you had hoped to conduct for some time, and 
certainly since the ``State of Fear'' was published. I want to 
be clear that my support for you in the work we have done 
together should not be diminished by my concern about the 
timing and the content of today's hearing.
    I fear I must publicly express my concern on my behalf and 
the minority members of the committee. Chairman, given the 
profound human suffering and ecological damage along the Gulf 
Coast, why are we having a hearing that features a fiction 
writer as a key witness? Some may accuse me, as a policymaker, 
of falling into the exact policy trap that Mr. Crichton's book 
critiques, being too focused on the consequences of the recent 
large-scale natural disasters and our Nation's policy response 
to them. If Mr. Crichton's book, ``State of Fear'', a terrorist 
ring is developed to cause environmental destruction and bring 
attention to environmental issues.
    I assure you, Mr. Chairman, that unlike these characters in 
``State of Fear'', I did not cause the two Gulf hurricanes in 
order to prompt this committee and this Government into action. 
The damage caused by the two Gulf storms is not fiction. As far 
as I am aware, no one on the minority side of this committee 
has advocated that the storms should be used as justification 
for the adoption of wild-eyed drastic new policy initiatives. 
Instead, the destruction we have witnessed in recent weeks 
raises serious scientific questions that need to be answered in 
very near term.
    We should be looking into the role of the science in making 
critical response and recovery decisions. We need to 
incorporate scientific information as we develop programs to 
help prevent future flood damage. How will we determine the 
appropriate health and environmental standards for 
rehabilitation in inundated areas? What does science tell us 
about the best ways to reconstruct in the Gulf region? Should 
we be engaging in enhanced wetland protection and 
reconstruction to possibly protect against the severity of 
future storms?
    We should be asking these questions and getting answers 
expeditiously, as much as we may want to be focusing our 
attention on the longer term interaction between science and 
the decisionmaking process. I would also say in my 30 years in 
the Congress, that I have been proud of some of the decisions 
we have made, even in the absence of perfect scientific 
information. We authorized a Brownfields program to help 
cleanup our cities and towns. We did so even though in the 
decade since we passed the Superfund, we have continued to 
learn about the nature of toxic substances and the best ways to 
remediate them.
    As one of our witnesses will testify, the Senate ratified 
the Montreal Protocol to address ozone-depleting substances, 
even though there was some scientific uncertainty as that 
agreement was negotiated. Sometimes we need to act to preserve 
or even improve human health and the environment, even though 
we don't have the perfect information we wish we had.
    We certainly would not want to wait until there is 
substantial scientific evidence of human suffering or death. In 
my opinion, that is too long. We all recognize that one man's 
credible science is another man's baloney.
    Mr. Chairman, at the same time that this hearing is being 
held, there is also a Finance Committee hearing on Hurricane 
Katrina, where the Governors of each of the affected States 
will be testifying. As a member of that committee, I plan to 
attend that hearing and will not be able to stay for all of 
this hearing. I ask, Mr. Chairman, that I be able to submit 
written questions to the witnesses and that I am able to submit 
additional scientific information into the record of the topics 
raised by the witnesses.
    Senator Inhofe. Without objection, so ordered.
    Senator Jeffords. I am anxious to hear from these Governors 
who may help us to better understand how the Federal Agencies 
we oversee in this committee may have let them down and how our 
committee can act to improve the crucial functioning of these 
agencies.
    This week I will introduce legislation that the minority 
side of the committee believes is necessary to respond to the 
Gulf hurricanes. I think those affected by these disasters 
deserve nothing less than our full attention when they are most 
in need.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Jeffords follows:]

      Statement of Hon. James M. Jeffords, U.S. Senator from the 
                            State of Vermont
    Mr. Chairman, I know that today's hearing is one you have hoped to 
conduct for some time, certainly since ``State of Fear'' was published. 
I want to be clear that my support for you, and the work we have done 
together, should not be diminished by my concern about the timing and 
content of today's hearing. But, I feel I must publicly express that 
concern on my own behalf and that of the minority members of this 
committee.
    Mr. Chairman, given the profound human suffering and ecological 
damage along the Gulf Coast, why are we having a hearing that features 
a fiction writer as our key witness? Some may accuse me, as a policy 
maker, of falling into the exact policy trap that Mr. Crichton's book 
critiques--being too focused on the consequences of the recent large 
scale natural disasters and our Nation's policy response to them.
    In Mr. Crichton's book, ``State of Fear'', a terrorist ring is 
deployed to cause environmental destruction and bring attention to 
environmental issues. I assure you, Mr. Chairman, that unlike these 
characters in ``State of Fear'', I did not cause the two Gulf 
hurricanes in order to prompt this committee and this government into 
action.
    The damage caused by these two Gulf storms is not fiction. As far 
as I am aware, no one on the minority side of this committee has 
advocated that these storms should be used as the justification for the 
adoption of wild-eyed, drastic new policy initiatives. Instead, the 
destruction we have witnessed in recent weeks raises serious scientific 
questions that need to be answered in the very near term.
    We should be looking into the role of science in making critical 
response and recovery decisions. We need to incorporate scientific 
information as we develop programs to help prevent future flood damage. 
How will we determine the appropriate health and environmental 
standards for re-habitation of inundated areas? What does science tell 
us about the best ways to reconstruct in the Gulf Region? Should we be 
engaging in enhanced wetland protection and reconstruction to possibly 
protect against the severity of future storms?
    We should be asking those questions and getting answers 
expeditiously, as much as we may want to be focusing our attention on 
the longer term interaction between science and decision making.
    I should also say, in my 30 years in Congress, that I have been 
proud of some of the decisions we've made, even in the absence of 
perfect scientific information. We authorized a Brownfields program to 
help clean up our cities and towns. We did so even though in the 
decades since we passed Superfund we have continued to learn about the 
nature of toxic substances and the best ways to remediate them.
    As one of our witnesses will testify, the Senate ratified the 
Montreal Protocol to address ozone-depleting substances, even though 
there was some scientific uncertainty as that agreement was negotiated.
    Sometimes we need to act to preserve or even improve human health 
and the environment even when we don't have perfect information. We 
certainly would not want to wait until there is substantial scientific 
evidence of human suffering or death; in my opinion that is too long. 
We all recognize that one man's credible science is another man's 
boloney.
    Mr. Chairman, at the same time that this hearing is being held, 
there is also a Finance Committee hearing on Hurricane Katrina where 
the Governors of each of the affected States will be testifying. As a 
member of that committee, I plan to attend that hearing and will not be 
able to stay for all of this hearing.
    I ask Mr.Chairman that I be able to submit written questions to the 
witnesses, and that I am also able to submit additional scientific 
information into the record on the topics raised by the witnesses.
    I am anxious to hear from these Governors who may help us to better 
understand how the Federal Agencies we oversee in this committee may 
have let them down, and how, or if our committee can act to improve the 
crucial functioning of these agencies.
    This week, I will introduce legislation that the minority side of 
this committee believes is necessary to respond to the Gulf hurricanes. 
I think those affected by those disasters deserve nothing less than our 
full attention when they are most in need.

    Senator Inhofe. Thank you, Senator Jeffords. Since, in your 
opening statement, you ask a question of me, I will take the 
Chairman's prerogative and answer that question. Since Katrina 
we have had nearly 10 briefings for staff members, including 
two closed door member briefings from the Army Corps of 
Engineers, as well as the Environmental Protection Agency. I 
would say that we only had two people, you and Senator Boxer 
were the only two that showed up. As Chairman, I have been down 
there to the sites in all three States. We will be holding 
multiple hearings on Katrina beginning next week.
    That hearing is coming at the right time. I would remind 
you that following the attacks on 9/11, this committee did not 
hold its first oversight hearing on 9/11 until over a month 
after the attacks. From 9/11 until that hearing, the committee 
did not shut down; we held hearings unrelated to 9/11 and even 
a 2-day conference on Senator Jeffords P4 bill. That was the 
Climate bill that you had.
    So we have been asked by the Senators from the Gulf States, 
one of whom is here now, to not hold any immediate hearings 
that would divert recovery assets from the Gulf. Just as 
Chairman Jeffords waited an appropriate time following the 
attacks of 9/11, I have done the same thing. So I don't think 
this is at all inappropriate to hold this hearing at this time.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman. In the interest 
of time and hearing from the distinguished panel, I have just 
two statements that I would like to make.
    Senator Inhofe. I appreciate that.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. My two statements are, one, I appreciate 
the Chair conducting this hearing and getting such a 
distinguished panel.+
    Second, at the risk of seeming to pander, I would like to 
tell Dr. Crichton and thank him for the countless hours of 
entertainment he has given me on Delta Airlines back and forth 
to Washington over many, many years. I have read ``State of 
Fear'' and I found it very educational, very knowledgeable, and 
very entertaining. Thank you, Dr. Crichton.
    Senator Inhofe. All right. Senator Clinton.

OPENING STATEMENT OF HON. HILLARY RODHAM CLINTON, U.S. SENATOR 
                   FROM THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Mr. Chairman.
    I want to certainly support Senator Jeffords' efforts to 
come up with legislation. I look forward to the hearings you 
will be holding next week.
    I have to say, Mr. Chairman, I think that the topic of this 
hearing is a very important one. Unfortunately, I think the 
hearing is organized in a way that will muddy the issues around 
sound science, rather than helping us clarify them.
    First, with all respect to the extraordinary entertainment 
value and success of Dr. Crichton's works, his views on climate 
change are at odds with the vast majority of climate 
scientists. More importantly, his critique of climate change 
science appears in a work of fiction. It is a work of fiction 
even if it has footnotes, Mr. Chairman. His views have not been 
peer reviewed; they do not appear in any scientific journal.
    I won't go into an assessment of Mr. Crichton's critique 
point by point, because we don't have time. However, I do want 
to submit for the record a document prepared by the Union of 
Concerned Scientists that rebuts Mr. Crichton's primary 
arguments.
    [The referenced document can be found on page 95.]
    In addition, I want to submit a document prepared by James 
Hanson, Director of the Columbia University Earth Institute and 
Goddard Institute for Space Studies. In this document, Mr. 
Hanson details the distortions of his climate change 
predictions made by Mr. Crichton in his best selling novel.
    [The referenced document can be found on page 83.]
    Rather than focusing on Mr. Crichton's testimony, however, 
I would like to focus on several broader points about 
environmental policymaking and the record of this 
Administration, because I think this Administration has taken 
the politicization of science to new levels. That is not just 
my opinion; it is the opinion of hundreds of prominent 
scientists, 49 Nobel laureates, 63 National Medal of Science 
recipients, 154 members of the National Academies, and 
thousands of other scientists who have signed a statement 
criticizing the Administration's misuse and politicization of 
science. I want to read just a brief excerpt from that 
statement.
    ``When scientific knowledge has been found to be in 
conflict with its political goals, the administration has often 
manipulated the process through which science enters into its 
decisions. This has been done by placing people who are 
professionally unqualified or who have clear conflicts of 
interest in official posts and on scientific advisory 
committees, by disbanding existing advisory committees, by 
censoring and suppressing reports by the Government's own 
scientists, and by simply not seeking independent scientific 
advice. Other administrations have, on occasion, engaged in 
such practices, but not so systematically nor on so wide a 
front.
    Furthermore, in advocating policies that are not 
scientifically sound, the administration has sometimes 
misrepresented scientific knowledge and misled the public about 
the implications of its policies. For example, in support of 
the President's decision to avoid regulating emissions that 
cause climate change, the administration has consistently 
misrepresented the findings of the National Academy of 
Sciences, government scientists, and the expert community at 
large.
    Thus, in June 2003, the White House demanded extensive 
changes in the treatment of climate change in a major report by 
the Environmental Protection Agency. To avoid issuing a 
scientifically indefensible report, EPA officials eviscerated 
the discussion of climate change and its consequences.''
    Mr. Chairman, I ask that the full statement be included in 
the record.
    Senator Inhofe. Without objection.
    [The referenced report can be found on page 85.]
    Senator Clinton. Now, unfortunately, Mr. Chairman, the 
Administration has not only misused scientific data, they have 
also underfunded basic science. Funding for scientific research 
has flat-lined over the past few years. This year the 
Administration's proposed budget actually calls for a decrease 
in real dollars for federally funded research. Most of the R&D 
budget increases that did occur in the President's budget were 
for new defense weapons systems, not for basic research in 
electronics, nanotechnology, computing, energy, physics, and 
all of the other sciences.
    I believe the U.S. is in real danger of losing its lead in 
science and advanced technology. Federal R&D plays a critical 
role in the education and training of future scientists and 
engineers, technological innovation, advancing health, 
increasing economic growth and competitiveness.
    Now, Mr. Chairman, I am not, unfortunately, going to be 
able to stay for the entire panel, but I want to just make a 
few additional brief comments.
    Senator Inhofe. Senator Clinton, I am very, very sorry. We 
are all adhering to the time limit.
    Senator Clinton. Mr. Chairman, if I could just get 1-
minute. I just want to make a comment about a few of the 
witnesses----
    Senator Inhofe. Senator Boxer, would you like to yield her 
one of your minutes?
    Senator Clinton. I wouldn't ask that. But I think actually 
I may say something you agree with, Mr. Chairman.
    Senator Boxer. I would ask unanimous consent that the 
Senator from New York have an additional 60 seconds.
    Senator Inhofe. Without objection, so ordered.
    Senator Clinton. Thank you.
    I want to thank the panelists. Although I think that the 
point of the hearing is misleading, I think that some of the 
testimony from the panelists is very important. I want to thank 
Dr. Roberts for making it clear that there are questions that 
need to be raised about DDT. I think that is an essential issue 
that we need to look at. We can't necessarily turn the clock 
back, but I think the threat of malaria is real.
    I also want to thank Mr. Sandalow. I agree with you about 
the National Academy of Sciences request that you put in your 
testimony.
    Finally, I want to thank Ambassador Benedick. Your 
testimony about what can happen if people act in good faith is 
absolutely inspiring. The Montreal Protocol did risk imposing 
substantial short-run economic dislocations, even though the 
evidence was incomplete. But as your testimony demonstrates and 
as you conclude in your testimony, politics is the art of 
taking good decisions on insufficient evidence based on the 
best possible science.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Clinton follows:]

      Statement of Hon. Hillary Rodham Clinton U.S. Senator from 
                         the State of New York

    Mr. Chairman, I want to begin by echoing the comments of 
our Ranking Member, Senator Jeffords, who observed that the 
committee's time and energy would be better spent working on 
Katrina response.
    Having said that, I think we can all agree that science is 
an indispensable part of environmental policy making.
    Clearly, examining the proper role of science in policy 
making is a worthy subject for a hearing of this committee.
    Unfortunately, I think this hearing is organized in a way 
that will muddy this issue rather than clarifying it.
    First, the views of Mr. Crichton on climate change are at 
odds with the vast majority of climate scientists. More 
importantly, Mr. Crichton's critiques of climate change science 
appear in a work of fiction. His views have not been peer 
reviewed. They do not appear in any scientific journal.
    I won't go through an assessment of Mr. Crichton's critique 
point-by-point. However, I do want to submit for the record a 
document prepared by the Union of Concerned Scientists that 
rebuts Mr. Crichton's primary arguments. In addition, I want to 
submit a document prepared by James Hansen, director of the 
Columbia University Earth Institute and Goddard Institute for 
Space Studies. In this document, Mr. Hansen details distortions 
of his climate change predictions made by Mr. Crichton.
    Rather than focusing on Mr. Crichton's testimony, however, 
I would like to make several broader points about environmental 
policy making and the record of this Administration.
    Because I think that this Administration has taken 
politicization of science to new levels.
    That's not just my opinion, it's the opinion of hundreds of 
prominent scientists. 49 Nobel laureates, 63 National Medal of 
Science recipients, 154 members of the National Academies and 
thousands of other scientists have signed a statement 
criticizing the Administration's misuse of science.
    I want to read a brief excerpt from that statement. ``When 
scientific knowledge has been found to be in conflict with its 
political goals, the administration has often manipulated the 
process through which science enters into its decisions. This 
has been done by placing people who are professionally 
unqualified or who have clear conflicts of interest in official 
posts and on scientific advisory committees; by disbanding 
existing advisory committees; by censoring and suppressing 
reports by the Government's own scientists; and by simply not 
seeking independent scientific advice. Other administrations 
have, on occasion, engaged in such practices, but not so 
systematically nor on so wide a front. Furthermore, in 
advocating policies that are not scientifically sound, the 
administration has sometimes misrepresented scientific 
knowledge and misled the public about the implications of its 
policies.
    For example, in support of the president's decision to 
avoid regulating emissions that cause climate change, the 
administration has consistently misrepresented the findings of 
the National Academy of Sciences, government scientists, and 
the expert community at large. Thus in June 2003, the White 
House demanded extensive changes in the treatment of climate 
change in a major report by the Environmental Protection Agency 
(EPA). To avoid issuing a scientifically indefensible report, 
EPA officials eviscerated the discussion of climate change and 
its consequences.''
    Mr. Chairman, I ask that the full statement be included in 
the record.
    Unfortunately, Mr. Chairman, the Administration has not 
only misused scientific data; they have underfunded basic 
science.
    Funding for scientific research has flat-lined over the 
past few years. This year, the Administration's proposed budget 
actually called for a decrease in real dollars for federally 
funded research [from $55.2 billion to $54.8 billion, a 0.6 
percent reduction]
    Most of the R&D budget increases that did occur in the 
President's budget were for new defense weapons systems, not 
for basic research in electronics, nanotechnology computing, 
energy and physics
    The U.S. is in real danger of losing its lead in science 
and advanced technology. Federal R&D plays a critical role in 
the education and training of future scientists and engineers, 
technological innovation, advancing health, increasing economic 
growth and competitiveness, and increasing national and 
homeland security. We need to do better.
    I hope that at a later date, we can have a more rounded 
discussion of this issue that includes an opportunity to ask 
Administration witnesses to answer for the way that they have 
used science in environmental policy making.

    Senator Inhofe. Thank you, Senator Clinton.
    Senator Bond.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Mr. Chairman. Obviously, 
this is going to be an exciting hearing. Unfortunately, I have 
to go to a fiscal responsibility budget meeting on Katrina. We 
will let the discussion continue on what caused Katrina as we 
try to figure out what to pay for and how to pay for it. I do 
want to say that I believe it is time that we had a thorough 
airing of how scientific evidence either does or does not 
influence the policymakers and legislation and Administration.
    I might just point out--and maybe Dr. Sandalow would want 
to expand upon it--in the previous Administration there were 
complaints directed against the EPA and the State Department, 
which apparently once urged Intergovernmental Panel on Climate 
Change to alter a chapter in a scientific report specifically 
to delete phrases that cast scientific doubts on human 
influences on climate. In fact, one scientist admitted doing so 
to satisfy the State Department, and that may be an interesting 
area for further discussion.
    I have seen too many areas where science has been misused, 
causing policy decisions that are not warranted or justified, 
and examples over the years where there have been harsh and 
sweeping policy decisions, either outdated, grossly 
exaggerated, or highly misleading. In some decisions, existing 
relevant information seems to have been ignored. We see, in my 
State, places where faulty science has had far-reaching policy 
decisions affecting the livelihoods and the lives of thousands 
of individuals, families, and businesses.
    We have heard on the DDT, where excessive concern over DDT 
may have been causing tremendous deaths from malaria. In my 
State, unsound scientific guesses have led to the possibility 
of flooding and risking lives, man-made flooding as a result of 
mandated spring rises when the rivers are already high, and 
potential devastation of agricultural livelihood of many areas 
of our State where our most bountiful crops are grown in the 
flood plane.
    I am reading, and will continue to read, the opening 
statements of our distinguished panel. Dr. Gray, I was most 
interested to see how you have been dismayed by science and 
media hype over nuclear winter and human endorsed global 
warming hypothesis. I think that will be an interesting subject 
to pursue in light of Katrina.
    I too have read ``State of Fear''. Even though it was not 
assigned by our Chairman, I read it because, No. 1, it was 
interesting fiction. Also I found the scientific footnotes to 
be of great interest. We met with representatives of a leading 
environmental organization who had a whole list of rebuttals to 
this.
    So I asked my staff to pursue the thesis that you put forth 
in your footnotes and the rebuttals, and an interesting thing 
came back. They said, well, the rebuttals set up straw men; 
they attributed to Dr. Crichton things that he did not say. He 
merely stated the great deal of uncertainty. I said, well, what 
was wrong with Dr. Crichton's thesis, his scientific footnotes? 
They said nothing that we can find.
    The people attacking them chose to misstate his 
conclusions. If you set up a straw man, it is easy to knock him 
down.
    I know all of you will have an opportunity to respond to 
straw men, legitimate questions and others, and I look forward 
to reading the record.
    Senator Inhofe. Thank you, Senator Bond.
    Senator Lautenberg.

  OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, U.S. SENATOR 
                  FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thanks very much, Mr. Chairman, and 
thank you for inviting the members of this distinguished panel 
to testify here today. We are, among the group, honored to have 
Dr. Crichton here, a physician by training, best known, 
however, as a writer of fiction and movies. The book Jurassic 
Park was made into a film that ranks among the 10 highest 
grossing movies of all times. I have 10 grandchildren; they 
reported back to me and they liked it, so I will use them as 
the yardstick and say that nobody can dispute Dr. Crichton's 
talent as a writer of science fiction.
    But our community needs science facts. In his latest book, 
``State of Fear'', Dr. Crichton expresses his doubt that global 
warming poses a real threat to our planet.
    Now, Mr. Chairman, I have a full statement that I am going 
to ask to be included in the record.
    Senator Inhofe. Without objection, that will be the case.
    Senator Lautenberg. I will use the balance of my time to 
relate a personal experience. I went down to the South Pole a 
couple years ago because I wanted to see what was happening 
with the National Science Foundation. I found there alarming 
conclusions that the supply of fresh water that was stored in 
the ice was disappearing at a rapid rate, that there was a huge 
ice melt. We know that Ward's Island and other significant 
chunks of the Antarctica were afloat in the ocean, disappearing 
into the salt water.
    You have to say, without having the scientific discussion 
that we would like to have here one day, Mr. Chairman, this 
one, but I would like to see us have another one and maybe have 
representation from the Union of Concerned Scientists, National 
Academy of Sciences, because I think that we are getting into 
an area of subjective thinking that represents a great danger 
for us currently and in the future, and you see so much 
evidence of it.
    Now, I learned in my trip to the Antarctica and the South 
Pole that, if one goes to Australia, that the hole in the ozone 
layer and, thereby, the global warming that exists, is a threat 
to child health. If children go to the beaches there, they are 
compelled to wear full bathing suits, hats, etc. and the rate 
of melanoma in Australia almost exceeds that of other countries 
around the world by a substantial margin.
    So as we look at the challenge that is raised here today, 
the thing that perplexes me is--and if I am able to stay, I 
will; otherwise, I am going to submit questions in writing, Mr. 
Chairman, and hope that I will be able to get an answer back--
is there any agreement at all that the earth is getting warmer?
    The Defense Department commissioned a report in 2003 that 
presented an ominous picture of what the last half of the 
twenty-first century might look like, with flooding in all 
kinds of places, including The Netherlands and Bangladesh, and 
suggesting that the military be prepared to fight off those 
seeking higher ground, those seeking survival, and attempting 
the worst dangers that nature can offer on oceans and mountains 
and you name it to get to safer ground. So we can dismiss these 
things by challenges that don't necessarily bear the scientific 
approvals that make it more valid.
    I hope, Mr. Chairman, before we finish these studies of 
ours, that we will have gone to all sides of the issue. Thank 
you very much.
    [The prepared statement of Senator Lautenberg follows:]

       Statement of Hon. Frank R. Lautenberg, U.S. Senator from 
                        the State of Connecticut
    Mr. Chairman, thank you for convening this hearing.
    We're honored to have with us today Michael Crichton, a medical 
doctor by training who is best known as a writer of fiction and movies.
    His book ``Jurassic Park'' was made into a film that ranks among 
the 10 highest grossing movies of all time. I have 10 grandchildren so 
I know it well.
    In ``Jurassic Park'', Dr. Crichton concocted a fascinating tale 
about scientists who clone dinosaurs using DNA from fossils.
    Nobody can dispute Dr. Crichton's talent as a writer of science 
fiction.
    But this committee needs scientific facts, not science fiction.
    His latest book, ``State of Fear'' expresses doubt that global 
warming poses a real threat to our planet.
    If we learned tomorrow that scientists had cloned dinosaurs from 
DNA in fossils, Mr. Crichton would be hailed for his astute prediction.
    But most scientists who have devoted their whole lives to studying 
such issues do not dismiss the threat of global warming.
    Everyone agrees that the Earth is getting warmer. The last 4 years 
have been among the five hottest years on record.
    And the projections for the future are not comforting.
    It's a fact that hurricanes draw their power from warm waters in 
the ocean. For years, climate scientists have warned that higher ocean 
temperatures would spawn more powerful storms.
    And in fact, we do have more powerful storms today than we did just 
a few decades ago.
    Just this month, the Journal Science reported that the proportion 
of storms that achieve Category four or five status has almost doubled 
since the 1970s.
    Yet even when the warnings of climate scientists are borne out, 
some people cling to denial.
    It might make a good story to imagine that the threat of global 
warming is a concoction of groups with a political agenda.
    But we need scientific facts not science fiction.
    Here's another fact: once greenhouse gases enter our atmosphere, 
they remain there for a long time. There is nothing we can do to remove 
them.
    So every day that we fail to act, the potential consequences grow 
worse.
    By refusing to act, we are gambling on the outside chance that most 
of the scientists are wrong.
    Let's not take that gamble with the future of our children and 
grandchildren.
    Let's enjoy science fiction like Jurassic Park but let's base our 
decisions on scientific facts.
    Thank you Mr. Chairman.

    Senator Inhofe. Thank you, Senator Lautenberg.
    Senator Murkowski.

OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM THE 
                        STATE OF ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I too want to 
thank you for scheduling this very important hearing, and look 
forward to hearing from the witnesses. It is unfortunate that 
we have so much going on this morning and that so many of us 
won't be able to stay. I intend to stay for as long as I 
possibly can, so I will be sitting here with you to listen to 
the comments.
    Our job in the Senate here is to understand the issues, to 
make the decisions based on our understanding and to form 
public policy based on those decisions. Very often our subjects 
come from areas in which we have very little personal 
involvement or expertise, so we have to depend on expert 
witnesses. They educate us on the range of viewpoints, present 
us with the relevant factors, and, if we are lucky, they can 
cut through the ticket of contradicting claims.
    Unfortunately, sometimes we are not always lucky. Sometimes 
we see eminent scientists who provide us with only part of the 
story, the part of the story that might suit them. That is 
unfortunate, because when we only have half of the story, half 
of the story can result in bad decisions, and bad decisions 
lead to bad policy, and bad policy leads to a loss of trust. 
That, Mr. Chairman, is something that we simply can't afford, 
not as individuals, and certainly not as a Country.
    Now, as an Alaskan, I have watched how several episodes of 
poor decisionmaking based on poor or perhaps incomplete 
information results in what we consider to be poor policies and 
negative impacts, whether they be impacts to our fishing 
industry or our mining industry or our forest products industry 
and others. Real people are affected by these decisions that 
are made.
    Now, many of these decisions have been based on an approach 
often called the precautionary principle. This term is 
generally interpreted to mean that one should take action to 
prevent harm, even if the harm has not yet been determined to 
exist or there is still uncertainty about its cause. While the 
sentiment for that is laudable, it may not always be 
justifiable. From a scientific or science perspective, the 
first and most important precautionary principle may be to 
refrain from any action unless both the harm and the efficacy 
of the proposed action are both understood and understood well 
enough to avoid unintended adverse consequences.
    Mr. Chairman, I think that this discussion is long overdue. 
Speculation on consequences or remedies can be a dangerous 
path, particularly when the proposed solutions themselves can 
be damaging to our interests. So I look forward to the comments 
this morning from this very distinguished panel, and hopefully 
an ongoing dialog in this vein. Thank you.
    [The prepared statement of Senator Murkowski follows:]

          Statement of Hon. Lisa Murkowski, U.S. Senator from 
                          the State of Alaska
    Mr. Chairman, thank you for scheduling this important hearing. I 
look forward to hearing from all our distinguished witnesses.
    Our job is to understand issues, to make decisions based on our 
understanding, and to form public policy from those decisions.
    Very often our subjects come from areas in which we have little 
personal involvement or expertise, so we necessarily depend on expert 
witnesses. They educate us on the range of viewpoints, present us with 
relevant facts, and if we are lucky, they cut through thickets of 
contradicting claims.
    Unfortunately, we aren't often that lucky. We've all watched 
eminent scientists provide only the parts of the story that suit them. 
We all know it's human nature for them to do so, no matter how 
illustrious their reputations. Most of us, I think, have learned that 
blowing smoke doesn't always mean there is a fire. Sometimes it's only 
smoke and mirrors.
    The result of smoke and mirrors is bad decisions, whether they are 
made by Congress or by an executive branch agency. Bad decisions lead 
to bad policy, and bad policy leads to the loss of trust. That, Mr. 
Chairman, is something we simply cannot afford. Not as individuals and 
not as a country.
    As an Alaskan I've watched several episodes of poor decision-making 
based on poor information and resulting in poor policies and negative 
impacts to our fishing industry, or mining industry, our forest 
products industry and others. Real people are affected by those 
decisions.
    Many of those decisions have been based on an approach often called 
the ``precautionary principle.'' This term is generally interpreted to 
mean one should take action to prevent harm even if ``harm'' has not 
yet been determined to exist, or there is still uncertainty about its 
cause.
    The sentiment for that is laudable, but not always justifiable. 
From a science perspective, the first and most important 
``precautionary principle'' may be to refrain from action unless both 
the harm and the efficacy of the proposed action are understood well 
enough to avoid unintended adverse consequences.
    I think this discussion is long overdue. Speculation on 
consequences or remedies can create a dangerous path, particularly when 
the proposed solutions themselves can be damaging to our interests. I 
look forward to the witnesses' comments on the matter.

    Senator Inhofe. Thank you, Senator Murkowski.
    Senator Boxer.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. Thank you, Mr. Chairman, and welcome to the 
entire panel.
    In this committee it is our job to talk about sound 
science. It is not in our committee rules to discuss novels or 
plays or TV shows or movies, although, as a Senator from 
California, I appreciate my chairman's focus on the arts, 
because it is very important to me.
    I think we all agree that higher ocean temperatures result 
in stronger storms. I don't think that is a debate. The 
supposed disagreement is over the cause of the higher ocean 
temperatures. But, in truth, if you look at who lines up on 
each side of this, I don't really think there is a disagreement 
among the real experts that a key contributor to rising ocean 
temperatures is global warming. The leading scientists around 
the world have overwhelmingly accepted this proposition. I have 
a chart here I would like to show you.
    You see here the organizations that support the existence 
of climate change: National Academy of Sciences, American 
Geophysical Union, American Association for the Advancement of 
Science, American Meteorological Society representing 48,000 
members now, National Sciences Academies of France, Germany, 
Italy, Canada, Japan, Russia, the United Kingdom, Brazil, 
India, and China.
    Now, on the other side you have individuals. I won't go 
through their names. They are from different institutes: the 
George Marshall Institute, American Enterprise Institute, 
Competitive Enterprise, American Enterprises, again Competitive 
Enterprise--so these are duplicates here of some reason--
Frazier Institute, Cato Institute, Center for the Study of 
Carbon Dioxide and Global Change, a gentleman who is here today 
from Colorado State University, American Council for Capital 
Formation, and a gentleman from the Science and Environmental 
Policy Project. Every one of these except two are supported by 
a huge oil company. So let us get it straight in terms of who 
fits on what side.
    So, yes, there are a few dissenters on the issue, but they 
receive major support from the industries that would have to 
pay a price if in fact we move forward on global warming and 
doing something about it.
    So given what we know about the devastating effects of 
hurricanes and the threats caused by global warming--which 
could include flooding of our coastal cities, loss of 
agriculture, irreparable damage to ecosystems--I think we have 
to focus on fact, not fiction. How do we resolve it?
    So I think we must set aside all of our disagreements--and 
we will have disagreements, Mr. Chairman--on DDT and what 
alternatives there may be and our disagreements on other 
things. However I think we agree that--and I hope we would 
agree, and I know the Corps agrees--protection of wetlands 
would be a positive step in helping protect us against 
hurricanes.
    So for the remainder of my time, I want to show you a 
chart, a picture of a situation where you see how the wetlands 
act as a buffer. Here you have the ocean. Here you have a very 
healthy wetland and here you have the land. When we were 
briefed--and Mr. Chairman, I do appreciate the meetings that 
you called--I learned so much.
    When the Corps spoke to us, they basically said that the 
wetlands act as a cooling down element so that by the time the 
hurricane reaches where people are, it is not as fierce. It is 
also a buffer; it is also a sponge. So these wetlands are a 
gift from God. We are all beginning to understand better just 
how valuable they are.
    In my home State of California, I am so sad to tell you 
that we have lost 91 percent of our wetlands. It is disastrous. 
We are suffering more flooding than ever. Now, in the lower 48, 
we have lost 53 percent of our wetlands. Louisiana loses the 
equivalent of one football field of wetlands every 38 minutes. 
So with our increased understanding of the importance of 
wetlands, I think we can work together in this committee, 
setting aside how we feel about why the oceans are warming up. 
Let us set it aside. Let us do something for our Country.
    So thank you very much, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boxer.
    Before you speak, I want to make sure everyone here is 
aware that probably Senator Voinovich is the most knowledgeable 
person on air issues. When he was Governor of Ohio, he was 
chairman of that committee of the Governors Conference, and it 
is always an honor to have him appear when we are talking about 
air issues.
    Senator Voinovich.

  OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, U.S. SENATOR 
                     FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Mr. Chairman, for having this 
hearing.
    This is an area of great interest to me and of great 
concern. I have introduced legislation in past Congresses to 
improve the role of science in policy decisions at the 
Environmental Protection Agency. I believe that by improving 
science at the Agency we can improve the framework of our 
regulatory decisions. It is important that these regulations be 
effective, not onerous and inefficient. They must be based on a 
solid foundation of solid understanding and data.
    In 2000, the National Research Council recommended changes 
to improve science within the EPA in their report 
``Strengthening Science at the U.S. Environmental Protection 
Agency, Research Management and Peer Review Practices.'' My 
legislation, the Environmental Research Enhancement Act, would 
have implemented several of the Council's recommendations.
    Mr. Chairman, I understand that you are also working on 
legislation, and I look forward to working with you on it.
    EPA was created in 1970 by President Nixon with the mission 
to protect human health and safeguard the environment. EPA was 
part of President Nixon's reorganization efforts to effectively 
ensure the protection, development, and enhancement of the 
total environment. This mission requires the EPA have a 
fundamental understanding of the science behind the real and 
potential threats to public health and the environment. 
Unfortunately, many institutions, citizens, and groups believe 
that science has not always played a significant role in EPA's 
decisionmaking process.
    The National Research Council's 2000 report concluded: 
``While the use of sound science is one of EPA's goals, the 
Agency needs to change its current structure to allow science 
to play a more significant role in its decisions made by the 
administrator.''
    I want to quickly explain how my legislation was designed 
to improve policymaking at EPA. First, the new Deputy 
Administrator for Science and Technology would be established 
at EPA. The individual would oversee the Office of Research and 
Development, Environmental Information Agency, Science Advisory 
Board, Science Policy Council, and scientific and technical 
activities in the Agency's regulatory programs.
    This new position would be equal in rank to the current 
deputy administrator and would report directly to the 
administrator. The new deputy would be responsible for 
coordinating science research and application between the 
scientific and regulatory arms of the Agency to ensure that 
sound science is the basis for decisions.
    Second, EPA's current top science job, Assistant 
Administrator for Research and Development, would be appointed 
for 6 years, instead of the current 4-year political 
appointment. According to the Council, this position is one of 
EPA's weakest and most transient administrative positions, even 
though this position addresses some of the Agency's more 
important topics. By lengthening the term of this position, I 
had hoped to remove it from the realm of politics, allowing the 
Assistant Administrator to focus on science and providing more 
continuity in the Agency's scientific work across 
administrations.
    I have long believed that sound science, not politics, 
should drive our Nation's environmental policy. In fact, I 
believe that in harmonizing our Nation's economic, 
environmental, and energy policies, that sound science should 
be the uniting factor. Unfortunately, this has not been the 
case, and we are paying for it in thousands of lost jobs and 
with the highest natural gas prices in the world. And unless we 
start to harmonize our needs to become more energy independent, 
we are not going to be able to compete in the global 
marketplace, and our national economy and our national security 
will continue to be in jeopardy.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Voinovich follows:]

       Statement of Hon. George V. Voinovich, U.S. Senator from 
                           the State of Ohio
    Mr. Chairman, thank you for holding this hearing on the important 
subject of the role of science in environmental policymaking. This is 
an area of great interest and concern for me.
    I have introduced legislation in past Congresses to improve the 
role of science in policy decisions at the Environmental Protection 
Agency (EPA). I believe that by improving science at the Agency, we can 
improve the framework of our regulatory decisions. It is important that 
these regulations be effective, not onerous and inefficient. They must 
be based on a solid foundation of scientific understanding and data.
    In 2000, the National Research Council recommended changes to 
improve science within the EPA in their report, ``Strengthening Science 
at the U.S. Environmental Protection Agency: Research Management and 
Peer Review Practices.'' My legislation, the Environmental Research 
Enhancement Act, would have implemented several of the Council's 
recommendations. Mr. Chairman, I understand that you are also working 
on legislation, and I look forward to working with you.
    EPA was created in 1970 by President Nixon with a mission to 
protect human health and safeguard the environment. EPA was part of 
President Nixon's reorganization efforts to effectively ensure the 
protection, development, and enhancement of the total environment.
    This mission requires that EPA have a fundamental understanding of 
the science behind the real and potential threats to public health and 
the environment. Unfortunately, many institutions, citizens, and groups 
believe that science has not always played a significant role in EPA's 
decision-making process. The National Research Council's 2000 report 
concluded that, while the use of sound science is one of EPA's goals, 
the Agency needs to change its current structure to allow science to 
play a more significant role in decisions made by the Administrator.
    I want to quickly explain how my legislation was designed to 
improve policymaking at EPA. First, a new Deputy Administrator for 
Science and Technology would be established at EPA. This individual 
would oversee the Office of Research and Development; Environmental 
Information Agency; Science Advisory Board; Science Policy Council; and 
scientific and technical activities in the Agency's regulatory 
programs. This new position would be equal in rank to the current 
Deputy Administrator and would report directly to the Administrator. 
The new Deputy would also be responsible for coordinating scientific 
research and application between the scientific and regulatory arms of 
the Agency to ensure that sound science is the basis for regulatory 
decisions.
    Second, EPA's current top science job, Assistant Administrator for 
Research and Development, would be appointed for 6 years instead of the 
current 4-year political appointment. According to the Council, this 
position is one of EPA's weakest and most transient administrative 
positions even though this position addresses some of the Agency's more 
important topics. By lengthening the term of this position, I hoped to 
remove it from the realm of politics allowing the Assistant 
Administrator to focus on science and providing more continuity in the 
Agency's scientific work across administrations.
    I have long believed that sound science, not politics should drive 
our Nation's environmental policies. In fact, I believe that in 
harmonizing our Nation's economic, environmental and energy policies, 
sound science should be the uniting factor.
    Unfortunately, this has not been the case, and we are paying for it 
in thousands of lost jobs and the highest natural gas prices in the 
world. Unless we start harmonizing our needs to become more energy 
independent, we will not be able to compete in the global marketplace 
and our national economy and national security will be in jeopardy.
    Mr. Chairman, I again thank you for holding this hearing today.

    Senator Inhofe. Thank you, Senator Voinovich.
    If any other members come in, we will not recognize them 
for opening statements, because we are going to try to stay on 
our time line.
    Since several statements have been made about the National 
Academy of Sciences, I would like to enter into the record a 
letter from the former president of the National Academy of 
Sciences to the president of the Royal Society. It refutes the 
charge the Bush Administration has ignored the NAS' 
recommendations.
    The letter says: ``By appending your own phrase by reducing 
emissions of greenhouse gases to an actual quote from our 
report, you have considerably changed our report's meaning and 
intent. As you must appreciate, having your own 
misinterpretation of the U.S. Academy work widely quoted in our 
press has caused considerable confusion both at my Academy and 
in our Government.''
    This entire letter will be entered as part of the record.
    [The referenced letter can be found on page 93.]
    Senator Inhofe. All right, we have already introduced our 
distinguished panel, and we will start with Dr. Crichton. I 
would like to ask the members of this panel to try to confine 
your comments to a maximum of 10 minutes. We will do our best 
to accommodate you. Don't feel like you have to take a full 10 
minutes, but we will try to do that.
    I would like to ask any member who has family with him to 
introduce that family.
    Dr. Crichton, we are delighted to have you here. Thank you 
for your appearance.

      STATEMENT OF MICHAEL CRICHTON, M.D., AUTHOR, DOCTOR

    Dr. Crichton. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to discuss the 
important subject of politicization of----
    Senator Inhofe. Aren't you going to introduce Sherri?
    Dr. Crichton. Oh, yes. I am sorry. I am going to pay for 
that.
    This is my wife, Sherri Alexander, behind me. Sorry, honey.
    [Laughter.]
    Dr. Crichton. I appreciate the opportunity to discuss the 
important subject of politicization of research. In that 
regard, what I would like to emphasize to the committee today 
is the importance of independent verification to science.
    In essence, science is nothing more than a method of 
inquiry. The method says an assertion is valid and merits 
universal acceptance only if it can be independently verified. 
The impersonal rigor of the method means that it is utterly 
apolitical.
    A truth in science is verifiable whether you are black or 
white, male or female, old or young. It's verifiable whether 
you like the results of the study or whether you don't.
    Thus, when adhered to, the scientific method can transcend 
politics. The converse may also be true. When politics take 
precedent over content, it is often because the primacy of 
independent verification has been overwhelmed by competing 
interests.
    Verification may take several forms. I come from medicine, 
where the gold standard is the randomized double-blind study, 
which has been the paradigm of medical research since the 
1940's.
    In that vein, let me tell you a story. It is 1991 and I am 
flying home from Germany, sitting next to a man who is almost 
in tears, he is so upset. He is a physician involved in an FDA 
study of a new drug. It is a double-blind study involving four 
separate teams: one plans the study, another administers the 
drug to patients, a third assesses the effect on patients, and 
a fourth analyzes the results. The teams do not know each other 
and are prohibited from personal contact of any sort on peril 
of contaminating the results.
    This man has been sitting in the Frankfort Airport 
innocently chatting with another man when they discover to 
their mutual horror they are on two different teams studying 
the same drug. They were required to report their encounter to 
the FDA, and my companion was now waiting to see if the FDA 
would declare their multi-year, multimillion dollar study 
invalid because of this chance contact.
    For a person with a medical background accustomed to this 
degree of rigor in research, the protocols of climate science 
appear considerably more relaxed. In climate science, it is 
permissible for raw data to be touched or modified by many 
hands. Gaps in temperature and proxy records are filled in. 
Suspect values are deleted because a scientist deems them 
erroneous. A researcher may elect to use parts of existing 
records, ignoring other parts. But the fact that the data has 
been modified in so many ways inevitably raises the question of 
whether the results of a given study are wholly or partially 
caused by the modifications themselves.
    In saying this, I am not casting aspersions on the motives 
or fair-mindedness of climate scientists. Rather, what is at 
issue is whether the methodology of climate science is 
sufficiently rigorous to yield a reliable result. At the very 
least, we should want the reassurance of an independent 
verification by another lab in which they would make their own 
decisions about how to handle the data and yet arrive at a 
similar result.
    Because the fact is that any study where a single team 
plans the research, carries it out, supervises the analysis, 
and writes their own final report carries a very high risk of 
undetected bias. That risk, for example, would automatically 
preclude the validity of the results of a similarly structured 
study that tested the efficacy of a drug. No one would believe 
it.
    By the same token, any verification of the study by 
investigators with whom the researcher had a professional 
relationship--people with whom, for example, he had published 
papers in the past--would not be accepted. That is peer review 
by pals and is unavoidably biased. Yet, these issues are 
central to the now familiar story of the ``Hockey stick graph'' 
and the debate surrounding it.
    To summarize it briefly, in 1998-1999, the American climate 
researcher Michael Mann and his coworkers published an estimate 
of global temperatures from the year 1000 to 1980. Mann's 
results appeared to show a spike in recent temperatures that 
was unprecedented in the last 1,000 years. His alarming report 
formed the centerpiece of the U.N.'s Third Assessment Report in 
2001.
    Mann's work was criticized from the start, but the real 
fireworks began when two Canadian researchers, McIntyre and 
McKitrick, attempted to replicate Mann's study. They found 
grave errors in the work, which they detailed in 2003: 
calculation errors, data used twice, data filled in, and a 
computer program that generated a hockey stick out of any data 
fed to it, even random data.
    Mann's work has since been dismissed by scientists around 
the world who subscribe to global warming. Why did the U.N. 
accept Mann's report so uncritically? Why didn't they catch the 
errors? Because the IPCC doesn't do independent verification. 
Perhaps also because Mann himself was in charge of that section 
of the report that included his own work.
    The hockey stick controversy drags on. But I would direct 
the committee's attention to three aspects of this story. 
First, 6 years passed between Mann's publication and the first 
detailed account of errors in his work. This is simply too long 
for policymakers to wait for validated results.
    Second, the flaws in Mann's work were not caught by climate 
scientists but, rather, by outsiders, in this case, an 
economist and a mathematician. They had to go to great lengths 
to obtain their data from Mann's team, which obstructed them at 
every turn. When the Canadians sought help from the NSA, which 
was the funding Agency, they were told that Mann was under no 
obligation to provide his data to other researchers for 
independent verification.
    Third, this kind of stonewalling is not unique. The 
Canadians are now attempting to replicate other climate studies 
and are getting the same runaround from other researchers. One 
prominent scientist told them: ``Why should I make the data 
available to you, when your aim is to try and find something 
wrong with it.''
    Even further, some scientists complain the task of 
archiving is so time-consuming as to prevent them from getting 
any work done. This is nonsense. Today we can burn data to a CD 
or post it at an FTP site for downloading. Archiving data is so 
easy it should have become standard practice a decade ago. 
Government grants should require a ``replication package'' as 
part of funding. Posting the package online should be a 
prerequisite to journal publication. There is really no reason 
to exclude anyone from reviewing the data.
    Of course, replication takes time. Policy makers need sound 
answers to the questions they ask. A faster way to get them 
might be to give research grants for important projects to 
three independent teams simultaneously. A provision of the 
grant would be that at the end of the study period, all three 
papers would be published together, with each group commenting 
on the findings of the others. I believe this would be the 
fastest way to get verified answers to important questions.
    But if independent verification is the heart of science, 
what should policymakers do with research that is unverifiable? 
For example, the U.N. Third Assessment Report defines general 
circulation climate models as unverifiable. If that is true, 
are their predictions of any use to policymakers?
    I would argue they are not. Senator Boxer says that we need 
science fact, and I completely agree. But the unavoidable truth 
is that a prediction is never a fact.
    In any case, if policymakers decide to weight their 
decisions in favor of verified research, that will provoke an 
effort by climate scientists to demonstrate their concerns 
using objectively verifiable data. I think we will all be 
better for it.
    In closing, I want to state emphatically that nothing in my 
remarks should be taken to imply that we can ignore our 
environment or that we should not take climate change 
seriously. On the contrary, we must dramatically improve our 
record on environmental management. That is why a focused 
effort on climate science aimed at securing a sound, 
independently verified answers to policy questions is so 
important now.
    I would remind the committee that in the end it is the 
proper function of government to set standards for the 
integrity of information it uses to make policy. Those who 
argue that government should refrain from mandating quality 
standards for scientific research--and that includes some 
professional organizations--are merely self-serving. In an 
information society, public safety depends on the integrity of 
public information. Only Government can perform that task.
    Thank you very much.
    Senator Inhofe. Thank you, Dr. Crichton, for an excellent 
statement.
    Mr. Benedick.

  STATEMENT OF THE HONORABLE RICHARD E. BENEDICK, PRESIDENT, 
        NATIONAL COUNCIL FOR SCIENCE AND THE ENVIRONMENT

    Mr. Benedick. Thank you, Mr. Chairman. Without a reminder, 
I would like to introduce my fiancee, Irene Federwisch, who has 
come here from Berlin, and who is not a fan of Environment 
Minister Trittin.
    This is actually the first time that I have appeared not as 
a government witness, so it is kind of a new feeling.
    Since 1994 I have been President of the National Council 
for Science and the Environment, which is an organization 
dedicated to improving the scientific basis for environmental 
decisionmaking, and in this context I would like to express 
appreciation to Senator Voinovich for his initiatives to 
improve science at the Environmental Protection Agency.
    During the 1980's, I served under President Reagan as 
Deputy Assistant Secretary of State for Environment. In 1985 I 
was designated by Secretary of State George Schultz and then 
Assistant Secretary John Negroponte to be the chief U.S. 
negotiator for a treaty to regulate certain chemicals suspected 
of depleting the stratospheric ozone layer.
    I have submitted more extensive written testimony, which I 
will summarize today. It tells the story of a remarkable 
collaboration between scientists and government in the 
development of public policy under conditions of risk and 
uncertainty.
    CFCs and related halons seemed to be ideal manmade 
chemicals. Invented in the 1930's, they found more uses in 
thousands of products and processes: in pharmaceuticals, in 
agriculture, in electronics, in defense and agriculture and 
telecommunications, just to name a few. CFCs became virtually 
synonymous with modern standards of living.
    Billions of dollars of international investment and 
hundreds of thousands of jobs were involved in their production 
and consumption. Powerful governments in Europe aligned with 
global economic interests in adamant opposition to controls, 
maintaining that alternatives were nonexistent or too costly or 
unfeasible.
    Most other governments and peoples were unaware or 
indifferent to an arcane threat occurring 30 miles above 
earth's surface. As an Indian diplomat admonished me: ``Rich 
man's problem--rich man's solution.''
    Perhaps most significant, during the negotiations the 
arguments for controlling CFCs rested on unproved scientific 
theories that these useful chemicals could damage the 
stratospheric ozone layer that protects life on earth from 
harmful solar radiation. The science was based on projections 
from still-evolving computer models of imperfectly understood 
atmospheric processes, models that yielded varying, and even 
sometimes contradictory predictions, each time they were 
refined.
    Nevertheless, after contentious international negotiations, 
a strong control treaty was signed in Montreal in September 
1987, just 18 years ago. The treaty was hailed in the U.S. 
Senate as ``the most significant international environmental 
agreement in history.'' President Reagan became the first head 
of state to endorse the Montreal Protocol, pronouncing it, ``a 
monumental achievement of science and diplomacy,'' and the 
treaty was unanimously ratified by the Senate.
    The most extraordinary aspect of the Protocol was that it 
imposed significant short-term costs in order to protect human 
health and the environment against future dangers that rested 
on scientific theories rather than on proven facts. Unlike past 
environmental agreements, this was not a response to harmful 
events but, rather, preventive action on a global scale.
    Even so, it was a near thing. For decades no one had 
suspected that these wonder-chemicals could cause any harm. 
They had been thoroughly tested by customary industrial 
standards and declared completely safe. Possible effects 30 
miles above the earth had simply never been considered.
    Unquestionably, the indispensable element in the success of 
the Montreal Protocol was the role of science and scientists. 
Without the curiosity and courage of a handful of researchers 
in the mid-1970's, the world might have learned too late of the 
hidden dangers.
    Ozone's existence was unknown until 1839, and it has been 
characterized by NOAA scientists as ``the single most important 
chemically active trace gas in the earth's atmosphere.'' The 
ozone layer, at its historic natural concentrations and 
diffusion, is simply essential for life as it currently exists 
on earth.
    Astonishingly, the research paths leading to the suspicion 
that the ozone layer was in jeopardy had been serendipitous. 
Scientists had not set out intentionally to condemn 
chlorofluorocarbons. The serious theoretical dangers prompted a 
wave of new scientific research over the following years, led 
by our own NASA, NOAA, and the National Academy of Sciences.
    Even as negotiators were hammering out the final 
compromises in Montreal, an unprecedented international 
scientific expedition was underway in Antarctica. Using 
specially designed equipment placed in balloons, satellites, a 
DC-8 flying laboratory, and a converted high-altitude U-2 spy 
aircraft, scientists were tracking stratospheric chemical 
reactions and measuring minute concentrations of gases.
    Six months later the results came out and were stunning. No 
longer a theory, ozone layer depletion had at last been 
substantiated by hard evidence. CFCs and halons were now 
implicated beyond dispute, including responsibility for the 
``ozone hole'' over Antarctica. Without modern science, the 
world would simply have remained unaware of an ozone problem 
until it was too late.
    A major lesson from the ozone history is that nature does 
not always provide policymakers with convenient early warning 
signals of impending disaster. For example, chlorine 
concentrations in the stratosphere tripled over the decades 
from their natural level with no effect on the ozone layer. But 
when they reached two parts per billion--not a very large 
amount--the ozone layer over Antarctica collapsed. This 
nonlinear--what the scientists call a nonlinear--or threshold 
response has obvious implications for the potential dangers of 
other types of anthropogenic interference with the planet's 
natural cycles.
    The history of the Montreal Protocol also underscored the 
importance of having sufficient funding for all levels of 
science, from curiosity-driven basic research to applied 
engineering solutions.
    The Montreal Protocol was not, as some opponents charged, a 
``radical'' treaty. On the contrary, it was an expression of 
faith in the market system. The treaty effectively signaled to 
the marketplace that research into solutions would now be 
profitable.
    The protocol stimulated a virtual technological revolution 
in the international chemical, telecommunications, and numerous 
other industries. By providing producers and users of CFCs with 
the certainty that the CFC market was destined to decline, the 
Montreal Protocol unleashed the creative energies and financial 
resources of the private sector to find alternatives.
    Another lesson from the Montreal Treaty was the importance 
of education. Here the role of the U.S. Congress was 
particularly critical in organizing many public hearings on 
ozone and in commissioning several important studies by the 
National Academy of Science.
    Some European Governments allowed commercial self-interest 
to influence their interpretations of the science. Uncertainty 
was used by these governments as an excuse for delaying 
decisions. In contrast, the U.S. Clean Air Act opted for a low 
threshold to justify intervention. Our Government was not 
obligated to prove conclusively that a suspected substance 
would endanger health and environment. All that was required 
was a standard of reasonable expectation.
    As Governor Russell Peterson, who was a senior advisor to 
President Nixon, had declared in reference to other potentially 
harmful chemicals, CFCs, unlike U.S. citizens, would not be 
considered innocent until proven guilty.
    By the time the evidence on such issues as ozone layer 
depletion and climate change is beyond dispute, the damage 
could be irreversible and it may be too late to avoid serious 
harm to human life and draconian future costs to society. 
Political leaders must resist the tendency to assign excessive 
credibility to self-serving economic interests that demand 
scientific certainty and who insist that simply because dangers 
are remote, they are therefore inconsequential.
    In conclusion, there will always be resistance to change 
and there will always be uncertainties. But faced with 
plausible environmental threats, governments may need to act 
while some major questions remain unresolved.
    As Britain's Lord Kennet stated during ozone debates in the 
House of Lords, ``Politics is the art of taking good decisions 
on insufficient evidence.'' The ozone history demonstrates that 
in the real world of ambiguity and imperfect knowledge, the 
international community, with the assistance of science, is 
capable of undertaking difficult actions for the common good.
    I thank you for the opportunity to share this experience.
    Senator Inhofe. Thank you, Mr. Benedick.
    Dr. Gray.

  STATEMENT OF WILLIAM GRAY, Ph.D., PROFESSOR, DEPARTMENT OF 
         ATMOSPHERIC SCIENCE, COLORADO STATE UNIVERSITY

    Dr. Gray. Well, I appreciate very much being asked to come 
to this hearing. I have been simmering for 20 years at what I 
consider the hype on these subjects like nuclear winter and 
global warming.
    I must say I have been a lifelong Democrat until Al Gore 
ran for president. I don't listen to Rush Limbaugh; I don't go 
to church. I come at this from having spent 52 years of my life 
working very hard down in the trenches looking at data, 
working. I have been around the world. I have done forecasting. 
I have done all these things. I am appalled at what has come 
forth.
    We state that there's all these bodies. Senator Boxer 
showed us all the bodies that agree that human-induced global 
warming is such an important topic. Well, the problem is the 
people that sit on these boards don't know much about how the 
atmosphere ocean ticks. That is the problem. You know, just 
because two curves go up, because we have seen some modest 
warming in the globe the last three decades, and the human-
induced greenhouse gases have gone up does not mean these are 
necessarily related, that one causes the other.
    There is a very nice curve I could show that if you look at 
sunspots on a number of Republicans in the Senate, they go up 
on about a 10- or 12-year cycle. Now, would you accept that we 
could predict the number of Republicans that are going to be in 
the Senate 10 or 20 years down the line? I doubt it.
    Now, what is wrong with the human-induced global warming 
scenarios? What is wrong is they have basic physics wrong in 
them. I don't think many people understand this. If you just 
take the greenhouse gases, they have gone up about a third 
since the industrial revolution started. They are supposed to 
double by the late twenty-first century. If you just take those 
gases and keep everything else constant, there is very little 
global warming. Even the scientists will tell you doing this, 
.2 or .3 or so degrees Centigrade, versus a 2 to 5 degrees 
warming that all the models show.
    Now, there are basic problems in these models. One is the 
water vapor feedback loop. This is a technical subject. You 
take the greenhouse gases, by themselves they should warm the 
surface a little bit. You get a little more evaporation and a 
little more rain. Now, what the models do is take that extra 
rain and assume the middle and upper troposphere will slightly 
increase its vapor. That upper level vapor, perhaps a little 
cloudiness, will block additional long-wave radiation to space, 
and that is where most of the warming comes from. It is eight, 
nine times as much as the greenhouse gases themselves.
    Another basic problem is the oceans are not modeled well. 
You have to model the ocean and the salinity variations and 
things, and that just is not possible.
    Now, I brought a couple of graphs I would like to show. One 
is the complex nature of the earth atmosphere system. Here is 
what it is. It is impossible to write code, numerical code for 
all these processes and integrate this hundreds of thousands of 
time steps in the future.
    Now, here is my last one. Let us look at how forecasting is 
done. I and my group make hurricane seasonal forecasts and so 
on. How do we do it? We admit that the atmosphere is too damn 
complex to understand, but there is memory signals in it. So we 
look at past data. We go to past years, look 3, 6, 9 months in 
the past and say, gee, before active hurricane seasons there 
seems to be a difference than before inactive ones; and we use 
that and make a forecast. We don't understand all the complex 
physics. You can use associations that work.
    Now, with numerical prediction, I followed it for over 50 
years. It is a great advance. The prediction out to 5 to 10 
days in the future has gotten better. There is remarkable 
improvements here. See, as this thing goes. However, after 10 
days, 15 days or so, you can't do it well. The way it can be 
done for 5 or 10 days in the future is the momentum fields can 
be extrapolated. They carry information that can be used, and 
this has been a great thing. When you try to go further than 
that, when you try to go 15, 20 days over, you bring in all 
these energy differences--radiation, air-sea interaction. It is 
a can of worms. You can't go further.
    Now, what I ask, there is almost a cottage industry out 
there. Around the globe there are 30 numerical models that are 
trying to predict climate. None of them gives you a forecast. I 
say, look, if these climate models are OK, why don't they tell 
us next season, next year whether the global temperature is 
going to rise or not? They don't do that. The reason they 
don't, they know they have no damn skill in doing so. So should 
we believe them 50, 100 years down the line, when they can't 
forecast 6 months or a year in the future? It is ridiculous.
    I predict that in 15 or 20 years we are going to look back 
on this whole business as the Eugenics movement. You know, 
there used to be, 400 years ago, the majority of the scientific 
opinion felt the sun went around the earth. Now, damn it, don't 
tell me the sun rises, goes around.
    Now, I think I know as much as anybody. I will take on any 
scientist in this field to talk about this. I predict, in the 
next 5 or 8 years or so, the globe is going to begin to cool as 
it did in the middle 1940's. You know, I was around as a little 
boy growing up in Washington here in the 1940's. The war was 
on; I was delivering newspapers. Despite the war being on, 
there was talk of global warming because the globe had warmed 
so much between 1900 and 1940. What was going to happen? Nobody 
knew. So about the middle 1940's the globe gradually started a 
cooling trend, and it went on for about 30 years and the ice 
age people then started coming out of the closet. Now it has 
changed. Now I think we are going to sort of follow that 
pattern the next decade or two down the line.
    Now, hurricanes, my last topic. I spent my career in this. 
I have been all over the world. I think I know something about 
these storms. The globe has warmed a little bit the last two or 
three decades, yes, 2, 3 degrees or so Centigrade. But I have 
looked at intense hurricanes, and they really haven't changed. 
We have no basic theory, despite what others might say, as to 
if the globe doesn't warm much. Now, if it warmed 10, 20 
degrees, yes, or cooled that amount, global tropical cyclone 
activity will probably change, but we don't know how, whether 
we would get more or less. For the small amounts of change we 
have seen, the statistics don't show any difference.
    Now, the Atlantic is different. That is a special basin 
that has this thermohaleon circulation or moldy decadal cycle 
in it. We had a lot of storms in the 1930's through the 1950's. 
That is when I got started, in the 1950's. This looked like a 
promising field. Then in the late 1960's through the middle 
1990's the number of major Atlantic basin hurricanes went down. 
Now it has come back the last 10 years. These are natural ocean 
driven features.
    Senator Inhofe. Dr. Gray, your time has expired. Could you 
wrap up real quickly, please?
    Dr. Gray. Yes. OK.
    There was a past year when a category 4 storm went just 
west of Houston, and 6 weeks later a category 4 storm went 
almost over New Orleans. That year was 1915. These things 
happen. Nature plays these games and these tricks. Humans are 
not involved, or if they are, it is so small. We just have to 
adapt to nature as best we can.
    Thank you.
    Senator Inhofe. Thank you, Dr. Gray.
    Dr. Roberts.

 STATEMENT OF DONALD R. ROBERTS, Ph.D., PROFESSOR, DIVISION OF 
 TROPICAL PUBLIC HEALTH, DEPARTMENT OF PREVENTIVE MEDICINE AND 
    BIOMETRICS, UNIFORMED SERVICES UNIVERSITY OF THE HEALTH 
                            SCIENCES

    Dr. Roberts. I want to thank the members of the committee 
for the opportunity to present testimony this morning. I need 
to inform you that I am a faculty member of the Uniform 
Services University of the Health Sciences, and as such my 
comments should not be construed to represent the opinions of 
the University, the Department of the Defense, or U.S. 
Government.
    As you are aware, we are making great strides against 
chronic diseases, and we are living longer and longer as a 
result. Yet, today, in much of the developing world there are 
greater problems of malaria and other infectious diseases than 
in 1960. I estimate that in just 12 countries of the Americas 
there were as many as 21 million more malaria cases in 1993 
than in any year in the 1970's.
    We should be concerned about these huge reversals in the 
public's health. Even if those impacted are not U.S. citizens, 
a failure to control diseases in other countries eventually 
translates into increased risk for our citizens.
    These reversals in health result in part from the 
environmental campaign against DDT. Many charges about 
environmental harm of DDT are simply not true. One of the most 
common claims against the use of DDT is that it is a human 
carcinogen. Vast sums of money have been spent in attempts to 
prove DDT is a cause of cancer. The results argue persuasively 
that it is not.
    In 1971, amid the growing pressure from environmentalist 
groups, the newly formed Environmental Protection Agency held 
scientific hearings into DDT. The hearings were held over 8 
months, involved 125 witnesses, 365 exhibits, and produced 
9,312 pages of transcript. The presiding judge, Edmund Sweeney, 
noted ``the pros and cons of DDT have been well aired.'' He 
then ruled that DDT should not be banned, saying that ``DDT is 
not a carcinogenic hazard to man.''
    In other words, it was concluded that DDT was not a cancer 
risk to humans, and the allegations made against the chemical 
did not stand up to scrutiny. Despite this evidence, then 
Administrator of the EPA William Ruckelshaus banned DDT.
    The decision to ban DDT was essentially a political one, 
without any grounding in good science. This ruling was not a 
tragedy, because it took DDT away from agriculture. History has 
shown that agriculture productivity continued apace. This 
ruling was a tragedy for what it did to public health.
    Even before the EPA hearing, the Director of Malaria 
Control in the Pan-American Health Organization stated that 
without DDT, the endemic countries would revert to conditions 
that existed before the advent of DDT. That is precisely what 
has occurred.
    I hope none of you have experienced malaria. I have. I had 
shaking chills, a raging fever, enormous headache, and fatigue. 
I thought I was going to die and I only had the mild form. The 
dangerous form, falciparum malaria, can quickly enter a 
cerebral phase and kill even with good medical care.
    With chronic malaria, the bodies of children become 
distended with enlarged livers and spleens. Malaria patients 
can be severely anemic. Acute cases can experience renal 
failure and slip into a coma and die. Latest estimates put the 
number of deaths over one million a year, mostly in children 
and pregnant women. Beyond this, there are as many as 500 
million cases of malaria each year.
    Malaria is a re-emerging disease, and it is a re-emerging 
disease because of environmental pressures against the use of 
insecticides. Poor countries need the freedom to use DDT for 
disease control if they choose to do so. Yet, they do not have 
that freedom. DDT continues to be portrayed negatively in the 
press and elsewhere. It is taken as a given that DDT is a toxic 
chemical with disastrous human health effects. It is not. DDT 
is a simple compound with unique actions to prevent 
transmission of malaria.
    The pressure against DDT is sometimes subtle and appears in 
the foreign aid programs to malaria-stricken countries. 
Multilateral donors like The World Bank and bilateral donors 
like USAID pressure countries to not use DDT in malaria 
programs. The World Health Organization promotes use of 
insecticide-treated bed nets to the practical exclusion of 
spraying with DDT.
    Bed nets are indeed a tool, but they are not nearly as 
effective for one simple reason: the Governments of poor 
African and South American Nations cannot force their citizens 
to sleep under bed nets every single night. On the other hand, 
inside walls of houses can be sprayed and DDT will be effective 
night after night for months on end.
    Another tool for combating malaria is the use of 
antimalarial drugs. However, the number of malaria cases has 
grown to such an extent that some countries cannot even afford 
to treat the number of cases that they have. In 2003, Colombia 
had first-line treatments for only 86 percent of its cases, and 
Colombia is a relatively wealthy country. I have no idea how 
incomplete such treatments are for the poorer countries of 
Africa.
    The only solution to this growing public health disaster is 
to prevent the disease. As explained in my written testimony, 
DDT is 90 to 95 percent effective against malaria vectors 
through its spatial repellant actions alone. This simply means 
that it stops mosquitoes from entering houses and transmitting 
disease. DDT exerts other protective actions as well.
    In summation, the re-emergence of malaria is a colossal 
human health disaster. It is made more so because the decision 
to remove DDT was based on a political agenda and not on 
science. Of the three big killer diseases--malaria, TB, and 
AIDS--malaria should be the easiest to control. We simply need 
the moral clarity and political willpower to do what is 
necessary.
    Thank you.
    Senator Inhofe. Thank you, Dr. Roberts.
    Mr. Sandalow.

 STATEMENT OF DAVID SANDALOW, DIRECTOR, ENVIRONMENT AND ENERGY 
               PROJECT, THE BROOKINGS INSTITUTION

    Mr. Sandalow. Thank you very much, Mr. Chairman. None of my 
family is here today--my three children are in school, my wife 
is at work. In a very real sense they are always with me, so I 
appreciate the opportunity to acknowledge them, Mr. Chairman.
    Hurricane Katrina has already been raised this morning, and 
it casts a shadow over both this hearing and over much of our 
national life. In fact, tomorrow it will be one month since 
Hurricane Katrina made landfall on the Gulf Coast. The 
suffering caused by this storm is well known, but no less 
tragic for being so. Today, countless thousands of Americans 
grieve relatives lost in that storm, and many more search for 
ways to restore shattered lives and livelihoods. As we join 
together as a Nation to rebuild the Gulf Coast region, our 
thoughts and prayers are with all of them.
    Many observers have characterized Katrina as a defining 
moment in our Nation's history. Former Speaker Newt Gingrich 
said the impact of Katrina will be 30 to 100 times bigger than 
9/11.
    Then this past weekend our Gulf Coast was struck by another 
storm. Hurricane Rita was smaller and less powerful than 
Katrina, but only by comparison to its predecessor could Rita 
be considered a minor event. More than 3 million people were 
evacuated from their homes, causing traffic jams that lasted 
for more than 100 miles. The full death toll is not yet known, 
but exceeds several dozens. The Governor of Texas estimates the 
damage that occurred in his State alone exceeds $8 billion.
    Mr. Chairman, the two hurricanes that struck our Nation in 
the past month raise important questions about science policy, 
environmental policy, and the intersection between the two. How 
can we better predict natural disasters of this kind? Will our 
response to Katrina be shaped by the best available science? 
What forces of global change shaped these two disasters and 
what impact will these forces have in the years to come?
    Because these questions are so important, today I am 
recommending that the Senate ask the U.S. National Academy of 
Sciences to examine them. Specifically, I recommend the Senate 
ask the U.S. National Academy of Sciences to conduct a major 
new study on extreme weather events.
    The report would assess the state of scientific knowledge 
in several areas, including: one, our ability to predict 
extreme weather events and how that ability might be improved; 
two, the causes of extreme weather events, both natural and 
human; three, land restoration in the Mississippi Delta both as 
part of the response to Katrina and to protect against future 
storms; and, four, human health and other risks related to the 
cleanup of toxic chemicals released as a result of Katrina.
    This study should be done in phases, with an early product 
intended to help guide immediate recovery efforts in the Gulf 
Coast region and then an ongoing and more comprehensive 
program.
    The first area that I believe the National Academy should 
look at, just to expand a bit, is improving our ability to 
predict extreme weather events. More than 100 years ago, on 
September 8, 1900, a category 4 hurricane blasted into 
Galveston, TX. In an era before satellites, airplanes, or 
modern communications, the population had scant information 
about the fury arriving over warm Gulf waters, and 8,000 people 
lost their lives.
    Well, today we take for granted our ability to watch storm 
clouds gather from satellite photos beamed to our living rooms. 
We expect government agencies, well functioning government 
agencies, to provide advanced warning of impending danger. We 
shouldn't be satisfied with our current predictive powers. 
Rapidly improving information and communication technologies 
can steadily improve these powers, preventing property damage 
and saving lives.
    Nor, I believe, should our quest be limited to hurricanes. 
This summer, new heat records were set in more than 200 U.S. 
cities. Drought has been a chronic problem for several years in 
the American West, and in 2004 more than 1,700 tornadoes struck 
the U.S., by far the most recorded ever in a single year. I 
recommend the National Academy study encompass all these 
issues.
    I also recommend the National Academy, as I said, look at 
land restoration and wetlands issues--critically important 
topics--as well as toxic cleanup issues. In the interest of 
time, I will not expand on those, but I would be happy to 
answer any questions on them.
    A fourth area that I believe the National Academy should 
look at is responsibly addressing global warming. Today, there 
is ample evidence that heat-trapping gases from human 
activities may produce more powerful hurricanes. We should 
proceed responsibly with respect to this risk, steadily 
improving our knowledge and shaping smart policies in response. 
Much is already known on this topic. Heat-trapping gases from 
human activities, mainly the burning of fossil fuels, are 
warming both the atmosphere and the oceans.
    Now, Dr. Gray says he disagrees with this and that he has 
been simmering on this topic for 20 years. I would respectfully 
request that Dr. Gray simmer his way right into the peer 
reviewed scientific literature on this topic. It is critically 
important that we know whether Dr. Gray's passion on this 
topic, which is considerable, is matched by the rigor of his 
analysis in the judgment of his scientific peers.
    Dr. Crichton suggests that we use randomized double-blind 
studies. To make an obvious point, we have only one subject 
when it comes to planet Earth. We cannot use a randomized 
double-blind study with respect to our planet.
    Now, that fact cannot and should not cripple either science 
or policymaking when it comes to atmospheric science. Mr. 
Benedick's testimony provides a compelling example of a way 
forward, one embraced by President Ronald Reagan, as Ambassador 
Benedick explains, on the basis of theories that were found to 
be the basis for policymaking.
    As sea surface temperatures rise, average hurricane 
strength is predicted to increase as well. These predictions 
are consistent with observations from the historical record. 
During the past 30 years, as the total number of hurricanes 
globally has remained roughly constant, the percentage of 
category 4 and 5 storms has nearly doubled. In our hemisphere 
during this period, peak wind speeds of hurricanes have 
increased by roughly 50 percent.
    Now, as many people have commented, there is no way to 
determine whether any single hurricane is or is not the result 
of global warming. When it comes to the strength of hurricanes, 
we are starting to play with loaded dice. As heat-trapping 
gases build in our atmosphere, the average hurricane will 
become more intense.
    Now, these observations are especially troubling because, 
according to many experts, Atlantic hurricanes will likely be 
more frequent in the years ahead as a result of natural cycles. 
Thus, in the years ahead the United States faces a double 
threat: more frequent hurricanes due to natural cycles and more 
intense hurricanes due to human activities. This is a risk that 
we ignore at our peril.
    Today there are no Federal controls on the major heat-
trapping gases, although this Senate supported such controls in 
a bipartisan resolution passed this summer. As the Senate 
considers how best to translate this resolution into 
legislation, it should be informed by the best available 
scientific evidence concerning risks from extreme weather 
events and from global warming.
    Now, in my closing minutes, Mr. Chairman, I would just like 
to briefly turn to some recent developments in the role of 
science and Federal environmental policy. You have said 
previously that scientific inquiry cannot be censored. 
Scientific debate must be open, it must be unbiased, and it 
must stress facts rather than political agendas.
    Unfortunately, the past 2 years have not been a happy time 
for the role of science in Federal environmental policy. Last 
year, as Senator Clinton and Senator Boxer have said here, 48 
Nobel laureates and 62 National Medal of Science recipients 
were among the more than 4,000 scientists who signed a 
statement expressing concern about ``the manipulation of the 
process through which science enters into the Federal 
Government's decisions.'' Among the specific matters identified 
as concern were the suppression and distortion of scientific 
conclusions from Federal environmental agencies, specifically 
on the topic of climate change, and the political manipulation 
of expert advisory committees, specifically in some 
environmental areas including lead poisoning.
    These are issues of great consequence. Sound policymaking 
cannot proceed in the face of such concerns, and I believe that 
they require priority attention from this committee and the 
Senate as a whole.
    One approach as suggested by the Restore Scientific 
Integrity to Federal Research and Policy Making Act, introduced 
in the House as H.R. 839--and this may serve as a complement to 
your bill, Senator Voinovich, and one that might be considered 
together among other things. This act would help prevent the 
manipulation of data, strengthen the independence of Federal 
science advisory committees, and require an annual report to 
Congress by the Director of the Office of Science and 
Technology Policy on the state of Federal scientific integrity. 
This legislation would help address many of the most serious 
concerns that have arisen in recent years and is worthy of 
consideration by this body.
    Thank you, Mr. Chairman, for the opportunity to address the 
committee.
    Senator Inhofe. Thank you, Mr. Sandalow.
    Let me start with just a real brief question for you. You 
made several references in a respectful way to Dr. Crichton and 
Dr. Gray. I think you know Dr. Gray's background in science, 
his credentials.
    In a way, I kind of regret that Michael Crichton was an 
author. Because if he had not been an author, he would still be 
here today because of his scientific credentials, having 
degrees from Harvard College and Harvard Medical School, 
visiting lecturer of Physical Anthropology at Cambridge 
University, post-doctoral fellow at the Salk Institute for 
Biological Studies. We would have him here anyway. I would ask 
you what your scientific background is, Mr. Sandalow, in terms 
of degrees and so forth.
    Mr. Sandalow. Senator, I am an attorney, although I have 
tried to overcome that handicap and go on to a useful and 
productive career. I don't claim scientific training and don't 
speak on the basis of any independent scientific research. I am 
reporting the peer reviewed results of many scientists.
    Senator Inhofe. I appreciate that. Thank you very much.
    Dr. Crichton, would you explain why researchers might have 
a vested interest in obtaining particular results? Any thoughts 
on that?
    Dr. Crichton. Well, Mr. Chairman, having spent some time in 
the politicized environment of global warming, I am extremely 
reluctant to ascribe motive to people. I operate on the 
assumption that scientists I know are intelligent, hard 
working, and honest.
    But what I would say is that I was a believer of the study 
of Michael Mann. I looked at that graph, which is very striking 
and extraordinary. I thought, my goodness, we have a really 
serious problem. So to the extent that I accepted the paper, 
when I began to see page after page of errors that were listed, 
I had disappointment to the same degree. It was very difficult 
for me not to believe that the people who worked on this paper 
never thought it would be checked. That is bad. That is bad for 
all of climate science.
    Senator Inhofe. In your testimony, you describe the 
importance of being able to replicate studies. For some of us 
who don't have your background, can you kind of tell us why it 
is such a problem if studies cannot be replicated? What is the 
significance of replicating studies?
    Dr. Crichton. I think we see a bit of it in the Mann study. 
The reason we are talking about the Mann study is that he 
attempted to address an extremely important question. In other 
words, we don't know what the future holds. There is a 
temperature increase, and one way to think about it is to say 
is this unprecedented or not. His findings indicated that it 
was unprecedented, and it turns out that other people who 
attempted to replicate this have concluded differently.
    In fact, there is now some discussion about the extent to 
which proxy studies are even useful in this matter at all, 
because the proxies which have been studied from 1980--which 
was the end of Mann's work--to the present time don't show the 
kind of temperature increase that we know exists in the global 
record.
    Senator Inhofe. I would ask this question of you or have 
you comment on it, as well as Dr. Gray and any of the rest who 
want to. When I first saw the hockey stick, with no scientific 
background, I looked at it and I thought, well, that seems 
reasonable.
    But it seemed to me--and for some of us who don't have that 
background--they completely overlooked both the medieval 
warming period, the little ice age, and these things, when in 
fact temperatures were actually higher during the medieval 
warming period. Any thoughts about that for any of the experts 
here?
    Dr. Crichton. That is true, sir. You know, to me, it 
creates the very odd thought that there may in fact be more 
constraints on what an American tabloid can publish than what 
the UNIPCC can publish.
    Senator Inhofe. Well----
    Mr. Sandalow. Mr. Chairman.
    Senator Inhofe. Yes.
    Mr. Sandalow. Could I comment on the Mann study, if you 
like?
    Senator Inhofe. Well, I would rather have someone who has 
referred to it in their remarks. I think you did, Dr. Gray, 
from a scientific standpoint.
    Dr. Gray. I didn't refer to the Mann study, but I would 
like to comment on it. We are studying the medieval warming 
period. My daughter is a professor of geology, and we are 
working on the medieval warming period and the little ice age. 
She is covering more of that.
    Sure there have been a lot of changes up and down. The 
atmosphere has always gone through these cycles. Just because 
the globe has warmed the last 100 years or last 30 years, we 
should not interpret that necessarily as human-induced, it is 
probably natural.
    The majority of scientists, it is impossible--you see, 
there is grant money, there is all these things out there that 
compensates people that can arrange the data in such a way as 
to stir up interest that humans are doing these things, but 
there is no research money the other way.
    Senator Inhofe. All right, thank you, Dr. Gray. I am going 
to have to cut you off here because we are going to try to stay 
within our time limits. It is not your fault, it is my fault.
    Senator Boxer.
    Senator Boxer. Thanks, Mr. Chairman.
    A lot of people are being maligned here, and I take great 
offense at that. They are not here, but they are being 
maligned. One of them, Dr. Mann, who was the main subject of 
Dr. Crichton's testimony. I would like to place in the record a 
letter from Dr. Mann that was sent to a congressional 
committee, in which he shows how in fact his data were 
reproduced and used and studied. If I may place that in the 
record.
    Senator Inhofe. Without objection.
    [The referenced letter can be found on page 109.]
    Senator Boxer. Thank you.
    Dr. Gray, you have maligned a lot of people by a broad 
brush, just basically dismiss them. I want to know if your 
papers on global warming have been published.
    Dr. Gray. Some of them have, yes. I am working on a long 
paper on this now. But what----
    Senator Boxer. Wait. I just want to get the answer. I don't 
have time to go into other subjects. So some have been 
published. Have they been peer reviewed?
    Dr. Gray. A couple of them have been, yes.
    Senator Boxer. OK. Would you please submit those to the 
committee?
    Dr. Gray. I have.
    Senator Boxer. Because we have tried to find peer 
reviewed----
    Dr. Gray. I did send a number of papers.
    Senator Boxer. OK, good. Because we have tried to find some 
peer reviewed studies of yours--not on hurricanes, but on 
global warming. You say there are some peer reviewed?
    Dr. Gray. I have written some things on it, but I have been 
involved with----
    Senator Boxer. Have they been peer reviewed?
    Dr. Gray. I am working on that now. There will be--if they 
will accept it. There is also----
    Senator Boxer. Dr. Gray? Dr. Gray?
    Dr. Gray [continuing]. A slight bias about accepting papers 
that criticize peer review.
    Senator Boxer. OK. I get your point. I am asking you 
something, I still don't have an answer. You have been peer 
reviewed for your articles on hurricanes. Have you been peer 
reviewed on your articles on global warming?
    Dr. Gray. Some have appeared. One appeared in a forum 
journal.
    Senator Boxer. Well, Mr. Chairman, I am not getting an 
answer, so I am going to move on.
    Now, one of the things you said at the end of your 
testimony is nature plays its games and tricks. You reminded 
me, in a very nice way, actually, about my mother, who said 
everything was predictable until we landed on the moon. She was 
convinced that changed weather patterns and everything else. So 
it is very easy for us all to just say that and, you know, in 
some ways it is comforting; say no one can really predict it. 
The fact is would you not agree, Dr. Gray, that there are some 
very talented people who believe that global warming is a 
phenomenon and is occurring?
    Dr. Gray. I would agree to that. The trouble with that is 
they don't know how the atmosphere ticks.
    Senator Boxer. OK.
    Dr. Gray. They are modelers. They are people that make 
assumptions that are not valid and they believe them.
    Senator Boxer. OK, good.
    Dr. Gray. They are probably honest people, but----
    Senator Boxer. Right.
    Dr. Gray. And----
    Senator Boxer. Dr. Gray, I would like to ask you this. You 
say people on the other side from you are wrong, and you say 
they don't know what they are talking about. Your attitude is 
not really very humble, but let me just probe you here.
    Dr. James Hanson, he is one of those people. He is a chief 
at NASA Institute for Space Studies. He is best known for his 
testimony on climate control change to congressional committees 
in the 1980's that helped raise broad awareness of the global 
warming issue. He was elected to the National Academy of 
Sciences in 1995. He received the Hines Environment Award for 
his research on global warming. You think he doesn't know what 
he is talking about on this?
    Dr. Gray. I am glad you asked that question. James Hanson 
is a very bright, outstanding scientist, I have no doubt about 
that. He got his Ph.D., I believe, on the runaway greenhouse 
effect of Venus. I don't know what he knows about the 
atmosphere. He is not trained as a meteorologist, and I don't 
know why the press goes to him so much. I don't know why he 
could come down here in the hot summer of 1988, before a 
congressional committee, and make these claims. They are 
ridiculous. And how----
    Senator Boxer. Do you know what he was trained in?
    Dr. Gray. What?
    Senator Boxer. Since you are now trying to shatter his 
reputation, what was he trained in? What was his area of 
expertise that he was trained in when he was in school?
    Dr. Gray. Who?
    Senator Boxer. Dr. Hanson.
    Dr. Gray. I believe Hanson was an astronomer, a very 
capable, good astronomer who I have been told that his Ph.D. 
thesis was on a runaway greenhouse effect of Venus. He knows 
Venus well, just like Sagan knew Mars well.
    Senator Boxer. Sir, you are making my point. He was trained 
in physics as well as astronomy, and he is well acclaimed. You 
just brush away everybody who doesn't agree with you, which I 
think, going in, isn't a very scientific thing to do. To 
prejudge----
    Dr. Gray. No. There are a lot of us out there that don't 
agree with----
    Senator Boxer. Dr. Gray? Dr. Gray? Dr. Gray? I understand. 
I understand. But I am just trying to say something in a 
friendly way to you. It doesn't help your case to demonize 
everyone who doesn't agree with you, because you wind up 
without very much credibility.
    Dr. Gray. No, it is not everyone doesn't agree with me.
    Senator Boxer. I would like to ask Dr. Crichton a question.
    Dr. Gray. I represent a lot of meteorologists who think 
very much like I do.
    Senator Boxer. Dr. Gray, my time is running out.
    Dr. Crichton, you say predictions are not science.
    Dr. Crichton. Excuse me. I said they are not facts.
    Senator Boxer. They are not facts.
    Dr. Crichton. Right.
    Senator Boxer. Predictions are not facts. Do you think that 
there is room for prediction in weather science, for example?
    Dr. Crichton. Senator Boxer, yes, I think that climate 
modeling is excellent. I have had a lot of discussions with the 
climate modelers about that. I am making a single point only. 
It is a very interesting scientific undertaking. At the moment 
the models differ one from another by 400 percent, which is an 
enormous amount. All I am saying is you can't use them for 
policy.
    Senator Boxer. OK. But you are saying there is room for 
predictions in weather science.
    Dr. Crichton. Yes. You have heard Dr. Gray. We can make 
excellent predictions for 4 days.
    Senator Boxer. Well, I have heard a lot of people other 
than Dr. Gray, but thank you very much. Also, I would like to 
put in the record something called ``Distort Reform, A Review 
of the Distorted Science in Michael Crichton's State of Fear,'' 
by Gavin Schmidt. If I could put that in the record.
    Senator Inhofe. Without objection, so ordered.
    Senator Boxer. Thank you.
    [The referenced document was not submitted at time of 
print.]
    Senator Inhofe. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman. I appreciate your 
holding what I believe is a crucial hearing on this subject and 
the importance of sound science and environmental policymaking. 
I am intrigued in listening to the discussion on climate change 
and atmospheric science, and appreciate very much this very 
distinguished panel being here today and sharing your thoughts 
and your insights and your expertise.
    I want to approach it from a slightly different angle, 
which you could argue, I suppose, is somewhat parochial, but it 
comes back to the basic premise that science does inform 
policy. This committee will be dealing in the very near future 
with reforms of the Endangered Species Act, and how do we 
approach making that Act more workable. Frankly, if you look at 
since its inception in 1973, there have been very few successes 
in terms of recovering species, and lots of hardships imposed 
on landowners and State and local governments and others.
    In specific I want to use one example here, and then maybe 
get the panel's reaction to it or comment. We had an instance 
here a few years ago in South Dakota where the prairie dog was 
listed or proposed to be listed as a threatened species under 
the Endangered Species Act, and at the time, of course, it was 
suggested that the prairie dog is the diet for the black-footed 
ferret, which was on the list, and that in order to provide 
diet for the black-footed ferret, we needed to protect the 
prairie dog.
    Now, most of the ferrets--and I would argue a large number 
of the prairie dogs--are, of course, in the western part of the 
Country, many in South Dakota. It was feared that we didn't 
have enough prairie dogs for the ferrets to eat. What happened 
was that fear was unjustified.
    In my view, and I think arguably they came to the same 
conclusion when they decided not to list it, but sound science 
was not used in that decision to list the prairie dog. In fact, 
if sound science had been used, it would have been proven that 
there are literally thousands, probably millions, I think, of 
prairie dogs living on South Dakota's grasslands, certainly 
more than there are people in South Dakota.
    The Government was relying on bad science and, as a 
consequence, South Dakota's landowners in that area suffered. 
If you look at the range--and I have in that area, visited 
numerous times--it looks like the face of the moon. That is the 
impact that not managing this population has imposed on 
landowners out there. Anybody who has been to that area of 
South Dakota knows the prairie dog is not endangered.
    Anyway, my question is this. I have talked to the experts 
about this and what is the criteria by which the standard that 
is used for whether or not a species goes on that list. The two 
questions that are asked: Is the species endangered today? 
Second: Will it be endangered in the foreseeable future? To 
answer those questions, I assume there has to be some data, 
some science that is used. There again, clearly in this case, 
that science was completely incorrect.
    I guess the question I would ask--and this is with respect 
to the Endangered Species Act and some of the changes that we 
are looking at making--is what should be the scientific 
standard that applies to such policy pronouncements? Clearly, 
there were some extrapolations made about the numbers out 
there, but I think this is another example of where we rely and 
decisions are sometimes made in a political environment rather 
than a scientific one. I frankly hope that when we make some 
changes in this, that we will impose some scientific standards.
    I would welcome anybody's thoughts or insights about that. 
Mr. Benedick?
    Mr. Benedick. Yes, thank you, Mr. Chairman. It seems to me, 
in listening to the conversation up until now, that we all 
agree that there is a need for sound science. Where the 
disagreement comes is: what is sound science. I think what 
constitutes sound science--is not as simple as some of us would 
like to have it. It is not black and white; there is not 
absolute certainty.
    We have to ask the right questions and then evaluate the 
answers. One issue is: to whom do you address the right 
questions? Is it to individual scientists, some of whom have 
been mentioned here, or is it to bodies of scientists? That is 
why we have a National Academy of Sciences, for example. That 
is why we also have, or had, the Office of Technology 
Assessment within the Congress, which was designed at that time 
to provide scientific information.
    One can't wish a problem away just because one hopes it 
won't happen. I honestly hope that climate change doesn't 
happen. But when the National Academy of Sciences, when the 
other institutions of real experts come out with their 
conclusions, I find it hard to dispute it. If it was only one 
or two, or only a small number of dissenters, that may not be 
significant. If there are real questions, I think they should 
be addressed to institutions like the National Academy of 
Sciences.
    There is also some reference made about climate models 
varying in wide dimensions and, therefore, we can't trust them. 
Well, perhaps they are models at the extremes, but there is 
also a certain convergence. For example, if I feel ill and 
consult 10 doctors, and 2 of them say I am going to die right 
away, and 2 say no problem at all, you don't need to do 
anything, and the other 6 say, wait a minute, there is 
something that you can take for it, I will listen to that 
convergence. I am not going to listen to the extremes.
    I would suggest that on many of the issues that we are 
talking about, there is a real convergence. There are going to 
be extremes on both sides, but we have to look for those 
convergences and then have the courage to act on them.
    Senator Inhofe. Thank you, Mr. Benedick. In fairness to 
Senator Thune, who is going to have to be leaving, did anyone 
else want to comment on the question that he asked?
    [No response.]
    Senator Inhofe. All right, that is fine.
    Senator Thune. Mr. Chairman, if I might, as a matter of 
closing, just say this. I think that if in fact scientific 
truth has to be verifiable, that is a key thing. I would argue 
that much of the science at least that was used in predicting 
the number of prairie dogs on the ranges of South Dakota wasn't 
accurate and wasn't verified, and, as a consequence, was bad 
science on which to make a decision like this.
    I would also argue that it ought to include, in addition to 
the science groups out there, the folks who do this sort of 
research, perhaps talking to local people. I think local input 
is a key. You know, you might have been able to get a lot more 
accurate count if you just asked a few ranchers in South Dakota 
about this subject.
    So I know my time has expired, and I appreciate your 
indulgence. Again, I thank you. It has been very informative.
    Senator Inhofe. Thank you, Senator Thune.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I want to 
follow up on this issue of verification, because I really do 
think that this goes to the heart of what we are talking about 
here today.
    Mr. Sandalow, you have suggested numerous studies be 
conducted that would look into the aftermath of Katrina, or 
what happened or how we can calculate it. I am sitting up in 
Alaska, where I can see that we are experiencing climate 
change. I am not going so far as to say it is global warming, 
but we see climate change.
    Just in this morning's press clips, I have got a clip on a 
major winter storm that is continuing the erosion from our 
coastal villages. Yesterday's account in the clips indicated 
that we have seen the warmest summer up north that we have seen 
in 400 years. The stories are out there.
    So I look at not only what I am able to see and what we are 
able to verify as Alaskans on the ground looking at climate 
change, but I am also looking at the studies and at the 
reports. The problem is that the studies and the reports are 
less than conclusive. You have one that is saying one thing, 
another that is saying another thing.
    So I don't know that I am necessarily with you in saying 
that the solution here is to conduct more studies. I think we 
need to make sure that the studies that are conducted do have 
some level of verification, do have some level of 
accountability, if you will. We are dealing in an area where 
the science is difficult.
    I appreciate your statement, Dr. Crichton, that prediction 
is not fact. It is exactly that, it is prediction.
    So I hear what you are saying, and you are saying let us 
get three independent studies going on. I don't know whether 
that is the answer, but I think the key here is going to be 
verification.
    Now, Senator Boxer, in her statement, showed a list of 
individuals who were backed by certain institutes, and I think 
her suggestion was that, of all of these, only two institutes 
were not supported in some way by the oil industry or whatever.
    To what extent does funding influence the researcher, the 
analysis, and the conclusions? I throw that out to any one of 
you if you are willing to touch it.
    Dr. Gray. I would very much like to take that. Yes, I 
notice myself. I have been a bit of a critic on this human-
induced global warming, and I had NOAA money for 30 years to 
study tropical storms and stuff, and I wanted to keep on doing 
it. When the Clinton administration came in, I couldn't get any 
money out of NOAA. I was turned down by something like 13 
straight proposals.
    There is a lot of research support out there to find 
things, rearrange data, I might say, to support this human 
induced global warming hypothesis. I know of no way--if I go in 
and say I don't believe in it, would you give me some resources 
so I could study and try to prove that the statements made are 
exaggerated. There is no funding there.
    There is even a question on publication. If you submit in 
something that doesn't go with this general brainwashing that 
has occurred, I call it that, over the last 20 years in the 
press, the press has played a great part, government, it has 
been used as a political issue. The reality of it, I mean, with 
all the problems in the world----
    Senator Murkowski. Dr. Gray.
    Dr. Gray [continuing]. This is one we humans are not much 
involved with.
    Senator Murkowski. Dr. Gray, if we can, I know that Mr. 
Benedick and Dr. Crichton also wanted to answer the question, 
and we are just about out of time. Thank you.
    Mr. Benedick. Thank you, Senator. Do I think that funding 
can influence scientific results? Yes, I do. Just look at the 
tobacco industry. On the question of funding for critics of the 
climate change theory, of the global warming theory, I would 
cite Dr. Richard Lindzen at the Massachusetts Institute of 
Technology, who is a very eminent critic of global warming. I 
don't believe he has any problem getting funding.
    If we are talking about verification of data, I think that 
rather than cherry-picking which scientist or which particular 
statement or which particular footnote, that we go to the 
bodies that are constituted to do this: the National Center for 
Atmospheric Research, for example, in Boulder, CO; the National 
Academy of Sciences, which I mentioned earlier; the great 
research universities. There are plenty of resources out there 
if one wants to listen to them. If one doesn't want to listen 
to them, one can always cherry-pick and find relatively 
isolated people who will say whatever they want to say.
    Senator Murkowski. Dr. Crichton.
    Mr. Benedick. I think that our society and our institutions 
are prepared, are set up to provide responsible science if we 
will give them a chance, if we don't try to destroy their 
reputations or pick out one or another thing out of context.
    On the climate issue, I would like, respectfully, to 
suggest adding to the record the testimony of Dr. Ralph 
Cicerone, who is the President of the National Academy of 
Sciences, who testified on July 20th before the subcommittee on 
Global Climate Change and Impacts, of the committee on 
Commerce, Science and Transportation of the U.S. Senate. I 
would suggest this might be some part of the record. It is his 
statement representing the National Academy of Science.
    Senator Murkowski. Mr. Chairman, I know we are out of time, 
but if Dr. Crichton can just----
    Senator Inhofe. I am going to go ahead and give you a 
couple of my minutes on the second round right now, because I 
know you directed Dr. Crichton to please respond.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Crichton. Senator Murkowski, I think in part my 
comments were intended to suggest a broader issue. I think in 
the twenty-first century this body is going to be dealing 
increasingly with scientific issues, and you are going to have 
to find some new strategies.
    One of them which I think would answer Senator Thune, is if 
there were four studies that were let out by totally different, 
independent entities--not people who knew each other, not 
people who published together--that asked the question how are 
the prairie dogs doing, you are going to get a more reliable 
answer.
    In the long run I think, yes, you are going to have to find 
funding. Scientists, like everyone else, know who they work 
for, and I think there is a perception that many government 
agencies now want to get back answers that confirm global 
warming. The notion that there are industries that don't want 
that, of course, I think is straightforward.
    Whoever you work for, they are looking for a certain kind 
of answer. The solution is only to have scientists not know who 
they are working for in terms of where the funding is coming 
from.
    Senator Inhofe. Senator Voinovich.
    Senator Voinovich. I think the most alarming thing I heard 
today was, Dr. Roberts, your testimony. Do other people share 
your opinion about DDT, or are you out there in the weeds 
somewhere on this one?
    Dr. Roberts. I am out there. Actually, if I could have just 
a couple of minutes to respond. In response, I would like to 
bring together a couple of things, Senator Thune's comments and 
Senator Boxer's list.
    Senator Voinovich. You are on my time now, OK?
    Dr. Roberts. OK.
    Senator Voinovich. I would like to ask you my questions.
    Dr. Roberts. OK.
    Senator Voinovich. You are saying that there are lots of 
scientists who disagree with you on DDT? The impression that 
you gave me was that my good friend, Bill Ruckelshaus, when all 
of the testimony came in about DDT and found that it wasn't 
what people said it was, that he banned it anyhow and, as a 
result of that ban, we are seeing malaria come back all over 
the world, and that thousands of people are dying because of 
malaria; and that if we reviewed our interest in DDT, that 
might save thousands of lives. Is that what you are saying?
    Dr. Roberts. That is what I am saying. The answer as to 
whether or not the scientific community is in support of me, we 
initiated an effort in the 1990's to prevent DDT from being 
banned through the POPs negotiations, and we circulated a 
letter to get scientists to sign on to that letter, and a very 
large number, hundreds of scientists, signed on in support of 
that effort. I would say that there is a very broad base of 
support for the continued use of DDT.
    Senator Voinovich. Mr. Chairman, that might be something 
that we look at.
    All of the witnesses have talked about the issue of 
scientists disagreeing, and the question I have to all of you 
is how can the Federal Government achieve good science-based 
decisions, making them when there are so many different 
opinions among the scientists with respect to a particular 
environmental concern? We get this all the time around here.
    In my statement I mentioned the creation of a position in 
the EPA called the Deputy Administrator for Science and 
Technology, and the second thing was to take EPA's current top 
science job, the Assistant Administrator for Research and 
Development, and give them a 6-year term, which would insulate 
them to a certain extent from politics. Also, traditionally, it 
has been one of the weakest positions in the EPA.
    Mr. Sandalow. Senator, I would like to applaud what is 
behind your legislation. Certainly the effort to insulate 
environmental science from political factors is a crucially 
important one. So I think your bill deserves very close 
consideration.
    I think, in answer to your question about ways to address 
the use of science, I would recommend a couple of things. 
First, it is important that we commit the most difficult 
questions to independent bodies, and that is one reason that I 
have recommended the National Academy take on various Katrina-
related issues in my testimony.
    Second, it is important that science be adequately funded. 
That has been raised a little bit today, but not much. The 
pressures right now on budget for scientific research are very 
considerable, and it is very important that we adequately fund 
basic science research going forward.
    Third, it is critically important to have leadership from 
the top and from the Federal Government at all levels on this 
issue, and to make it clear that there will be no tolerance for 
political manipulation of scientific data. I think with those 
things we could take big steps forward.
    Senator Voinovich. Other comments in terms of do you think 
we need to improve the capacity at the Environmental Protection 
Agency? Would you support somebody over there that would have a 
6-year term that would segue into another term and possibly 
insulate him more from ``political pressure'' than someone 
else?
    Mr. Benedick. Senator, I did mention at the beginning of my 
statement that, representing the National Council, I applaud 
your efforts to do this at EPA. I think that any measures that 
are taken to insulate scientific inquiry and the peer review 
process from political pressures, from wishful thinking, from 
``we wish it weren't there and, therefore, we are going to pick 
out the scientists we want,'' that our society will be better 
off if we can do this.
    As I suggested earlier, there are institutions in which you 
can find, not the extremes on either side, but where you can 
find a reasonable convergence. That is what we did in the ozone 
history. We didn't listen to the ones who were saying the sky 
is falling, and we also didn't listen to the ones who said that 
CFCs were no problem. I think that worked out right under a 
conservative administration, and I believe that is the way we 
should go, and really keep ideology out of science as much as 
we can.
    Senator Voinovich. Thank you.
    Dr. Gray. I would just like to make a statement, that in 
science a majority is often wrong, it is not a democracy. That 
is our problem. You can have these institutes and Nobel Prize 
people and all the credentials people you want, but that 
doesn't mean they are able to render a proper judgment. That is 
the trouble.
    Senator Voinovich. You know, Dr. Gray, what you do is you 
try to get the best information that you can, and make a 
decision. Sometimes, I think some other witnesses mentioned, 
those decisions aren't black and white, sometimes they are 
gray. You try to do the best that you can with the information 
that you have, because if you take a position that they may be 
wrong, nothing is done.
    Dr. Crichton. Senator, it is not exactly on the point of 
your question, but the confidence in the independent bodies 
like the NAS that some others have expressed I don't 
necessarily share in this particular area. I think it has 
become so intensely politicized that even that may not be 
successful.
    For example, the NAS was asked at some time in the recent 
past to investigate the difference between satellite 
temperature measurements and ground temperature measurements, 
since those records in recent years haven't agreed, and there 
has been dispute about which might be incorrect or both. The 
NAS came back and said they are both correct, which is, in my 
view, simply taking a pass on the whole subject.
    If in fact this is so hot among even academic communities 
that it can't be examined closely, I think you are going to 
back yourself into something like the sort of blue ribbon 
commission that was used to investigate the Challenger 
disaster, in which you bring in all kinds of outside people and 
ask them to assess the state of the science, because internally 
it is just too difficult for people to do it.
    Mr. Sandalow. Senator, in Mr. Crichton's book he writes 
roughly--I won't get the words exactly right--``I am the only 
person who doesn't have an agenda.'' When I read that in his 
book, I thought it was tongue in cheek. Hearing him sit here 
and question the objectivity and bona fides of the National 
Academy of Science, while taking it upon himself to form 
judgments on this question, makes me wonder whether in fact he 
meant to write that sentence seriously.
    I think it is beyond controversy that the National Academy 
of Sciences of this Nation is well respected. Its product has 
been and is widely admired by many scientists, and I don't 
think this statement should go unchallenged.
    Senator Inhofe. Let me make a comment about that. First of 
all, I hope you were listening when I entered into the record 
statements by the National Academy of Science. Actually, it was 
by the past President of the National Academy of Sciences. They 
have not been definite on this issue in terms of global 
warming, and I think we all understand that.
    Let me just make a comment too, since we only have 4 
minutes left, and certainly, Senator Voinovich, it is down to 
you and me now.
    Senator Voinovich. I have to be excused.
    Senator Inhofe. Oh, all right. Well, thank you for your 
contribution.
    I would like to say that those of us on this side of the 
panel are not experts. We are not scientists, and I recognize 
that. But sometimes it might be healthy to sit back and kind of 
push back and look at it in an unscientific way, and look at it 
just on a logical way. You have to keep in mind that 
Washington, DC is the city of hysteria; everyone has to be 
hysterical about everything that happens up here. When I look 
at this and I read some of the stuff that came out of this 
committee and that was on the front page of almost every 
magazine in America, like Time Magazine, U.S. News and World 
Report back in the middle 1970's, they talked about another ice 
age is coming.
    I went back and checked, and found that the same people 
that now are hysterical over global warming were the ones that 
were talking about the ice age. I look and see what happened in 
the 1940's. The largest increase in the use of CO<INF>2</INF> 
increased by about 80 percent during the middle and late 
1940's. Did that precipitate a warming? No, it didn't, it 
precipitated a cooling at times.
    So I just think that we have to look at these things and 
try to get as much of the hysteria out of our minds. I could 
put it another way. I think in the case of global warming, it 
really has become a religion to a lot of people. A lot of 
people have so many years of their lives wrapped up in it that 
they don't want to all of a sudden realize that most of the 
science since 1999 has refuted it. How could I have been wrong; 
and did I waste 10 or 15, 20 years of my life? I kind of think 
this is some of the things that are going on.
    We have come to the time here. We have several things that 
I am going to enter into the record on flawed science. Without 
objection, it will be a part of the record.
    Let me thank all of you for your time that you have spent 
here. It has been a long hearing. You have come a long way. I 
want you to know that I personally appreciate each one of the 
five of you very much.
    We are adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
  Statement of The Honorable Richard E. Benedick, President, National 
                Council for Science and the Environment
    Since 1994, I have been President of the National Council for 
Science and the Environment (NCSE), an organization dedicated to 
improving the scientific basis for environmental decision making that 
is supported by over 500 universities, scientific societies, State and 
local Governments, corporations, chambers of commerce, foundations and 
civic organizations.
    During the 1980s, I served under President Reagan as Deputy 
Assistant Secretary of State for Environment, Health and Natural 
Resources. In 1985, I was designated by Secretary of State George 
Shultz and then-Assistant Secretary John Negroponte to be chief U.S. 
negotiator for a treaty to regulate certain chemical substances 
suspected of depleting the stratospheric ozone layer. I later wrote a 
book on the subject, Ozone Diplomacy, which was published by Harvard 
University Press (1991, revised ed. 1998) and Kyogo Chosakai (Japan, 
1999), and was later selected by McGraw-Hill for an anthology of 
environmental classics of the twentieth century.
                  introduction: an historic agreement
    The ozone history illustrates the critical role that science and 
scientists can play in the development of public policy under 
conditions of risk and uncertainty. Yet, when the negotiations began on 
the treaty to control use of chlorofluorocarbons (CFCs), few gamblers 
would have wagered that they could succeed.
    CFCs and their related bromine halon compounds seemed to be ideal 
man-made chemicals. Invented in the 1930s, they are stable, nontoxic, 
nonflammable, non-corrosive, and relatively inexpensive to produce--all 
qualities that made them uniquely suited for a myriad of consumer and 
industrial applications. Over the years, they found more and more uses 
in thousands of products and processes--in pharmaceuticals, cosmetics, 
spray cans, agriculture, petroleum, microchips, electronics, 
automotive, defense, aircraft, insulation, plastic foam, aerospace, 
telecommunications, refrigeration, and air conditioning, to name a few. 
CFCs became virtually synonymous with modern standards of living.
    The scientific, economic, technological and political issues 
involved in the negotiations were staggeringly complex. Billions of 
dollars of international investment and hundreds of thousands of jobs 
worldwide were involved in production and consumption of CFCs and 
halons. Powerful governments in Europe, Japan and the Soviet Union 
aligned with global economic interests in adamant opposition to 
controlling CFCs, maintaining that technological alternatives were 
nonexistent or too costly or unfeasible.
    The then twelve nation European Community (EC) was the primary 
opponent of action. Its ozone position was based largely on the self-
serving data and contentions of a few major companies--including 
Britain's Imperial Chemical Industries (ICI), France's Atochem, and 
Germany's Hoechst. European industry's primary objective was to 
preserve their market dominance and to avoid the costs of switching to 
alternative products for as long as possible. Epitomizing the close EC 
industry-government linkages, company executives often served on 
official delegations. Indeed, during the protocol negotiations we 
actually came across an official EC instruction drafted on an Atochem 
corporate letterhead.
    Most other governments and peoples were unaware or indifferent to 
an arcane threat occurring 30 miles above the earth's surface. As an 
Indian diplomat admonished me early in the negotiations: ``Rich man's 
problem--rich man's solution.''
    Perhaps most significant of all, during the negotiations the 
arguments for controlling CFCs rested on unproven scientific theories. 
The science remained speculative, based on projections from still-
evolving computer models of imperfectly understood atmospheric 
processes--models that yielded varying, sometimes contradictory 
predictions each time they were refined.
    Despite the significant growth in emissions of CFCs, thirty years 
of recorded measurements had not demonstrated any statistically 
meaningful ozone depletion over mid-latitudes. The models did not even 
predict global depletion, with existing levels of emissions, for at 
least the next twenty years. Moreover, not only was there no evidence 
of increased levels of UV-B radiation reaching earth's surface, but 
such measurements as existed actually showed reduced radiation.\1\ 
During the negotiations, the seasonal ``ozone hole'' over Antarctica, 
while alarming, was considered by most scientists to be an anomaly, 
since it did not conform to the theoretical ozone depletion models and 
could possibly have had other than anthropogenic causes.
---------------------------------------------------------------------------
    \1\D. Albritton et al., Stratospheric Ozone: The State of the 
Science and NOAA's Current and Future Research (Washington, DC: 
National Oceanic and Atmospheric Administration, 1987), p.9; WMO, 
Atmospheric Ozone 1985: Assessment of Our Understanding of the 
Precesses Controlling Its Present Distribution and Change (Geneva, 
1986), chapter 14.
---------------------------------------------------------------------------
    Nevertheless, after contentious international negotiations, 
compounded by unexpected late controversy from within the U.S. 
Administration, a strong control treaty was signed in Montreal in 
September 1987. The treaty signing attracted worldwide media attention, 
and it was hailed in the United States Senate as ``the most significant 
international environmental agreement in history.''\2\ President Reagan 
became the first head of state to endorse the Montreal Protocol, 
characterizing it as ``a monumental achievement of science and 
diplomacy,''\3\ and the treaty was unanimously ratified by the Senate.
---------------------------------------------------------------------------
    \2\U.S. Senate, Committee on Foreign Relations, Ozone Protocol, 
Executive Report 100-14, Feb. 19, 1998, p. 61.
    \3\``President Signs Protocol on Ozone-Depleting Substances,'' 
Department of State Bulletin, June 1988, p. 30.
---------------------------------------------------------------------------
    Perhaps the most extraordinary aspect of the Montreal Protocol was 
that it imposed substantial short-term economic costs in order to 
protect human health and the environment against speculative future 
dangers--dangers that rested on scientific theories rather than on 
proven facts. Unlike environmental agreements of the past, this was not 
a response to harmful developments or events, but rather preventive 
action on a global scale.
    Within less than six years after the negotiations began in late 
1986, the Montreal Protocol had been ratified by more than 100 (later 
over 180) nations. Gradually unfolding scientific evidence of damage to 
the ozone layer led to major revisions of the protocol, expanding the 
list of controlled chemicals from 8 to over 90 and considerably 
strengthening timetables for reduction and phase out of the dangerous 
chemicals.\4\ A veritable technological revolution was unleashed that 
within a few years transformed entire industries. The protocol also 
created the first-ever global environmental fund to assist poorer 
nations, and promoted an unprecedented North-South collaboration in 
developing and diffusing new technologies that have now made most 
ozone-depleting substances obsolete.
---------------------------------------------------------------------------
    \4\R. Benedick, Ozone Diplomacy: New Directions in the Planet 
(Cambridge, MA and London: Harvard University Press, rev. ed. 1998), 
provides a history and analysis of the ozone issue and the Montreal 
Protocol negotiations.
---------------------------------------------------------------------------
    Even so, it was a near thing. For decades after their discovery, no 
one had suspected that these multifaceted wonder-chemicals could cause 
any harm. They had been thoroughly tested by customary industrial 
standards and declared completely safe. Possible effects thirty miles 
above the earth had simply never been considered. And, because the CFCs 
and halons have such long atmospheric lifetimes, their deleterious 
impacts will still be felt for decades, even after new emissions cease.
    The Montreal Protocol is generally considered to be the most 
successful environmental treaty in history. The heads of the World 
Meteorological Organization (WMO) and the United Nations Environment 
Programme'' (UNEP) stated that ``the action to defend the ozone layer 
will rank as one of the great international achievements of the 
century.''\5\ Given the threats to human life and the global economy 
that have been averted through this landmark treaty, few would 
challenge their statement as hyperbole.
---------------------------------------------------------------------------
    \5\G.O.P. Obasi and Elizabeth Dowdeswell, Foreword to R. Bojkov, 
The Changing Ozone Layer, Geneva: WMO/UNEP, 1995.
---------------------------------------------------------------------------
                   the role of science and scientists
    Unquestionably the indispensable element in the success of the 
Montreal Protocol was the role of science and scientists. Without the 
curiosity and courage of a handful of researchers in the mid-1970s, the 
world might have learned too late of the hidden dangers linked with 
rapidly expanding use of CFCs.
    Ozone, whose existence was unknown until 1839, has been 
characterized as ``the single most important chemically active trace 
gas in the earth's atmosphere.''\6\ Two singular characteristics of 
this remote, unstable, and toxic gas make it so critical to human 
society. First, certain wavelengths of ultraviolet radiation (UV-B) 
that can damage DNA and the immune system and can cause cancer in 
living cells are absorbed by the thin layer of ozone molecules 
scattered throughout the atmosphere; the harmful radiation is thus 
prevented from reaching the earth's surface. And second, differing 
quantities of ozone at different altitudes have major implications for 
global climate. In sum, human health, agriculture and livestock, 
fisheries, biological diversity, and many materials would be 
significantly impacted by damage to the ozone shield. The ozone layer, 
at its historic natural concentrations and diffusion, is essential to 
life as it currently exists on earth.
---------------------------------------------------------------------------
    \6\D. Albritton et al., Stratospheric Ozone: The State of the 
Science and NOAA's Current and Future Research (Washington, DC: 
National Oceanic and Atmospheric Administration, 1987), p.1.
---------------------------------------------------------------------------
    In 1973, two University of Michigan scientists, Richard Stolarski 
and Ralph Cicerone, in the course of examining possible effects of 
chemical emissions from National Aeronautics and Space Administration 
(NASA) rockets, theorized that chlorine in the stratosphere could 
unleash a complex chain reaction that would continually destroy ozone 
over a period of decades. Fortunately, very little ``free chlorine'' 
was thought to exist at that altitude.\7\
---------------------------------------------------------------------------
    \7\R.S. Stolarski and R.J. Cicerone, ``Stratospheric Chlorine: A 
Possible Sink Ozone,'' Canadian Journal of Chemistry 52 (1974).
---------------------------------------------------------------------------
    However, a year later, Mario Molina and Sherwood Rowland at the 
University of California, Irvine, became intrigued with some peculiar 
properties of chlorofluoro- carbons. They discovered that, unlike 
almost all other gases, CFCs were not chemically destroyed or rained 
out in the lower atmosphere, but rather migrated slowly up into the 
stratosphere. There they remained for many decades--some variants for 
more than a century. The two researchers concluded that the man-made 
CFCs, which are not naturally present at this altitude, are eventually 
broken down by radiation and thereby release large quantities of free 
chlorine.\8\
---------------------------------------------------------------------------
    \8\M.J. Molina and F.S. Rowland, ``Stratospheric Sink for 
Chloroflouromethanes: Chlorine Atomic Catalyzed Destruction of Ozone, 
Nature 249 (1974).
---------------------------------------------------------------------------
    The combined implications of these two hypotheses were nothing less 
than sensational: the protective ozone shield would be seriously 
compromised. The enhanced levels of ultraviolet radiation that would 
then penetrate the atmosphere and reach earth's surface could have 
potentially disastrous impacts. The Rowland-Molina hypotheses unleashed 
a firestorm of criticism and controversy in the scientific and business 
communities. They were later vindicated by the 1995 Nobel Prize in 
Chemistry (together with Paul Crutzen of the Max Planck Institute), but 
it is worth noting that the first popular book on this subject, 
published in 1978, was entitled The Ozone War.\9\
---------------------------------------------------------------------------
    \9\L. Dotto and H. Schiff, The Ozone War (Garden City, NY: 
Doubleday, 1978).
---------------------------------------------------------------------------
    Astonishingly, the research paths leading to the suspicion that the 
stratospheric ozone layer was in jeopardy had been serendipitous. The 
scientists had not set out intentionally to condemn 
chlorofluorocarbons. Notwithstanding the initial controversy, the 
serious theoretical dangers prompted a wave of new scientific research 
over the following years.
    It would be difficult to exaggerate the complexity of the research 
effort. Ozone itself amounts to considerably less than one part per 
million of the total atmosphere, with 90 percent of it located above 
six miles in altitude. The intrinsically unstable ozone molecules are 
continually being created and destroyed by complex natural forces 
involving solar radiation and interactions with even more minute 
quantities of other gases. Moreover, stratospheric ozone concentrations 
can fluctuate on a daily, seasonal, and solar-cyclical basis, and there 
are significant geographical as well as altitudinal variations
    Amidst all these fluxes, scientists faced a formidable challenge in 
predicting, and then detecting, the minuscule ``signal'' of the 
beginning of a possible long-term downturn in stratospheric ozone as 
postulated by the theory. This necessitated the development of ever 
more sophisticated computer models to simulate the stratospheric 
interplay among radiative, chemical, and dynamic processes such as wind 
and temperature, for decades and centuries into the future. In 
addition, intricate observation and measuring devices had to be created 
and fitted onto aircraft, satellites, and rockets to monitor remote 
gases in quantities as minute as parts per trillion.
    To fully understand the implications of a diminishing ozone layer, 
scientists had to venture far beyond atmospheric chemistry: they had to 
examine our planet as a system of interrelated physical, chemical and 
biological processes on land, in water, and in the atmosphere--
processes that are themselves influenced by economic, political, and 
social forces. The Montreal Protocol thus became a truly multi- and 
interdisciplinary effort. Over the years, researching the dangers and 
solutions involved not only chemists and physicists, but also 
meteorologists, oceanographers, biologists, oncologists, economists, 
epidemiologists, soil chemists, toxicologists, agronomists, 
pharmacologists, botanists, entomologists, and electrical, chemical, 
automotive and materials engineers.
                       the protocol in transition
    Even as the negotiators were hammering out the final compromises in 
Montreal in September 1987, an unprecedented international scientific 
expedition was under way in Antarctica. Using specially designed 
equipment placed in balloons, satellites, a DC-8 flying laboratory, and 
a converted high-altitude U-2 spy aircraft, scientists were tracking 
stratospheric chemical reactions and measuring minute concentrations of 
gases. Preliminary results, announced about two weeks after the 
protocol's signing, indicated high stratospheric chlorine presence and 
the worst-ever seasonal drop in Antarctic ozone.
    Six months later, in March 1988, a joint NASA-NOAA press conference 
released the Ozone Trends Panel Report, a comprehensive international 
scientific assessment of all previous air- and ground-based 
stratospheric trace gas measurements, including those from the 1987 
Antarctic expedition. The conclusions were stunning: no longer a 
theory, ozone layer depletion had at last been substantiated by hard 
evidence. The analysis established that between 1969 and 1986, 
stratospheric ozone over heavily populated regions of the northern 
hemisphere, including North America, Europe, and the Soviet Union, 
China, and Japan, had diminished by small but significant amounts. And 
CFCs and halons were now implicated beyond dispute--including 
responsibility for the ozone collapse over Antarctica.
    The new scientific findings were profoundly disquieting. The most 
alarming implication was that the models on which the Montreal Protocol 
was based had proven incapable of predicting either the chlorine-
induced Antarctic phenomenon or the extent of ozone depletion 
elsewhere. Most probably, therefore, they were underestimating future 
ozone losses.
    Scientific studies now indicated that if existing atmospheric 
concentrations of chlorine and bromine were merely stabilized, the 
Antarctic ozone loss would be permanent. In order for ozone levels over 
Antarctica gradually to recover, and to avoid possibly crossing similar 
unforeseen thresholds in the future, it would be necessary to restore 
atmospheric chlorine concentrations (then at three parts per billion 
and rising) to levels at least as low as those prevailing in the early 
1970s, namely, two parts per billion.
    The original CFCs and halons would be phased out more rapidly than 
any of the negotiators at Montreal could have dreamed possible.
    Although the work of protecting the ozone layer is still not 
completely finished, the major challenges have been successfully 
addressed. The industrialized countries have either phased out, or are 
in process of phasing out, all of the major ozone-depleting substances 
as well as the less-damaging transitional chemicals. Developing 
countries have also accepted phase-out schedules as a great wave of new 
technologies is being diffused around the world. Now, the ozone layer 
is slowly beginning to recover.
                          lessons for science
    Without modern science and technology, the world would have 
remained unaware of an ozone problem until it was too late. Science 
became the driving force behind ozone policy, but it was not sufficient 
for scientists merely to publish their findings. In order for the 
theories to be taken seriously and lead to concrete policies, 
scientists had to interact closely with government policy makers and 
diplomatic negotiators. This meant that they had to leave the familiar 
atmosphere of their laboratories and assume an unaccustomed shared 
responsibility for the policy implications of their research. The 
history of the Montreal Protocol is filled with instances of scientific 
panels being called upon to analyze and make informed judgments about 
the effectiveness and consequences of alternative remedial strategies 
and policy measures.
    International scientific consensus was also essential. In effect, a 
community of scientists from many nations, dedicated to scientific 
objectivity, experienced through their research a mutual concern for 
protecting the planet's ozone layer that transcended divergent national 
allegiances. The development of an accepted common body of data and 
analysis was the prerequisite for a political solution among 
negotiating Governments whose initial positions seemed irreconcilable.
    In 1984, a remarkable international collaborative research effort 
was launched by the National Aeronautics and Space Administration 
(NASA) and the National Oceanic and Atmospheric Administration (NOAA), 
in cooperation with the WMO, UNEP, the Federal Aviation Administration, 
the German Ministry for Research and Technology, and the Commission of 
the European Communities. Approximately 150 scientists of various 
nationalities worked under United States scientists' leadership for 
more than a year. The resulting study, Atmospheric Ozone 1985, was the 
most ambitious analysis of the stratosphere ever undertaken: three 
volumes containing nearly 1,100 pages of text and eighty-six pages of 
references.\10\ This was followed by even more ambitions international 
studies.
---------------------------------------------------------------------------
    \10\See footnote 1.
---------------------------------------------------------------------------
    The Montreal Protocol later institutionalized this concept by 
establishing independent international expert panels to periodically 
assess scientific, technological, economic, and environmental 
developments and thereby guide the negotiators in the implementation 
and revision of the treaty. Over the years, thousands of scientific and 
industry experts from dozens of countries participated in the effort to 
learn more about both the dangers and the possible technological 
solutions. This proved to be a central element in the protocol's 
success, facilitating agreement by negotiators on additional controls 
to protect the ozone layer. In effect, the protocol was deliberately 
designed to be a dynamic process of narrowing the ranges of 
uncertainties and adjusting the measures accordingly, rather than being 
a static one-time solution.
    A major lesson from the ozone history is that Nature does not 
always provide policy makers with convenient early-warning signals of 
disaster, as exemplified in the case of the Antarctic ``ozone hole.'' 
In 1985, British scientists published findings based on balloon 
measurements of ozone made at Halley Bay in Antarctica. It appeared 
that stratospheric ozone concentrations during the Antarctic early 
spring (September-October) were about 40 percent lower than during the 
1960s. While the ozone layer recovered toward the end of each spring, 
the extent of the seasonal ozone collapse, or ``ozone hole'' (i.e., a 
portion of the stratosphere in which greatly diminished ozone levels 
were measured), had apparently accelerated beginning in 1979.
    Total chlorine concentrations over Antarctica, at a natural level 
of 0.6 parts per billion, had been slowly increasing for decades. 
However, no effect on the ozone layer was evident until the 
concentration exceeded two parts per billion, which apparently 
triggered the totally unexpected collapse. In other words, chlorine 
concentrations had tripled with no impact whatsoever on ozone until 
they crossed an unanticipated threshold. This nonlinear response has 
obvious implications for the potential dangers of other types of 
anthropogenic interference with the planet's natural cycles and 
resources.
    The British group had actually initially hesitated to publish their 
findings because they were considered too fantastic.\11\ Ironically, it 
was later discovered that United States and Japanese space satellites 
had not signaled the ozone collapse because, in order not to deluge 
scientists with unmanageable masses of data, satellite computers were 
programmed to automatically reject as anomalies any measurements so far 
below the ``error'' range of existing predictive models!
---------------------------------------------------------------------------
    \11\J. Farman, B.G. Gardiner, and J.D. Shanklin. ``Large Losses of 
Total Ozone in Antartica Reveal Seasonal Clx/NOx Interaction,'' Nature, 
no. 315 (1985).
---------------------------------------------------------------------------
    The role of scientists in the ozone history also provided some 
useful lessons for the climate change issue. During the 1980s, 
scientific assessments on climate change appeared regularly, under the 
aegis of WMO and UNEP, from a small group of largely self-selected 
scientists called the Advisory Group on Greenhouse Gases. In the summer 
of 1987, while preparing for the conclusive final negotiation in 
Montreal, I recommended that the U.S. propose establishing a formalized 
international assessment body on climate change, similar to what we 
were doing on the ozone issue. My belief was that findings would be 
more credible coming from a larger and more diverse group of scientists 
operating under intergovernmental auspices.
    This idea attracted unexpected allies and opponents. Some 
traditionally anti-environmental officials within the Reagan 
administration endorsed the concept, anticipating that it would provide 
governments with more control over the science. In contrast, 
environmental groups feared that the process would become distorted by 
politics. My own feeling, grounded in the ozone experience, was that 
the great majority of scientists were unlikely to allow themselves to 
be influenced by political, ideological or commercial interests, and 
that governments for their part would have greater respect for the 
results of a comprehensive international process of investigation and 
peer review. The subsequent experience of the Intergovernmental Panel 
on Climate Change, founded in 1988, has largely confirmed this hope.
                     lessons for the private sector
    The history of the Montreal Protocol also underscored the 
importance of having sufficient funding for all levels of science, from 
curiosity-driven basic research to applied engineering solutions. 
Initially, most research funding came from government sources, in 
particular NASA and NOAA in connection with their space-related 
research.
    But this was not always the case. In 1985, when the U.K. Government 
was still strongly opposed to meaningful controls over CFCs, it ceased 
financing, for obvious political motives, the British scientific 
mission in Antarctica that had uncovered the ``ozone hole.'' 
Significantly, the financial gap was filled by the U.S. Chemical 
Manufacturers Association; the American chemical companies hoped that 
controls would not be necessary, but they wanted to resolve the 
uncertainties--one way or the other.
    In general, American industry throughout the ozone negotiations was 
more pragmatic than ideological. Recognizing the growing scientific 
consensus, the Alliance for Responsible CFC Policy, a coalition of 
about 500 producer and user companies,
    announced its acceptance of international controls in September 
1986, three months before the formal negotiation process actually 
opened. Eight months later, American industry stayed conspicuously 
aloof from the campaign by anti-environmental elements within the 
administration to undermine a meaningful treaty, and subsequently fully 
endorsed President Reagan's strong position for the climactic September 
1987 negotiation in Montreal.
    The financial and intellectual resources of the private sector make 
its involvement and cooperation indispensable, since society ultimately 
depends primarily on industry to provide technological solutions. 
Technology is dynamic, and not, as often implied by those who resist 
change, a static element. If the market is left completely on its own, 
it may not necessarily bring forth the right technologies at the right 
time. Although the 1987 ozone protocol established targets that were 
initially beyond the reach of best-available technologies, the goals 
were in fact not unrealistic.
    The Montreal Protocol was not, as some opponents charged, a 
``radical'' treaty. On the contrary, it was an expression of faith in 
the market system. The treaty employed realistic market incentives to 
encourage technological innovation. The negotiators effectively 
signaled to the marketplace that research into solutions would now be 
profitable. Competitive--and collaborative--forces then took over, and 
solutions were developed much sooner, and at considerably lower cost, 
than had earlier been predicted.
    The protocol in fact stimulated a virtual technological revolution 
in the international chemical, telecommunications, pharmaceutical, and 
numerous other industries. By providing CFC producers and users with 
the certainty that the CFC market was destined to decline, the treaty 
unleashed the creative energies and financial resources of the private 
sector to find alternatives. Following the protocol's signing, the 
chemical industry began the race for substitutes. Four months after 
Montreal, several hundred industry representatives participated in a 
CFC-substitutes trade fair in Washington.
    Some user industries did not wait for the chemical companies to 
come up with substitutes; such companies as Nortel, IBM and Motorola 
re-examined their manufacturing processes and found ways to eliminate 
CFCs. In cooperation with a small Florida company, AT&T announced a 
replacement for CFC 113 derived from citrus fruit, for cleaning 
electronic circuit boards. Japanese and American importers of 
electronics parts from Thailand, including AT&T, Ford, Honda, and 
Toshiba, teamed up with EPA and Japan's Ministry of Trade and Industry 
to provide non-CFC technologies to their suppliers. More than 40 
multinational companies from eight countries, including Asea Brown 
Boveri, British Petroleum, Hitachi, and Honeywell, joined to help Viet 
Nam phase out CFCs.
                        lessons for credibility
    Another lesson from the Montreal Protocol's success was the 
importance of education: interpreting the continuously evolving and 
sometimes confusing data and communicating it intelligibly to the 
public, the media, and political and legislative leaders. This 
information flow mobilized public support for addressing the potential 
dangers of a diminishing ozone layer, and thereby promoted political 
consensus for both funding research and for policy actions. The role of 
the U.S. Congress was particularly critical in organizing many public 
hearings on the ozone issue over the years, and in commissioning 
several important studies by the National Academy of Sciences.
    In the 1980s, environmental organizations that favored strong 
actions to protect the ozone layer generally avoided invoking 
apocalypse in order to capture media and public attention. As chief 
United States negotiator pressing the official American position for 
strong controls against the opposition of most of the other major 
producing and consuming countries, I insisted that our delegation in 
principle never exaggerate the scientific case: let the science speak 
for itself, even when it is not completely unambiguous. I wanted to 
preserve our integrity and not present the opposition with a gratuitous 
weapon against our position.
    When some opponents of controlling CFCs within the U.S. 
Administration tried late in the negotiations to reverse the strong 
American position (and, incidentally, to dismiss me as chief 
negotiator), they belittled the science and the dangers, claiming inter 
alia that the problem could be solved by wearing cowboy hats and 
sunglasses. The resultant ridicule and backlash from the Congress, 
scientists, media, public, and the White House itself eventually led to 
a personal decision by President Reagan reaffirming the United States 
position favoring strong controls.
    Unfortunately, the lesson of scientific integrity appears to have 
been lost in the debate over climate change that began in the late 
1980s. Some environmental groups became overly alarmist in exaggerating 
the case for global warming following the hot summer of 1988, and, 
later, by crusading for the Kyoto Protocol as the only conceivable 
solution. This only engendered a strong counter-reaction from some 
affected industrial sectors. In addition, when the predicted dire 
consequences of climate change did not emerge soon, the American 
public--which in any case is accustomed to natural seasonal weather 
extremes--became generally apathetic toward possible long-term dangers.
    For their part, skeptics of climate change were also not immune to 
distortion. In an effort to discredit the climate science, opponents 
repeatedly cite the ``Heidelberg Appeal,'' released by a 
nongovernmental group at the United Nations Earth Summit in 
Johannesburg in 2002, as definitive evidence that most of the 
scientific community--more than 4000 eminent international scientist 
signatories, including over 70 Nobel Laureates--rejects the idea that 
rising anthropogenic carbon dioxide emissions could cause dangerous 
global climatic consequences. In actuality, the one-page document is a 
general treatise on the importance of science and contains not a single 
reference to the climate problem.\12\
---------------------------------------------------------------------------
    \12\See ``Heidelberg Appeal'' at www.sepp.org.
---------------------------------------------------------------------------
                         lessons for government
    Some governments allowed commercial self-interest to influence 
their interpretations of the science: uncertainty was used as an excuse 
for delaying decisions. Some political leaders, particularly those in 
Europe with substantial chemical industries, were initially prepared to 
accept speculative long-term environmental risks rather than to impose 
the tangible near-term costs entailed in limiting products seen as 
important contributors to a modern standard of living. Short-range 
political and economic concerns were, therefore, formidable obstacles 
to cooperative international action based upon the theory of ozone-
depletion.
    Other political leaders, however, including President Reagan and 
the Governments of Australia, Austria, Canada, Finland, Denmark, New 
Zealand, Norway, Sweden and Switzerland, decided to act even while 
there were still scientific ambiguities, based on a balancing of the 
risks and costs of delay.
    As early as 1977, the U.S. Congress had authorized the 
Administrator of the Environmental Protection Agency (EPA) in the Clean 
Air Act to regulate ``any substance which in his judgment may 
reasonably be anticipated to affect the stratosphere, especially ozone 
in the stratosphere, if such effect may reasonably be anticipated to 
endanger public health or welfare'' (emphasis added). This law 
attempted to balance the scientific uncertainties with the risks of 
inaction. It opted for a low threshold to justify intervention: the 
Government was not obligated to prove conclusively that a suspected 
substance could modify the stratosphere or endanger health and 
environment. All that was required was a standard of reasonable 
expectation. As Governor Russell Peterson, a senior advisor to 
President Nixon, had declared in reference to other potentially harmful 
chemicals, CFCs would not, like United States citizens, be considered 
innocent until proven guilty.
    Unfortunately, current tools of economic analysis are not fully 
adequate for evaluating the costs and risks, and can be deceptive 
indicators; they are in urgent need of reform. The customary methods of 
measuring national income do not satisfactorily reflect societal and 
ecological costs--especially those far in the future. Politicians 
should nevertheless resist the tendency to assign excessive credibility 
to self-serving economic interests that demand scientific certainty, 
and who insist that, simply because dangers are remote, they are 
therefore unlikely.
    By the time the evidence on such issues as ozone layer depletion 
and climate change is beyond dispute, the damage could be irreversible 
and it may be too late to avoid serious harm to human life and 
draconian future costs to society. The signatories at Montreal risked 
imposing substantial short-run economic dislocations even though the 
evidence was incomplete. The prudence of their decision was vindicated 
when the scientific models turned out to have actually underestimated 
prospective ozone depletion. And, thanks to the ingenuity of private 
entrepreneurs, the costs of action turned out to be much lower than 
originally predicted.
                  conclusion: acting under uncertainty
    The Montreal Protocol was by no means inevitable. Knowledgeable 
observers had long believed it would be impossible to achieve. The 
ozone negotiators confronted formidable political, economic, and 
psychological obstacles. The dangers of ozone depletion could touch 
every nation and all life on earth over periods far beyond politicians' 
normal time horizons. But although the potential consequences were 
grave, they could neither be measured nor predicted with certitude when 
the diplomats began their work.
    In the realm of international relations there will always be 
resistance to change, and there will always be uncertainties--
scientific, political, economic, psychological. Faced with global 
environmental threats, governments may need to act while some major 
questions remain unresolved. In achieving the Montreal accord, 
consensus was forged and decisions were made on a balancing of 
probabilities--and the risks of waiting for more complete evidence were 
finally deemed to be too great.
    ``Politics,'' stated Lord Kennet during early ozone debates in the 
House of Lords, ``is the art of taking good decisions on insufficient 
evidence.''\13\ The success of the Montreal Protocol stands as a beacon 
of how science can help decision makers to overcome conflicting 
political and economic interests and reach solutions. The ozone history 
demonstrates that even in the real world of ambiguity and imperfect 
knowledge, the international community, with the assistance of science, 
is capable of undertaking difficult and far-reaching actions for the 
common good.
---------------------------------------------------------------------------
    \13\U.K. House of Lords, Hansard 500 (October 20, 1988): col. 1308.
---------------------------------------------------------------------------
                                 ______
                                 
     Supplementary Statement of the Honorable Richard E. Benedick, 
      President, National Council for Science and the Environment
    Like Dr. Crichton, I am not a climate scientist and also like Dr. 
Crichton, I have followed the controversy surrounding Dr. Michael Mann 
and his associates. Given that Dr. Crichton has devoted considerable 
attention to this matter in his testimony, I would also like to add 
some observations for the record of the Hearing.
    First, contrary to Dr. Crichton's assertion, it is a matter of 
record that the initial paper by Mann et al., which appeared in the 
highly respected scientific journal Nature in 1998, did undergo 
thorough peer review prior to its publication.
    Second, it is my understanding that all of the data and 
methodologies used by them is publicly accessible and has been 
accessible since 1998. The only controversy has been about access to 
the specific computer program used by Dr. Mann and his co-authors. 
While the data and methodologies are typically the only requisites for 
public access, Mann and colleagues have also made their computer 
program available. I note that the National Science Foundation has been 
consulted on this matter and its legal office has stated that Dr. Mann 
and his colleagues have behaved in an entirely appropriate manner.
    Third, Dr. Crichton is correct to assert that replication of 
results is a very important aspect of sound science. I understand that 
the work of Dr. Mann et. al has in fact been replicated by other 
climate scientists.
    I understand that the Committee has received through other channels 
the letter sent by Dr. Mann to the House Committee on Energy and 
Science on July 15th of this year. This letter addresses in detail each 
of the issues raised by Dr. Crichton and others. The letter also 
indicates where the data, methodologies and computer programs are 
publicly accessible. I believe it is important that no one reading the 
record of this Hearing should have the impression that the statements 
made by Dr. Crichton have not already been addressed.
    There appears, moreover, to be controversy about the type of peer 
review undertaken on the paper by McIntyre and McKitrick before its 
publication in the magazine Energy and Environment, as well as whether 
the alleged ``errors'' that they report are in fact real, and indeed 
whether the work of McIntyre and McKitrick is itself replicable.
    In conclusion, there will always be disputes and disagreements 
among reputable scientists of good will. This is a normal part of the 
process of developing generally respected sound science. I would like 
to emphasize that reputable, peer-reviewed journals, and trusted, 
apolitical institutions like the National Academy of Sciences, have 
earned a deserved reputation as the best places to resolve scientific 
disagreements, rather than politicized innuendos, conspiracy theories, 
or science fiction novels. I believe that those who would make 
sensationalized accusations about the integrity of scientists--
accusations that could destroy professional careers--have an ethical 
obligation to check their facts before seeking publicity. Unless they 
do this, their insinuations merit no credibility.
                                 ______
                                 
     Responses of Richard E. Benedick to Additional Questions from 
                             Senator Inhofe
    Question 1. After the Hearing, your Executive Director, Peter 
Saundry was quoted in the press saying:
    ``Outside the committee room, Peter Saundry, executive director of 
the National Council for Science and the Environment, said that he was 
bemused by Crichton's apparent position. ``If you read his book, you 
are left with the impression that environmentalists are only one step 
up from the sort of people who will cross the road to murder your 
children, but then you get the author's note at the back and he makes 
this statement saying that he is not a climate change denier. It's hard 
to know what his position is.''
    Were you in fact confused by Dr. Crichton's testimony on the need 
for independent verification of scientific research? Does the National 
Council for Science and the Environment oppose independent verification 
of scientific research?
    Response. The comments of Dr. Saundry quoted above, appear to refer 
to a contradiction between the murderous exploits of a fictional 
environmental organization and the ``debunking'' of the issue of 
climate change that is the basis of Dr. Crichton's novel, and Dr. 
Crichton's statement in a postscript to the novel that he does not deny 
the possibility of human impacts on climate. Thus, if there is some 
confusion on Dr. Crichton's testimony, it concerns his position on 
climate change rather than his position on independent verification of 
scientific research.
    The National Council for Science and the Environment emphatically 
supports the independent verification of scientific research. The 
National Council for Science and the Environment also supports 
independent peer review of scientific results prior to publication, and 
also supports making both the data and methodology of published 
scientific findings sufficiently accessible for independent 
verification of results to be carried out. On these principles, I 
believe that there is agreement between myself and Dr. Crichton.
    I confess that I was also confused by the substantial part of Dr. 
Crichton's testimony that applied these principles to the work of Dr. 
Michael Mann and colleagues--especially since the initial paper by Mann 
et al., which appeared in the highly respected scientific journal 
Nature in 1998, did undergo thorough peer review prior to its 
publication.
    It is my understanding that all of the data and methodologies used 
by Mann et. al. are publicly accessible and have been accessible since 
1998. The only controversy appears to be about access to the specific 
computer program used by Dr. Mann and his co-authors. While the data 
and methodologies are typically the only requisites for public access, 
Mann and colleagues have in fact also made their computer program 
available. The National Science Foundation was consulted on this matter 
and its legal office has stated that Dr. Mann and his colleagues have 
behaved in an entirely appropriate manner.
    I understand that the work of Dr. Mann et. al has also been 
replicated by other climate scientists and these independent 
replications have been explicitly referred to in the comprehensive 
letter sent by Dr. Mann to the House Committee on Energy and Science on 
July 15th of this year, which I understand has been submitted into the 
record of this hearing. The letter also indicates where the data, 
methodologies and computer programs are publicly accessible and 
addresses in detail each of the issues raised by Dr. Crichton.
    In an imperfect world, there will always be disputes and 
disagreements among reputable scientists of good will. This is a normal 
part of the process of developing generally respected sound science. 
Peer-reviewed journals, and trusted, apolitical institutions like the 
National Academy of Sciences, have earned a deserved reputation as the 
best places to resolve scientific disagreements, rather than in works 
of fiction.
    I believe that anyone who would make accusations about the 
integrity of scientists--accusations that could destroy professional 
careers--has an ethical obligation to independently verify facts before 
seeking publicity. Unless they do this, their insinuations lose 
credibility.
                                 ______
                                 
     Responses of Richard E. Benedick to Additional Questions from 
                            Senator Jeffords
    Question 1. In your written testimony, you write that in March 1998 
a joint NASA press conference released the Ozone Trends Panel Report. 
Can you provide a citation for the record of the Executive Summary of 
that report, which you used in your remarks?
    Response. R.T. Watson, F.S. Rowland, and J. Gille, ``Ozone Trends 
Panel Executive Summary,'' NASA, Washington, D.C.
                                 ______
                                 
        Statement of Dr. Michael Crichton, M.D., Author, Doctor
    Thank you Mr. Chairman, and members of the committee. I am Michael 
Crichton, known to most people as the author of Jurassic Park and the 
creator of the television series ER. My academic background includes 
degrees from Harvard College and Harvard Medical School; I was a 
visiting lecturer in Physical Anthropology at Cambridge University; and 
a post-doctoral fellow at the Salk Institute, where I worked on media 
and science policy with Jacob Bronowski.
    My recent novel ``State of Fear'' concerns the politicization of 
scientific research. I appreciate the opportunity to discuss this 
subject. What I would like to emphasize to the committee today is the 
importance of independent verification to science.
    In essence, science is nothing more than a method of inquiry. The 
method says an assertion is valid and will be universally accepted only 
if it can be reproduced by others, and thereby independently verified. 
The impersonal rigor of the method has produced enormously powerful 
results for 400 years.
    The scientific method is utterly apolitical. A truth in science is 
verifiable whether you are black or white, male or female, old or 
young. It's verifiable whether you know the experimenter, or whether 
you don't. It's verifiable whether you like the results of a study, or 
you don't.
    Thus, when adhered to, the scientific method can transcend 
politics. Unfortunately, the converse may also be true: when politics 
takes precedent over content, it is often because the primacy of 
independent verification has been abandoned.
    Verification may take several forms. I come from medicine, where 
the gold standard is the randomized double-blind study. Not every study 
is conducted in this way, but it is held up as the ultimate goal.
    In that vein, let me tell you a story. It's 1991, I am flying home 
from Germany, sitting next to a man who is almost in tears, he is so 
upset. He's a physician involved in an FDA study of a new drug. It's a 
double-blind study involving four separate teams--one plans the study, 
another administers the drug to patients, a third assess the effect on 
patients, and a fourth analyzes results. The teams do not know each 
other, and are prohibited from personal contact of any sort, on peril 
of contaminating the results. This man had been sitting in the 
Frankfurt airport, innocently chatting with another man, when they 
discovered to their mutual horror they are on two different teams 
studying the same drug. They were required to report their encounter to 
the FDA. And my companion was now waiting to see if the FDA would 
declare their multi-year, multi-million-dollar study invalid because of 
this contact.
    For a person with a medical background, accustomed to this degree 
of rigor in research, the protocols of climate science appear 
considerably more relaxed. A striking feature of climate science is 
that it's permissible for raw data to be ``touched,'' or modified, by 
many hands. Gaps in temperature and proxy records are filled in. 
Suspect values are deleted because a scientist deems them erroneous. A 
researcher may elect to use parts of existing records, ignoring other 
parts. Sometimes these adjustments are necessary, sometimes they are 
questionable. Sometimes the adjustments are documented, sometimes not. 
But the fact that the data has been modified in so many ways inevitably 
raises the question of whether the results of a given study are wholly 
or partially caused by the modifications themselves.
    In saying this, I am not casting aspersions on the motives or fair-
mindedness of climate scientists. Rather, what is at issue is whether 
the methodology of climate science is sufficiently rigorous to yield a 
reliable result. At the very least, we should want the reassurance of 
independent verification by another lab, in which they make their own 
decisions about how to handle data, and yet arrive at a similar 
conclusion.
    Because any study where a single team plans the research, carries 
it out, supervises the analysis, and writes their own final report, 
carries a very high risk of undetected bias. That risk, for example, 
would automatically preclude the validity of the results of a similarly 
structured study that tested the efficacy of a drug. Nobody would 
believe it.
    By the same token, it would be unacceptable if the subsequent 
verification of such a study were conducted by investigators with whom 
the researcher had a professional relationship--people with whom, for 
example, he had published papers in the past. That's peer review by 
pals, and it's unavoidably biased. Yet these issues are central to the 
now-familiar story of the ``Hockey stick graph'' and the debate 
surrounding it.
    To summarize it briefly: in 1998-99 the American climate researcher 
Michael Mann and his co-workers published an estimate of global 
temperatures from the year 1000 to 1980.\1\ Mann's results appeared to 
show a spike in recent temperatures that was unprecedented in the last 
thousand years. His alarming report received widespread publicity and 
formed the centerpiece of the U.N.'s Third Assessment Report, in 2001. 
The graph appeared on the first page of the IPCC Executive Summary.
---------------------------------------------------------------------------
    \1\Mann, M.E., R.S. Bradley and M.K. Hughes, 1998. ``Global-Scale 
Temperature Patterns and Climate Forcing Over the Past Six Centuries,'' 
Nature, 392, 779-787.
---------------------------------------------------------------------------
    Mann's work was initially criticized because his graph didn't show 
the well-known Medieval Warm Period, when temperatures were warmer than 
they are today, or the Little Ice Age, when they were colder than 
today. But real fireworks began when two Canadian researchers, McIntyre 
and McKitrick, attempted to replicate Mann's study. They found grave 
errors in the work, which they detailed in 2003:\2\ calculation errors, 
data used twice, and a computer program that generated a hockey stick 
out of any data fed to it even random data.
---------------------------------------------------------------------------
    \2\McIntyre, S. and R. McKitrick, 2003. ``Corrections to the Mann 
et. Al. (1998) Proxy Data Base and Northern Hemisphere Average 
Temperature Series.'' Environment and Energy 14(6) 751-771. See also, 
McIntyre, S. and R. McKitrick, 2005. ``Hockey Sticks, Principal 
Components and Spurious Significance'', Geophysical Research Letters V 
32 (3) L03710 10.1029/2004GL021750 12
---------------------------------------------------------------------------
    Mann's work has been dismissed as ``phony'' and ``rubbish'' by 
climate scientists around the world who subscribe to global warming. 
Some have asked why the UN accepted Mann's report so uncritically. It 
is unsettling to learn Mann himself was in charge of the section of the 
report that included his work. This episode of climate science is far 
from the standards of independent verification.
    The hockey stick controversy drags on. But I would direct the 
committee's attention to three aspects of this story. First, six years 
passed between Mann's publication and the first detailed accounts of 
errors in his work. This is simply too long for policymakers to wait 
for validated results. Particularly if it is going to be shown around 
the world in the meantime.
    Second, the flaws in Mann's work were not caught by climate 
scientists, but rather by outsiders in this case, an economist and a 
mathematician. McIntyre and McKitrick had to go to great lengths to 
obtain the data from Mann's team, which obstructed them at every turn. 
When the Canadians sought help from the NSF, they were told that Mann 
was under no obligation to provide his data to other researchers for 
independent verification.
    Third, this kind of stonewalling is not unique or uncommon. The 
Canadians are now attempting to replicate other climate studies and are 
getting the same runaround from other researchers. One leading light in 
the field told them: ``Why should I make the data available to you, 
when your aim is to try and find something wrong with it.''
    Even further, some scientists complain the task of archiving is so 
time-consuming as to prevent them from getting any work done. But this 
is nonsense.
    The first research paper I worked on, back in the 1960s, consisted 
of data on stacks of paper. When we received a request for data from 
another lab, I stood at a Xerox machine, copying one page a minute at 
11 cents a page for several hours. Back in those days, a request for 
data meant a lot of work.\3\
---------------------------------------------------------------------------
    \3\Crichton, M., N.P. Christy and A. Damon, 1981. ``Host Factors in 
`Chromophobe' Adenoma of the Anterior Pituitary; a Retrospective Study 
of 464 Patients.'' Metabolism, 3:248-67.
---------------------------------------------------------------------------
    But today we can burn data to a CD, or post it at an ftp site for 
downloading. Archiving data is so easy it should have become standard 
practice a decade ago. Government grants should require a ``replication 
package'' as part of funding. Posting the package online should be a 
prerequisite to journal publication. And since it's so easy, there's 
really no reason to exclude anyone from reviewing the data.
    One problem with replication is this: while it can tell you a 
research result is faulty, it can't tell you what the right answer is. 
Policymakers need sound answers to the questions they ask. A better way 
to get them might be to give research grants for important projects to 
three independent teams simultaneously. A provision of the grant would 
be that at the end of the study period, all three papers would be 
published together, with each group commenting on the findings of the 
other. I believe this would be the fastest way to get verified answers 
to important questions.
    But if independent verification is the heart of science, what 
should policymakers do with research that is unverifiable? For example, 
the UN Third Assessment Report defines general circulation climate 
models as unverifiable.\4\ If that's true, are their predictions of any 
use to policymakers?
---------------------------------------------------------------------------
    \4\``Our evaluation process is not as clear-cut as a simple search 
for `falsification.' While we do not consider that the complexity of a 
climate model makes it impossible to ever prove such a model `false' in 
any absolute sense, it does make the task of evaluation extremely 
difficult and leaves room for a subjective component in any 
assessment.'' IPCC TAR p 474. See also ``We fully recognize the 
evaluation statements we make contain a degree of subjective scientific 
perception and may contain much `community' or `personal' knowledge.'' 
IPCC TAR p. 475. Evaluations that are non-falsifiable, personal, and 
subjective are by definition not independently verifiable.
---------------------------------------------------------------------------
    Arguably not. In 2000, Christopher Landsea and co-workers studied 
various computer models that had forecast the strong El Nino event of 
1997-98. They concluded that the older, simpler models hardly more than 
simple formula had performed much better than the global circulation 
models when predicting the arrival and strength of the El Nino.\5\
---------------------------------------------------------------------------
    \5\Landsea, C. et al., 2000, ``How Much Skill Was There in 
Forecasting the Very Strong 1997-98 El Nino?'' Bulletin American 
Meteorological Society 81: 2107-19. The authors observe: ``--one could 
have even less confidence in anthropogenic global warming studies 
because of the lack of skill in predicting El Nino--the successes in 
ENSO forecasting have been overstated (sometimes drastically) and 
misapplied in other arenas.''
---------------------------------------------------------------------------
    If policymakers decide to weight their decisions in favor of 
verified research, that will provoke an effort by climate scientists to 
demonstrate their concerns using objectively verifiable research.
    In closing, I want to state emphatically that nothing in my remarks 
should be taken to imply that we can ignore our environment, or that we 
should not take climate change seriously. On the contrary, we must 
dramatically improve our record on environmental management. That's why 
a focused effort on climate science, aimed at securing sound, 
independently verified answers to policy questions, is so important 
now.
    I would remind the committee that in the end, it is the proper 
function of government to set standards for the integrity of 
information it uses to make policy, and to ensure that standards are 
maintained. Those who argue government should refrain from mandating 
quality standards for scientific research including some professional 
organizations are merely self-serving. In an information society, 
public safety depends on the integrity of public information. And only 
government can perform that task.
                                 ______
                                 
    Responses of Dr. Michael Crichton to Additional Questions from 
                            Senator Jeffords
    Question 1. Did your interest in climate change science stem solely 
from the writing of your book, or is there something else in your 
background that initiated your interest in this issue? Do you consider 
yourself to be an expert on the science of climate change?
    Response. My views on global warming were entirely conventional 
until 2001 when I began to inspect temperature records, which are 
available online. I was underwhelmed by the evidence I saw and I 
continued my research for two years. My decision to write a book came 
later.
    I am not a climate scientist and I consider my observations useful 
precisely because I am an outsider looking at this field. I do consider 
myself a well-educated American citizen, and I share with my countrymen 
a healthy skepticism toward experts of all sorts. If war is too 
important to be left to the generals, science is too important to be 
left to the scientists.
    Question 2.  Have you ever received funding from any person or 
entity for your views on climate change or any other environmental 
scientific issue? If so, please provide the amount received, when and 
for what purpose.
    Response. In the 25 years of my career, I have never received 
funding for my views on any subject. No one has ever offered, either.
    Question 3.  Do you think scientific studies that have not been 
peer reviewed or published in a scientific peer reviewed journal should 
be given equal weight to studies that have has such review?
    Response. In general I agree with the scientific tradition that 
gives greater weight to peer-reviewed articles. But I am sure you are 
aware that several published studies in recent years have questioned 
the effectiveness of peer review as a process. This has spurred a 
debate among scientists about the procedure. The debate has several 
aspects, ranging from questions of subtle censorship, to questions 
about whether peer-review really results in improved papers overall. 
One area of particular concern is whether peer-review catches 
statistical errors efficiently. I mention this debate to raise a 
questionmark behind my answer, and also to remind you that peer-review 
is not the same as independent replication of results (which is what I 
argued for in my testimony.)
    Question 4.  You are quite critical of Michael Mann's study on 
global temperature changes based on a study done by McIntyre and 
McKitrick. You also state that the National Science Foundation told 
McIntyre and McKitrick that ``Mann was under no obligation to provide 
his data to other researchers.'' My understanding is that access to the 
data are not the issue, Mann's data are publicly available. At issue, 
is whether researchers need access to exactly the same computer program 
(or ``code'') as the initial researcher to get the same result.
    Response. My understanding is not the same as yours on this matter. 
I believe McIntyre and McKitrick said they did not obtain prompt access 
to relevant data. The matter of computer code was only one aspect of 
the larger question of access.
    Question 4a.  Would you agree that the key to replicability is 
unfettered access to all of the underlying data and methodologies used 
by the first researcher?
    Response. Yes. Such access is necessary but not sufficient. At a 
minimum, two other elements are required. The first is that 
verification be performed by a genuinely independent researcher, and 
the second is that the results be published, preferably by the original 
journal.
    Question 4b.  If the data and methodological information are 
available to anyone who wants them, are there other limitations to 
study replication?
    Response. Replication of a study requires that the original 
investigator provide all the information necessary for another research 
laboratory to perform the replication. What constitutes ``all the 
information necessary'' will vary from instance to instance. Some back-
and-forth between investigator and replicator is often required, and 
frequently occurs in other scientific fields.
    Question 4c.  Are you aware that other scientists have reproduced 
Mann's results based on publicly available information?
    Response. It's often claimed that ten other studies have replicated 
the work. But four of the papers have Mann's name listed among the 
authors. The authors of the other six papers include scientists with 
whom Mann has published other papers. As I indicated in my testimony, 
this is not genuine independent replication. It's not a matter of 
honesty or good intentions. It's simply procedurally invalid.
    Question 4d.  As a writer, are you sympathetic to Mann's concerns 
regarding intellectual property protection for his climate model?
    Response. I believe your question contains two erroneous 
assumptions. First of all, to refer to Mann's study as a ``climate 
model'' invites misunderstanding. Mann performed a meta-analysis of 
many studies taken together. Such meta-analyses have been carried out 
for decades in many fields of science; there is nothing new or unusual 
about such a study. There are a variety of known computer algorithms 
that are employed for meta-analysis. The particular computer code that 
Mann employed for his meta-analysis has been reported to be flawed. The 
determination that the code is flawed has been made by scientists 
around the world.
    Second, you ask about intellectual property protection. As you 
know, ownership of intellectual work product is subject to negotiation. 
Scientists (and novelists) find themselves making different 
arrangements in different instances. Many scientists do not own the 
work that they do; others have a financial participation but no 
ownership rights regarding use or disposition of their work; others may 
have full control over their own work.
    However, as a general principle whoever pays for the work will have 
much to say about how it is used. In the case of publicly-funded 
research, I argue that the results are owned by the American people. 
This is not clearly the understanding now, but it should be. And 
furthermore, when the public funds a study, it is because the public 
(or its representatives) deems that the answers provided by that study 
to be of public importance. In science, answers need to be verified 
independently. Therefore I argue that any scientist who accepts public 
funding also accepts the obligation to make his work available for 
verification by others.
    Question 5.  Following the publication of ``State of Fear'', you 
have spoken publicly about your concerns regarding the state of 
environmental science. How do you view your role in critiquing 
environmental science? Will it be something you will continue?
    Response. I have spoken about environmental matters since the 
1980s. I have always argued that our environmental knowledge is 
inadequate; that our efforts are insufficient; that we spend too little 
on the environment; and that we don't necessarily spend our money on 
the most important problems. These views are explicitly stated in the 
afterward of my book. At no time have I ever suggested that we need to 
do less about the environment. We need to do more. And we need to be 
much more effective.
    Since I have been speaking on this subject for the last twenty 
years, I expect I will continue from time to time.
    Question 6.  As I think you anticipated, your book has stirred up 
some controversy among climate scientists, some of whom have charged 
that you did not accurately portray their work. Do you anticipate 
responding to these challenges in future editions of the book?
    Response. I have included footnotes and thirty pages of annotated 
bibliography so that readers can go to the scientific references I 
used, and decide for themselves what they think. I am pleased that many 
readers are doing so.
    Question 7.  On p. 246 of ``State of Fear'' one of the characters 
talks about testimony by Dr. James Hansen, director of the Goddard 
Institute for Space Studies. Your character only mentions one of 
Hanson's three scenarios. Why? Are you aware that Dr. Hansen 
characterized the highest scenario that is reference in your book as 
not very likely? Are you aware that the middle scenario, which Dr. 
Hansen characterized as most likely, is consistent with the observed 
warming since 1988?
    Response. Whenever there are multiple estimates for some future 
outcome, there is always an issue of which estimate to use. In keeping 
with the established tradition of the mainstream media, I used the 
highest and most dramatic estimate. The fictional character on page 246 
is clearly evoking the public impact of Hansen's 1988 Senate testimony, 
and that impact is clear in contemporary news accounts. Nowhere did I 
find it reported that Dr. Hansen predicted a tenth of a degree increase 
in the next 10 years. On the contrary: after the Hansen testimony, the 
New York Times stated in several articles that increases would be on 
the order of 3 to 9 degrees by 2030, and might run as high as 20 
degrees by 2075.
                                 ______
                                 
     Statement of William M. Gray, Ph.D., Professor, Department of 
             Atmospheric Science Colorado State University
    Mr. Chairman and Members of the committee, I am William M. Gray, a 
Professor of Atmospheric Science at Colorado State University in Fort 
Collins, Colorado. I have been studying and forecasting weather and 
climate for over 50 years (see my attached Vitae). My specialty has 
been tropical meteorology and tropical cyclones. I have made Atlantic 
basin seasonal hurricane forecasts for the last 22 years.
    Over the last 20 years, I have been dismayed over the bogus science 
and media-hype associated with the nuclear winter and the human-induced 
global warming hypotheses. My innate sense of how the atmosphere-ocean 
functions does not allow me to accept either of these scenarios. 
Observations and theory do not support these ideas. The nuclear winter 
hypothesis did not recognize that the globe's hydrologic cycle operates 
on a time scale of 8-10 days and that nuclear- spawned dust material 
would be quickly rained out of the atmosphere. The human-induced global 
warming scenarios have a major flaw in that they accept the view that 
an increase in the global hydrologic cycle will cause enhanced upper-
tropospheric water vapor gain and a suppression of outgoing long wave 
radiation (OLR) to space. The opposite is true. Global Climate Models 
(GCMs) are also not able to realistically predict the ocean's deep 
water circulation which is fundamental to any understanding of global 
temperature change.
    As a boy, growing up here in Washington, DC, I remember the many 
articles on the large global warming that had occurred between 1900 and 
1940. No one understood or knew if this warming would continue. Then 
the warming abated, and a weak global cooling trend set in from the 
mid-1940s to the early 1970s. The global warming talk ceased and 
speculation about a coming ice age came into vogue. I anticipate that 
the trend of the last few decades of global warming will come to an 
end, and in a few years we will start to see a weak cooling trend 
similar to that which occurred from the mid-1940s to the early 1970s.
    I would like to present a different view on the likelihood of 
human-induced global warming and also provide evidence that global 
hurricane activity has not increased as the globe has warmed in recent 
decades. There is no significant correlation between global warming and 
global hurricane activity.
                      human-induced global warming
    Although initially generated by honest scientific questions, this 
topic has long ago advanced into the political arena and taken on a 
life of its own. It has been extended and grossly exaggerated and 
misused by those wishing to make gains from the exploitation of 
ignorance on this subject. This includes many governments of western 
countries, the media, and scientists who were willing to bend their 
objectivity to obtain government grants for research. It is unfortunate 
that most of the resources for climate research come from the federal 
government. When a national government takes a political position on a 
scientific topic, the wise meteorologist or climatologist either joins 
the crowd or keeps his/her mouth shut. Scientists can be punished if 
they do not accept the current views of their funding agents. An honest 
and objective scientific debate cannot be held in such a political 
environment.
    I have closely followed the greenhouse gas warming arguments. From 
what I have learned of how the atmosphere functions in over 50 years of 
study and forecasting, I have been unable to convince myself that a 
doubling of human-induced greenhouse gases can lead to anything but 
quite small and likely insignificant amounts of global warming ( 0.2-
0.3 C).
    Most geophysical systems react to forced imbalances by developing 
responses which oppose and weaken the initial forced imbalance; hence, 
a negative feedback response. Recently proposed human-induced global 
warming scenarios go counter to the foregoing in hypothesizing a 
positive feedback effect. They assume that a stronger hydrologic cycle 
(due to increased anthropogenic greenhouse gases) will cause additional 
upper-level atmospheric water vapor. This increased vapor results in a 
reduction of OLR loss to space and causes additional warming (Fig. 1). 
This positive water vapor feedback assumption allows the small initial 
warming due to human-induced greenhouse gases to be unrealistically 
multiplied 8-10 times. This is where much of the global modeling is in 
error. As anthropogenic greenhouse gases increase it does not follow 
that upper-level water vapor will increase. If it does not, little 
global warming will result. Observation of middle tropospheric water 
vapor over the last few decades shows that water vapor has in fact been 
undergoing a small decrease. The assumed positive water vapor feedback 
as programmed into the GCM models is not occurring. Energy budget 
studies indicate that if atmospheric water vapor and the rate of 
condensation were held fixed, a doubling of carbon dioxide would cause 
only a small ( 0.2-0.3 C) global warming. This can be contrasted to 
the 2-5 C warming projected in the models.
    The other primary physical limitations of the GCM simulations are 
their inability (as yet) to properly treat the global ocean deep 
circulation. This requires the need to model ocean salinity variations. 
Climate change cannot be objectively discussed without a realistic 
treatment of the ocean.
[GRAPHIC] [TIFF OMITTED] 38918.001


    Skillful initial value GCM climate prediction is not possible and 
probably never will be. This is due to the complex nature of the 
atmosphere/ocean system and the inability of numerical models to 
realistically represent this physical complexity. Realistic features 
currently cannot be forecast more than a week or two into the future 
(see Figs. 2 and 3). Imperfect representations of the highly non-linear 
parameters of the atmosphere-ocean system tend to quickly degrade (the 
so-called butterfly influence) into unrealistic flow states upon long 
period integration. Short-range prediction is possible up to a week or 
10 days into the future because there tends to be conservatism in the 
initial momentum fields which can be extrapolated for short periods. 
But beyond about 1-2 weeks, the multiple unknown and non-linear energy-
moisture exchanges within the earth system become dominant. Model 
results soon decay in chaos. Numerical climate models cannot now and 
likely never will be able to be accurately forecast more than a few 
weeks into the future. If skillful GCM climate forecasts were possible, 
we would be eager to follow their predictions. Currently, GCMs do not 
make seasonal or yearly forecasts. How can we trust climate forecasts 
50 and 100 years into the future (that can't be verified in our 
lifetime) when they are not able to make shorter seasonal or yearly 
forecasts that could be verified? They know that they dare not issue 
shorter forecasts because they are aware that they have little or no 
skill.
[GRAPHIC] [TIFF OMITTED] 38918.002

    Besides the physical uncertainty concerning how to represent the 
complexity of the atmosphere-ocean system in quantitative terms, 
climate models have become too complex for any one person or team to 
understand. Due to the great complexity of the GCM system, the true 
reasons for success or failure often cannot be determined. These models 
have been developed by teams of specialists who concentrate on 
different parts of their model. No one person is able to understand the 
whole GCM simulation. Most model developers are talented and skilled 
technicians. However, few have ever given real-world weather briefings 
or made operational weather forecasts.

[GRAPHIC] [TIFF OMITTED] 38918.003


    The potential for climate modeling mischief and false scares from 
incorrect climate model scenarios is enormous. Numerical modeling 
output gives an air of authenticity which is not warranted by the input 
physics and long periods of integration. How many more climate scares 
are we to see from climate models which are not able to realistically 
predict past and future climate changes let alone future decadal or 
century changes?
    Many of my older meteorological colleagues are very skeptical of 
these anthropogenic global warming scenarios. But we are seldom asked 
for any input. Despite my 50 years of meteorology experience and my 
many years of involvement in seasonal hurricane and climate prediction, 
I have never been asked for input on any of the International Panels on 
Climate Change (IPCC) reports. They know my views and do not wish to 
have to deal with them. Many other experienced but skeptical 
meteorologists and climatologists are also ignored. I find that the 
summary page conclusions of the IPCC reports frequently do not agree 
with the extensive factual material contained within them. In fact, the 
summary conclusions of many of the IPCC reports give the impression 
they were written before the research is done.
    It is disappointing that more atmospheric scientists have not 
spoken out about the reality of human-induced global warming and the 
reliability of the GCM simulations. It is also mystifying to me how the 
global warming advocates are able to get away with the argument that 
extreme weather events have become more prevalent in recent years and 
that they likely have a human-induced component. Such assertions are 
factually wrong.
    There is nothing we humans can do to prevent natural climate 
change, which I believe nearly all the recent global temperature rise 
is due too. We have no choice but to adapt to future climate changes. 
Restricting human-induced greenhouse gas emissions now, on the basis of 
their assumed influence on global warming, is not a viable economic 
option, even if it were politically possible. China and India would 
never restrict their growing fossil fuel usage. Restricting greenhouse 
gas emissions would have little or no effect on global temperature. We 
need to keep the western world economies vibrant if for no other reason 
than to be able to afford the needed large technical research funding 
that will be required to develop future non-fossil fuel energy sources.
    I am convinced that in 15-20 years, we will look back on this 
period of global warming hysteria as we now look back on so many other 
popular, and trendy, scientific ideas--such as the generally accepted 
Eugenic theories of the 1920s and 1930s that have now been discredited. 
There are so many other more important problems in the world which need 
our immediate attention. We should not be distracted by a false threat 
that is mostly just due to natural changes in climate.
                 global warming influence on hurricanes
    The Atlantic has large multi-decadal variations in major (category 
3-4-5) hurricane activity. These variations are observed to result from 
multi-decadal variations in the North Atlantic Thermohaline Circulation 
(THC)-Fig. 4. When the THC is strong, it causes the North Atlantic to 
have warm or positive Sea Surface Temperature Anomalies (SSTA) and when 
the THC is weak, cold SSTAs prevail. Figure 5 shows these North 
Atlantic SSTAs over the last century with a projection for the next 15 
years.
    We observe that there are significantly more Atlantic basin major 
hurricanes when the THC is strong than when it is weak. Figure 6 shows 
the sum of tracks of Atlantic major hurricane tracks during a 20-year 
period when the THC was strong (left) versus an 18-year period when it 
was weak (right). Note the large differences. Figure 7 gives an 
illustration of how fortunate peninsula Florida was in terms of 
landfalling hurricanes during the period of 1966-2003 in comparison 
with the earlier period of 1932-1965. The varying strength of the 
Atlantic THC is partly responsible for these differences. Luck also 
played a role. There were many intense hurricanes just off the Florida 
coast during the later period that did not come ashore (i.e., Hurricane 
Floyd, 1999).

[GRAPHIC] [TIFF OMITTED] 38918.004

[GRAPHIC] [TIFF OMITTED] 38918.005


    Recent major hurricanes Katrina and Rita and last year's four U.S. 
land falling major hurricanes have spawned an abundance of questions 
concerning the role that global warming might be playing in these 
events. The ideas that global warming was the cause for these last two 
years of greater hurricane activity has been greatly enhanced by two 
recent papers presenting data to show that global tropical cyclones 
have become more intense in recent years. They tie this increased 
hurricane activity to global warming. These papers are:
    a) Kerry Emanuel, 4 August 2005: Increasing destructiveness of 
tropical cyclones over the past 30 years. Nature, 436, 686-688.
    b) P.J. Webster, G.J. Holland, J. Currie and P. Chang, 16 September 
2005: Changes in tropical cyclone number, duration, and intensity in a 
warming environment. Science, 309, 1844-1846.
    The near universal reference to these two papers over the last two 
weeks by most major media outlets is helping to establish a belief 
among the general public and scientists not involved in tropical 
cyclone studies that global hurricane intensity has been rising and 
that global warming is primarily responsible. This conclusion is not 
valid. The authors have improperly handled their data sets and their 
findings should not be accepted. These papers require a response from a 
few of us who study hurricanes. I feel I have an obligation to make 
formal comments on these papers (to the editors of the journals), which 
I will do in another week or two.
                  determination of hurricane intensity
    There always has been, and there probably always will be, problems 
in assigning a representative maximum surface wind to a hurricane. As 
technology advances and the methods of determining a hurricane's 
maximum winds change, different values of maximum winds will be 
assigned to hurricanes than would have been assigned in previous years.
    With the availability of new aircraft deployed inertial 
dropwindsondes and the new step-frequency surface wind measurement 
instruments, it is being established that Atlantic hurricane surface 
winds are sometimes stronger than were previously determined from wind 
values extrapolated from aircraft altitude. Saffir/Simpson category 
numbers in the Atlantic due to these changes in measurement techniques 
have risen slightly in recent years. Although most of the comparative 
differences in the 38 major hurricanes of the last 10 years in the 
Atlantic basin (1995-2004) vs. the 14 major hurricanes of the prior 10 
years (1985-1994) is thought to represent real variability, a small 
part of this difference may be due to the assignment of a Category 3 or 
Category 4 status to a hurricane which in earlier years might have 
received a one category lower designation.
                                 theory
    Despite what many in the atmospheric modeling community may 
believe, there is no physical basis for assuming that global tropical 
cyclone intensity or frequency is necessarily related to global 
temperature. As the ocean surface warms, so does the upper air to 
maintain conditionally unstable lapse-rates and global rainfall rates 
at their required values. Although there has been a general warming of 
the globe and an increase of SSTs in recent decades, observations do 
not show increases in tropical cyclone frequency or intensity.
 variation in major hurricane numbers during recent decades of global 
                                warming
    The NOAA reanalysis of global mean temperature difference over the 
last two 10-year periods have shown that the mean annual global surface 
temperature has risen 0.39 degree C from the 10-year periods of 1985-
1994 to 1995-2004. This is a substantial increase in global temperature 
(rate of 3.9 per century). Table 1 shows the number of measured major 
hurricanes around the globe (excluding the Atlantic). Major hurricanes 
have not gone up in the more recent 10-year period when SSTAs have 
warmed considerably.

[GRAPHIC] [TIFF OMITTED] 38918.006


    The Atlantic has seen a very large increase in major hurricanes 
during the last 10-year period in comparison to the previous 10-year 
period (38 between 1995-2004 vs. 11 during 1985-1994). The large last 
decade increase is a result of multi-decadal fluctuations in the 
Atlantic Ocean thermohaline circulation (THC). Changes in salinity are 
believed to be the driving mechanism. These multi-decadal changes have 
also been termed the Atlantic Multi-Decadal Oscillation (AMO). Even 
when the large increase in Atlantic major hurricane activity is added 
to the non-Atlantic global total of major hurricanes, there is no 
significant global difference (208 vs. 218) in the numbers of major 
hurricanes between the two periods.
  comparison of atlantic hurricane activity between the last 15-year 
 active period (1990-2004) with the activity during the active 15-year 
                          period of 1950-1964.
    There have been hurricane periods in the Atlantic in the past which 
have been just as active as the current period. A comparison of the 
last 15 years of hurricane activity with an earlier 15-year period from 
1950-64 shows no significant difference in the more intense major 
hurricanes (Table 2). Note that there has actually been a slight 
decrease in major hurricane numbers in the most recent 15 years. The 
number of weak tropical Named Storms (NS) rose by over 50 percent, 
however. This is a reflection of the availability of the satellite in 
the later period. It would not have been possible that a hurricane, 
particularly a major hurricane, escaped detection in the earlier 
period. But many weaker systems far out in the Atlantic undoubtedly 
went undetected before satellite observations.

[GRAPHIC] [TIFF OMITTED] 38918.007


   change in intensity measurement technology of the northwest (nw) 
          pacific and comparison of earlier and later periods
    This most active of the tropical cyclone basins had aircraft 
reconnaissance flights during the period 1945-1986 but has not had 
aircraft reconnaissance since. The satellite has been the only tool to 
track NW Pacific typhoons since 1987.
    There was an anomaly in the measurement of typhoon intensity in the 
14-year period of 1973-1986 when the Atkinson-Holliday (1977) technique 
for typhoon maximum wind and minimum sea-level pressure (MSLP) was 
used. This technique is now known to have significantly underestimated 
the maximum winds of the typhoons in comparison with their central 
pressures. This has been verified by a combination of satellite-
aircraft data from the Atlantic and pre-1973 NW Pacific aircraft-
measured wind and MSLP. Table 3 shows the official average of the 
annual number of super typhoons in the West Pacific (equivalent to the 
number of category 3-4-5 or major hurricanes of the Atlantic). Note 
that between 1950-1972 and over the last 18 years, this number of 
super-typhoons has averaged about five per year while during the 
Atkinson-Holliday period of 1973-1986 it was less than half this 
number. Weaker storm numbers during the 1973-1986 period were the same. 
If we disregard this anomalous 1973-1986 period and compare annual 
frequency of super-typhoon activity between 1950-1972 versus 1987-2004 
we see little difference despite the recent global warming trend.
[GRAPHIC] [TIFF OMITTED] 38918.008


                            what others say
    I fully subscribe to the view expressed by Max Mayfield, Director 
of the NOAA National Hurricane Center when he stated last week before 
the Senate Committee of Commerce, Science and Transportation Sub-
Committee:
    ``We believe this heightened period of hurricane activity will 
continue due to multi-decadal variance, as tropical cyclone activity in 
the Atlantic is cyclical. The 1940s through the 1960s experienced an 
above average number of hurricanes, while the 1970s into the mid-1990s 
averaged fewer hurricanes. The current period of heightened activity 
could last another 10-20 years. The increased activity since 1995 is 
due to natural fluctuations/cycles of hurricane activity, driven by the 
Atlantic Ocean itself along with the atmosphere above it and not 
enhanced substantially by global warming. The natural cycles are quite 
large with an average 3-4 major hurricanes a year in active periods and 
only about 1-2 major hurricanes annually during quiet periods, with 
each period lasting 25-40 years''.
    I also subscribe to the views expressed in the new paper titled 
``Hurricanes and Global Warming'' which will soon be published in the 
Bulletin of the American Meteorological Society. This paper is authored 
by [Roger Pielke, Jr., Director, Center for Science and Technology, 
University of Colorado; Christopher Landsea, Director of Research, NOAA 
National Hurricane Center, Miami, FL; Max Mayfield, Director, National 
Hurricane Center, Miami, FL; James Laver, Director, NOAA National 
Climate Center, Washington, DC; and Richard Pasch, Hurricane 
Specialist, NOAA National Hurricane Center, Miami, FL] and makes the 
following statements:
    ``Since 1995 there has been an increase in frequency and in 
particular the intensity of hurricanes in the Atlantic. But the changes 
of the past decade are not so large as to clearly indicate that 
anything is going on other than the multi-decadal variability that has 
been well documented since at least 1900 (Gray et al. 1997; Landsea et 
al. 1999; Goldenberg et al. 2001)'' and ``Globally there has been no 
increase in tropical cyclone frequency over at least the past several 
decades (Lander and Guard 1998, Elsner and Kocher 2000). In addition to 
a lack of theory for future changes in storm frequencies, the few 
global modeling results are contradictory (Henderson-Sellers et al. 
1998; IPCC 2001)"
                                summary
    Analysis of global tropical cyclone activity of all intensities 
does not support the hypothesis that there has been a significant 
increase in tropical cyclone frequency-intensity associated with global 
temperature rise.
                               references
    Atkinson, G.D. and C.R. Holliday, 1977: Tropical cyclone minimum 
sea level pressure/maximum sustained wind relationship for the western 
North Pacific. Mon. Wea. Rev., 105, 421-427.
    Elsner, J.B and B. Kocher, 2000: Global tropical cyclone activity: 
A link to the North Atlantic Oscillation. Geophysical Research Letters, 
27, 129-132.
    Goldenberg, S.B., C.W. Landsea, A.M. Mestas-Nunez and W.M. Gray, 
2001: The recent increase in Atlantic hurricane activity: Causes and 
implications. Science, 293, 474-479.
    Gray, W.M., J.D. Sheaffer and C.W. Landsea, 1997: Climate trends 
associated with multidecadal variability of Atlantic hurricane 
activity. ``Hurricanes: Climate and Socioeconomic Impacts.'' H.F. Diaz 
and R.S. Pulwarty, Eds., Springer-Verlag, New York, 15-53.
    Henderson-Sellers, A., H. Zhang, G. Berz, K. Emanuel, W. Gray, C. 
Landsea, G. Holland, J. Lighthill, S-L. Shieh, P. Webster and K. 
McGuffie, 1998: Tropical cyclones and global climate change: a post-
IPCC assessment. Bulletin of the American Meteorological Society, 79, 
9-38.
    Lander, M.A. and C.P. Guard, 1998: A look at global tropical 
cyclone activity during 1995: Contrasting high Atlantic activity with 
low activity in other basins. Mon. Wea. Rev., 126, 1163-1173.
    Landsea, C.W., R.A., Pielke, Jr., A.M. Mestas-Nunez and J.A. Knaff, 
1999: Atlantic basin hurricanes: Indices of climate changes. Climate 
Change, 42, 89-129.
                                 ______
                                 
         Responses of William Gray to Addtional Questions from 
                             Senator Inhofe
    Question 1. Is there any other information you wish to add?
    Response. Yes, my below discussion and interpretation of how we 
should interpret the very active U.S. hurricane landfall years of 2004-
2005 and their potential relationship to global warming. It is very 
important that we not read more into these years than is there. 
Although 2004 and 2005 had a rare combination of very intense hurricane 
activity accompanied by westward steering currents, it is not outside 
the realm of natural variations.
    The recent U.S. landfall of major hurricanes Dennis, Katrina, Rita 
and Wilma and the four landfalling hurricanes of last year (Charley, 
Frances, Ivan and Jeanne) have raised questions about the possible role 
that global warming played in the last two unusually destructive 
seasons.
    The global warming arguments have been given much attention by many 
media and blog citations to recent papers claiming to show such a 
linkage. Observations my colleagues and I have gathered do not 
observationally or theoretically support this contention. Despite the 
global warming of the sea surface of about 0.3oC that has taken place 
over the last 3 decades, the global number of hurricanes and major 
hurricanes (Category 3-4-5) have not shown increases in recent years 
except for the Atlantic.
    The Atlantic basin has seen a very large increase in major 
hurricanes during the last 11-year period of 1995-2005 (average 4.0 per 
year) in comparison to the prior 25-year period of 1970-1994 (average 
1.5 per year). This large increase in Atlantic major hurricanes is 
primarily a result of the strengthening of the Atlantic Ocean 
thermohaline circulation (THC) that is not directly related to global 
temperature increase. Changes in ocean salinity are believed to be the 
driving mechanism. These multi-decadal changes have also been termed 
the Atlantic Multi-Decadal Oscillation (AMO).
    There have been similar past periods (the later part of the 19th 
century and 1940s-1960s, for example) when the Atlantic had similar 
activity to that observed in recent years. For instance, when we 
compare Atlantic basin hurricane numbers of the last 15 years with an 
earlier 15-year period (1950-64), we see little difference in hurricane 
frequency or intensity even though global surface temperatures were 
cooler. Also, there was a general global cooling during 1950-64 as 
compared with global warming during 1990-2004.
    We should interpret the last two years of unusually large numbers 
of US landfalling hurricanes as low probability events but within the 
realm of natural variations. During 1966-2003, U.S. hurricane landfall 
numbers were substantially below the long-term average. In the last two 
seasons, they have been much above the long-term average. Although the 
2004 and 2005 hurricane seasons have had an unusually high number of 
major landfall events, the overall Atlantic basin hurricane activity 
has not been much more active than other recent hurricane seasons such 
as 1995, 1996, 1998, 1999, and 2003 have been. What has made the 2004-
2005 seasons so unusually destructive is the higher percentage of major 
hurricanes which have moved over the US coastline. These landfall 
events were not primarily a function of the overall Atlantic basin net 
major hurricane numbers, but rather of the strong westerly broad-scale 
Atlantic upper-air steering currents which were present the last two 
seasons. It was these westerly steering currents which caused so many 
of the major hurricanes which formed to come ashore.
    It is rare to have such a strong simultaneous combination of high 
amounts of major hurricane activity together with especially favorable 
western Atlantic steering flow currents. Historical records and laws of 
statistics indicate that the probability of seeing another two 
consecutive hurricane season like 2004-2005 is very low. Even though we 
expect to see the current active period of Atlantic major hurricane 
activity to continue for another 15-20 years, it is statistically 
unlikely that the coming 2006 and 2007 hurricane seasons, or the 
seasons which follow these will have nearly the number of major 
hurricane U.S. landfall events that we have seen in 2004-2005.
    Question 2. In your written testimony, you say it is ``unfortunate 
that most of the resources for climate research come from the Federal 
Government.'' Is it your view that the Federal Government should not be 
funding climate research at all, or just that it should not be 
supporting certain areas of investigation?
    Response. I am in favor of the Federal Government funding climate 
research because so many aspects of needed climate research will not be 
supported by the private industry of research foundations. A problem of 
bias occurs when top government officials desire to obtain a particular 
scientific outcome evidence of (human-induced global warming, for 
instance, by the Clinton/Gore Administration) when overall climate 
resources are limited. They try to concentrate funding in the areas 
they think will produce results verifying their views. They become 
reluctant to support other needed research or research which may come 
up with results of opposite persuasion. Those who disagree with the 
Government's position get typecast as anti-administration and are often 
cut-off from research support. I believe this has happened to me (see 
my answer to questions No. 3 and No. 15). The Government's funding of 
science should be objective and removed from a desired result.
    Question 3. So the Committee has a clear understanding, what 
percentage of your work is federally funded versus funding by non-
federal sources? Please include an estimate of your total level of 
research funding.
    Response. Up until this fall, I have had two sources of funding for 
my project's research.
    a. The Federal Government -- NSF ( $110k/year). This funding 
terminates 30 November 2005. I have a new 2-year proposal which I hope 
will be renewed in December 2005 at an increased funding level of 
$160k/year. This is the only federal funding support I receive. I have 
not been able to obtain NOAA, FEMA, ONR or NASA support.
    b. Lexington Insurance ($50k/year). I hope to increase this to 
$100k/year starting this fall. This is the only private support I 
receive.
    My total grant support, up until this fall, has thus been $160k/
year. With Colorado State University overhead taken out, I barely have 
$100k/year to actually spend on project research. I have stopped taking 
a CSU salary. Two years ago I made a personal contribution of $45k in 
order to keep my few support staff employed, some at a reduced part-
time level. See the answer to question No. 15 for more background 
information.
    Question 4. Your written testimony states that federally funded 
climate research is tainted by a ``political position.'' I think it is 
fair to say that this Administration has a different political view 
than the previous Administration with respect to the need for federal 
or multilateral action to address climate change. Have you noticed any 
change in the amount or availability of funds for those researchers 
that have differing viewpoints on climate change under this 
Administration?
    Response. I applaud the new outlook on this topic by the Bush 
Administration. But down at my grass-roots research level, I have not 
observed any real changes. The federal administrators who hand out the 
grants are at lower administration levels and are mostly the same 
people who were in place during the prior Clinton/Gore Administration. 
They still have the same pro-human induced global warming and pro-
numerical modeling biases. They are not about to discontinue federal 
support to those they have been supporting for years. As far as I have 
observed, life goes on just about the same down in the research 
trenches. The big government weather labs (GFDL, GISS, NACA, Livermore, 
etc.) seem to me to be impervious as to what the president and his 
higher level advisors may believe and mandate to the lower echelons.
    Question 5.  Have you ever received any grants from any agencies 
under this Committee's jurisdiction, such as the US EPA or the Fish and 
Wildlife Service? Or have you done any work for the Army Corps of 
Engineers?
    Response. No -- I have never had support from any of these 
agencies.
    Question 6.  Is it, in your view, only federally funded climate 
science that seeks to obtain results that fit with a particular policy 
outcome? Are you saying that, for researchers, the conduct of 
foundation-funded or industry-funded science is less restrictive and 
does not contain any presumption of outcome?
    Response. I can only judge the category of federal support for 
human-induced global warming as being directed to obtain a desired 
outcome. I am sure other federally- supported research disciplines have 
this same problem to some extent, but I judge it to not be as blatant 
as with the human-induced global warming funding that VP Gore and his 
appointees were pushing.
    I am sure foundation-funded and industry-funded research is often 
rendered to obtain a desired outcome. But these outcomes usually have 
much less impact on the global economy and the change of lifestyles of 
humanity as does the global warming debate. We need to have some 
Federal research resources specifically directed to uncovering the 
technical and other problems associated with the human-induced global 
warming hypothesis. We need to determine how much of the recent global 
warming trend is due to natural variability. If ever there was a topic 
which needed researchers to play the `Devil's Advocate' it has to be 
human-induced global warming.
    Question 7.  You express concern in your written testimony that you 
have never been asked to contribute, participate or review in any 
report by the Intergovernmental Panel on Climate Change. Though you say 
you haven't ever been asked, have you ever sought a nomination by the 
U.S. Federal Government to serve on the IPCC? Do you work with the NOAA 
lab in Boulder, CO that serves as the IPCC Working group I support 
unit, which is the IPCC working group that is specifically tasked to 
assess the scientific aspects of the climate system and climate change?
    Response. I am well-known in the atmospheric science field. Had 
they wanted my input, I am sure the organization would have solicited 
me as they have solicited the services of some of my former students. I 
did not feel that it was my responsibility to force myself on them. I 
know many of the NOAA Lab (Boulder) scientists and have had profitable 
exchanges with many of them over the years. Four years ago I gave a 
formal seminar on my views on global warming to a large audience at the 
NOAA lab. There is very little research on hurricanes conducted at the 
NOAA Boulder lab.
    Question 8.  Is it a correct assumption, in reading your testimony 
that though you dispute projections about the magnitude of human 
induced climate change, you do believe in a background or natural 
greenhouse effect? Do you believe there is any human contribution to 
climate change?
    Response. There is a natural greenhouse effect. The primary driver 
of the natural greenhouse effect is water vapor. The globe would be 
much colder (about 33 C colder) than it is if it were not for water 
vapor acting as a greenhouse gas.
    I believe that there are likely a lot of human-induced changes 
brought on by differing land use, industrial pollution, urban heat 
island effects, contrails, etc. I believe all of these human influences 
are present, but their influence cannot be isolated from a global 
temperature change perspective. None of these human influences is 
strong enough, in my view, to bring about anything close to the amounts 
of global warming of 2-5 C as projected by the GCMs for a doubling of 
CO<INF>2</INF>.
    Yes, I believe in human induced greenhouse gas warming but of a 
much smaller magnitude ( .K 0.3 C for a doubling of CO<INF>2</INF>). 
This magnitude is not sufficient to justify a forced alteration of 
global industry and global lifestyles as the pro-warming advocates 
recommend.
    Question 9.  In your written testimony, you say that developed 
country governments should not take actions to combat climate change, 
which you argue would possibly be very costly for governments to 
implement. You further say that developed country governments should 
take no action on climate change if only for reason that the dollars 
that should be spent on researching alternatives to fossil fuel. If 
human induced climate change is not causing climate change, what would 
you cite as the justification for researching fossil fuel alternatives?
    Response. Fossil fuels cause local pollution which can considerably 
reduce air quality. Most environmental problems are local. Non-
polluting energy sources are, of course, highly desirable if they are 
not economically prohibitive. The difference between having clean 
energy sources or not will make little difference in global surface 
temperature, however.
    Question 10.  Over the last few weeks it seems that the controversy 
over hurricanes and global warming exists because different scientists 
have different views as to what future research will reveal, and they 
have been outspoken in advancing these opinions. It seems clear that 
you expect future research to reveal no discernible connection between 
hurricanes and global warming. By contrast, others believe that a 
connection will be found. Future research will help to clarify this 
dispute. Is it the case that the two papers about which you have 
concerns, the Emanuel and Webster papers referred to in your testimony, 
are the current peer reviewed research on this topic?
    Response. The Emanuel and Webster et al. papers I referred to were 
peer reviewed but they are just plain wrong in saying that there has 
been a thirty year increase in global intense hurricane activity and 
that this increase may be associated with global mean surface 
temperature rise. The peer reviewers apparently did not have the 
background or knowledge to properly review these papers.
    Increased hurricane activity has occurred only in the Atlantic and 
only during the last 11 years. The Atlantic increases have resulted 
from the large increase in strength of the Atlantic Ocean thermohaline 
circulation that has occurred since 1995. Atlantic changes are not 
related to overall global surface temperature change.
    I have written Letters to the Editors of Nature (Emanuel paper) and 
Science (Webster et al. paper) showing how their interpretations of the 
trend in global hurricane activity is not correct. The longer versions 
of these reviews are available on my website 
(tropical.atmos.colostate.edu). I have also e-mailed copies of these 
reviews to John Shanahan. I recommend their reading for anyone 
interested in the topic of global warming's influence on global 
hurricane activity and why the United States hurricane seasons of 2004-
2005 have been so destructive.
    The authors of these two papers have little recent experience in 
global tropical cyclone data sets. They were naive to believe their 
results.
    Question 11.  Is it also the case that research has not been 
conducted that would allow for a definitive conclusion on these 
different opinions on hurricanes and global warming?
    Response. I would recommend other research be performed on this 
topic but not by those with a bias toward global warming. A question 
exists of what magnitude of global warming will influence hurricanes. 
Does a warming of less than 0.5 C constitute global warming or is this 
just noise within the climate system? The observations of global 
warming and hurricanes that we have seen do not indicate a 
relationship.
    Question 12.  You suggest in your written testimony, that you may 
have something in the publication pipeline on the link between 
hurricane and warming. Will this be in the form of a new communication 
with the editors of Nature and Science, or are you conducting a new 
study?
    Response. Yes, I have already sent out letters to Nature and 
Science discussing the many problems of accepting the research put 
forth in the Emanuel and Webster et al. papers. I hope to send a paper 
to Science in the next month or two concerning how we should interpret 
the very active 2004-2005 United States landfall hurricane seasons.
    Question 13.  Do you know if there will be any peer-reviewed 
scientific studies available by the end of 2005, and thus available for 
the next IPCC report, that clarify the issue of attribution of 
greenhouse gas effects on hurricanes?
    Response. I do not know of any 'reliable' peer-reviewed studies 
that will be published by the end of 2005. I think that my answer to 
question No. 1 and my reviews of the Emanuel and Webster et al. papers 
is the best information available on this topic. I doubt that the IPCC 
report will take much notice of my or other views to the contrary. My 
extended range prediction for what the next IPCC report will say is as 
follows: ``The weight of evidence suggests that there is a discernable 
association between global surface temperature increases and the 
increase of global tropical cyclone activity.'' Somehow, they will find 
and twist data that will lend support to this conclusion.
    Question 14.  In your written testimony, you review the 
correlations between the occurrences of hurricanes in the Atlantic 
during a 20-year period when THC was strong versus when the THC was 
weak. You state that Atlantic THC was partially responsible for the 
difference in the numbers of hurricanes that make landfall. You also 
say in your written testimony that ``luck'' played a role. How often, 
in your estimation, was hurricane landfall in the Atlantic during the 
20-year period you examined associated with strong THC versus just 
plain luck?
    Response. It is hard to make the THC versus luck distinction. This 
has a lot to do with the westerly Atlantic upper-air steering currents 
that cause hurricanes to move as they do. It is possible to have very 
active hurricane seasons with no landfalls if the steering currents are 
not favorable, and the opposite--few storms, but many come ashore if 
the steering currents are just right.
    Luck plays a greater role on the short-time scale. On longer 
timescales, multi-decadal periodicity is more dominant. For instance, 
in the 25 years between 1970-1994 when the Atlantic ocean thermohaline 
circulation (THC) was weak, there were 12 United States landfalling 
major hurricanes ( .48/year). In the last 11 years (1995-2005) when 
the THC was strong, there were 10 landfalling major hurricanes ( .96/
year) -- twice as many. This difference was not luck but due to natural 
fluctuations in Atlantic hurricane activity.
    Let us now break up the last 11 years into two groups; 1) 1995-
2003--9 years with only 3 of 32 (9 percent) major hurricanes making 
United States landfall or .33/year, and 2) 2004-2005--2 years with 7 of 
13 (54 percent) major hurricanes making United States landfall or 3.5/
year (10 times the number of the earlier period). This difference might 
be explained to a large extent as luck. With a strong THC the years of 
1995-2003 should have had, by normal climate standards, eight 
landfalling major hurricanes but they only had three. These were lucky 
years. But in the last 2 years (2004-2005) we have had 7 landfalling 
major hurricanes. These were very unlucky years.
    Question 15.  You testified ``scientists can be punished if they do 
not accept the current views of the funding agents.'' Have you 
experienced such actions? If so, please explain by whom and the 
circumstances.
    Response. Yes, I think I was not funded by the NOAA-OGP (Office of 
Global Programs) in part because of my views on human-induced global 
warming, and also the fact that I was working on climate features 
(seasonal hurricane variability) that were not then of OGP interest. 
Also, I was not performing numerical modeling research.
    I had received NOAA funding for nearly 30 years until 1990 (my last 
grant). I could not obtain any OGP funding after the Clinton/Gore 
Administration began. I submitted about 1-2 proposals per year for 
about 8 years (1992-2000) and was turned down on all of them (13 turn-
downs in a row). Yet, my students and I were performing research on 
climate influences on Atlantic hurricanes and how we were likely to see 
large increases in United States landfalling hurricanes when the 
Atlantic thermohaline circulation (THC) changed to a stronger mode. 
This has come to pass.
    I have also been issuing 2-4 seasonal forecasts per year for 
Atlantic hurricane activity over the last 22 years. The forecasts have 
received extensive media coverage and been well received by the public, 
emergency managers, the Red Cross, etc. I am almost a household name in 
some hurricane-prone areas like Florida and along the Gulf Coast. Yet 
none of this made a difference to NOAA-OGP. I made many protests to 
higher NOAA officials above OGP but to no avail.
    I have given nearly 50 years of my life to studying hurricanes (and 
have turned out a high percentage of the best graduate students in 
hurricanes and tropical meteorology). Yet I was continually turned down 
by OGP on small $60k/year and $75k/year grants for over 9 years. What 
was I to think? My best estimate of what happened is as follows: VP 
Gore appointed the directors of NOAA-OGP and they (I believe) followed 
his dictates. There was little new OGP money for climate research when 
the Clinton/Gore administration came in. Gore wanted new money to 
support his global warming claims. He directed his new department heads 
to cut out some existing programs to free up new global warming-
directed research funds. Hurricanes, at this time, were not considered 
important. I was consequently required to turn down a number of very 
promising graduate students that wanted to study hurricanes and also 
reduce my staff.
    Question 16.  You testified that there has been a substantial 
increase in global temperatures and sea surface temperatures. Please 
explain why you are convinced that this rise in temperatures will not 
result in a greater frequency and intensity of storms?
    Response. By substantial increase, I meant that global mean surface 
temperatures averaged 0.4 C higher during the 10 years of 1995-2004 in 
comparison with the 10 years of 1985-1994. The sea surface temperature 
(SST) increases in the oceans where tropical cyclones formed went up 
only about half as much ( 0.2 C) during these two 10-year periods.
    I would say that sea surface temperature rise has not caused 
tropical cyclone frequency-intensity to rise because the global 
tropical cyclone data sets do not show a rise (except for the Atlantic) 
during this period. We have no theory as to why global hurricane 
activity should go up with a small increase in sea surface temperature.
    There is no physical basis for assuming that global hurricane 
intensity or frequency is necessarily related to global mean surface 
temperature changes of less than plus or minus 0.5 C. As the ocean 
surface warms, so too does global upper air temperatures to maintain 
conditionally unstable lapse-rates and global rainfall rates at their 
required values. Seasonal and monthly variations of sea surface 
temperature (SST) within individual storm basins show only very low 
correlations ( 0.30) with monthly, seasonal, and yearly variations of 
hurricane activity. Other factors such as tropospheric vertical wind 
shear, surface pressure, low level vorticity and mid-level moisture 
play more dominant roles in explaining hurricane variability than do 
surface temperatures. According to the observations, there has not been 
a significant increase in global major tropical cyclones except for the 
Atlantic which as discussed, has multi-decadal oscillations driven 
primarily by changes in Atlantic salinity. No credible observational 
evidence is available or likely will be available in the next few 
decades which will be able to directly associate global surface 
temperature change to changes in global hurricane frequency and 
intensity.
    Question 17.  Table 2 in your written testimony shows an increase 
in the number of Category 4-5 hurricanes, net hurricanes, thunderstorms 
and named storms in 1990-2004 as compared with 1950-64. You attribute 
the increase in hurricanes to the availability of satellites in the 
later period. How do you explain the very large increase in tropical 
storms (56 percent increase in later years)?
    Response. I do not attribute the increase of Category 1-2 or major 
(Category 3-4-5) hurricanes to satellites. In fact, this table shows no 
increase between 1950-1964 and 1990-2004. The only significant increase 
occurred in tropical storms (Vmax 40-75 mph). This is due to the large 
number of storms being named in the mid-Atlantic in recent years. 
During the pre-satellite era, these storms may not have been observed. 
The 21 named storms of 1933 would have likely been 2-5 storms higher 
had satellite data been available at that time.
                                 ______
                                 
Statement of Donald R. Roberts, Ph.D., Professor, Division of Tropical 
   Public Health, Department of Preventive Medicine and Biometrics, 
 Uniformed Services University of the Health Sciences, Bethesda, MD\1\
---------------------------------------------------------------------------
    \1\ Observations presented here are the opinions of the author and 
should not be interpreted as reflecting the views or opinions of the 
Uniformed Services University of the Health Sciences, the Department of 
Defense, or the United States Government.
---------------------------------------------------------------------------
    Thank you, Chairman Inhofe, and distinguished members of the 
committee on Environment and Public Works for the opportunity to 
present my views on the misuse of science in public policy. My 
testimony focuses on misrepresentations of science during decades of 
environmental campaigning against DDT
    Before discussing how and why DDT science has been misrepresented, 
you first must understand why this misrepresentation has not helped, 
but rather harmed, millions of people every year all over the world. 
Specifically you need to understand why the misrepresentation of DDT 
science has been and continues to be deadly. By way of explanation, I 
will tell you something of my experience.
    I conducted malaria research in the Amazon Basin in the 1970s. My 
Brazilian colleague who is now the Secretary of Health for Amazonas 
State and I worked out of Manaus, the capitol of Amazonas State. From 
Manaus we traveled two days to a study site where we had sufficient 
numbers of cases for epidemiological studies. There were no cases in 
Manaus, or anywhere near Manaus. For years before my time there and for 
years thereafter, there were essentially no cases of malaria in Manaus. 
However in the late 1980s, environmentalists and international 
guidelines forced Brazilians to reduce and then stop spraying small 
amounts of DDT inside houses for malaria control. As a result, in 2002 
and 2003 there were over 100,000 malaria cases in Manaus alone.\2\
---------------------------------------------------------------------------
    \2\ Boletim Scientifico FMTAM-Abril/Jun-2004
---------------------------------------------------------------------------
    Brazil does not stand as the single example of this phenomenon. A 
similar pattern of declining use of DDT and reemerging malaria occurs 
in other countries as well, Peru\3\ for example. Similar resurgences of 
malaria have occurred in rural communities, villages, towns, cities, 
and countries around the world. As illustrated by the return of malaria 
in Russia, South Korea, urban areas of the Amazon Basin, and increasing 
frequencies of outbreaks in the United States, our malaria problems are 
growing worse. Today there are 1 to 2 million malaria deaths each year 
and hundreds of millions of cases. The poorest of the world's people 
are at greatest risk. Of these, children and pregnant women are the 
ones most likely to die.
---------------------------------------------------------------------------
    \3\ Guarda, Asayag, Witzig. 1999. Malaria reemergence in the 
Peruvian Amazon Region. Emerg Infectious Diseases. 5(2) at www://
cdc.gov/ncidod/eid/vol5no2/arambG.htm#fig2
---------------------------------------------------------------------------
    We have long known about DDT's effectiveness in curbing insect 
borne disease. Othmar Zeidler, a German chemistry student, first 
synthesized DDT in 1874. Over sixty years later in Switzerland, Paul 
Muller discovered the insecticidal property of DDT.\4\ Allied forces 
used DDT during WWII, and the new insecticide gained fame in 1943 by 
successfully stopping an epidemic of typhus in Naples, an unprecedented 
achievement.\5\ By the end of the war, British, Italian, and American 
scientists had also demonstrated the effectiveness of DDT in 
controlling malaria-carrying mosquitoes. DDT's proven efficacy against 
insect-borne diseases, diseases that had long reigned unchecked 
throughout the world, won Muller the Nobel Prize for Medicine in 1948.
---------------------------------------------------------------------------
    \4\ http://www.cdc.gov/malaria/history/
    \5\ http://homepage.mac.com/msb/163x/faqs/typhus.html
---------------------------------------------------------------------------
    After WWII, the United States conducted a National Malaria 
Eradication Program, commencing operations on July 1, 1947. The 
spraying of DDT on internal walls of rural homes in malaria endemic 
counties was a key component of the program. By the end of 1949, the 
program had sprayed over 4,650,000 houses. This spraying broke the 
cycle of malaria transmission, and in 1949 the United States was 
declared free of malaria as a significant public health problem.\6\
---------------------------------------------------------------------------
    \6\http://www.cdc.gov/malaria/history/
---------------------------------------------------------------------------
    Other countries had already adopted DDT to eradicate or control 
malaria, because wherever malaria control programs sprayed DDT on house 
walls, the malaria rates dropped precipitously. The effectiveness of 
DDT stimulated some countries to create, for the first time, a national 
malaria control program. Countries with pre-existing programs expanded 
them to accommodate the spraying of houses in rural areas with DDT. 
Those program expansions highlight what DDT offered then, and still 
offers now, to the malaria endemic countries. As a 1945 U.S. Public 
Health Service manual explained about the control of malaria:

          ``Drainage and larviciding are the methods of choice in towns 
        of 2,500 or more people. But malaria is a rural disease. 
        Heretofore there has been no economically feasible method of 
        carrying malaria control to the individual tenant farmer or 
        sharecropper. Now, for the first time, a method is available 
        the application of DDT residual spray to walls and ceilings of 
        homes.''

    Health workers in the United States were not the only ones to 
recognize the particular value of DDT. The head of malaria control in 
Brazil characterized the changes that DDT offered in the following 
statement:

          ``Until 1945-1946, preventive methods employed against 
        malaria in Brazil, as in the rest of the world, were generally 
        directed against the aquatic phases of the vectors (draining, 
        larvicides, destruction of bromeliads, etc.). These methods, 
        however, were only applied in the principal cities of each 
        State and the only measure available for rural populations 
        exposed to malaria was free distribution of specific 
        drugs.''\7\
---------------------------------------------------------------------------
    \7\ U.S. Public Health Service. 1944-45. Malaria control in war 
areas. Federal Security Agency U.S. Public Health Service. 134pp

    DDT was a new, effective, and exciting weapon in the battle against 
malaria. It was cheap, easy to apply, long-lasting once sprayed on 
house walls, and safe for humans. Wherever and whenever malaria control 
programs sprayed it on house walls, they achieved rapid and large 
reductions in malaria rates.
    Just as there was a rush to quickly make use of DDT to control 
disease, there was also a rush to judge how DDT actually functioned to 
control malaria. That rush to judgment turned out to be a disaster. At 
the heart of the debate to the extent there was a debate was a broadly 
accepted model\8\ that established a mathematical framework for using 
DDT to kill mosquitoes and eradicate malaria. Instead of studying real 
data to see how DDT actually worked in controlling malaria, some 
scientists settled upon what they thought was a logical conclusion: DDT 
worked solely by killing mosquitoes. This conclusion was based on their 
belief in the model. Scientists who showed that DDT did not function by 
killing mosquitoes were ignored. Broad acceptance of the mathematical 
model led to strong convictions about DDT's toxic actions.\9\ Since 
they were convinced that DDT worked only by killing mosquitoes, malaria 
control specialists became very alarmed when a mosquito was reported to 
be resistant to DDT's toxic actions.\10\ As a result of concern about 
DDT resistance, officials decided to make rapid use of DDT before 
problems of resistance could eliminate their option to use DDT to 
eradicate malaria. This decision led to creation of the global malaria 
eradication program.
---------------------------------------------------------------------------
    \8\ The first direct studies on DDT as a repellent were conducted 
in the mid-1940s and published in 1947. However, also there were many 
field studies during the same timeframe that supported the idea that 
DDT was functioning as a spatial repellent to keep mosquitoes from 
entering houses and transmitting malaria. Kennedy, J., The excitant and 
repellent effects of mosquitoes of sub-lethal contacts with DDT. 
Bulletin of Entomological Research, 1947. 37: p. 593-607.
    \9\ Macdonald, G. and G. Davidson, Dose and cycle of insecticide 
application in the control of malaria. Bulleting of the World Health 
Organization, 1953. 9: p. 785-812
    \10\ ``Resistance to the DDT deposits sprayed on house walls for 
malaria control was first discovered in 1951, in Anopheles sacharovi at 
Nauplion in the Peloponnese peninsula of Greece, a locality where DDT 
had been applied to rice fields since 1946.'' From Laird, M, Miles, JW. 
Ed. 1983. Integrated mosquito control methodologies, vol. 1. Academic 
Press, N.Y. page 188 of 369 pages.
---------------------------------------------------------------------------
    The active years of the global malaria eradication program were 
from 1959 to 1969. Before, during, and after the many years of this 
program, malaria workers and researchers carried out their 
responsibilities to conduct studies and report their research. Through 
those studies, they commonly found that DDT was functioning in ways 
other than by killing mosquitoes. In essence, they found that DDT was 
functioning through mechanisms of repellency and irritancy. Eventually, 
as people forgot early observations of DDT's repellent actions, some 
erroneously interpreted new findings of repellent actions as the 
mosquitoes' adaptation to avoid DDT toxicity, even coining a term, 
``behavioral resistance,'' to explain what they saw. This new term 
accommodated their view that toxicity was DDT's primary mode of action 
and categorized behavioral responses of mosquitoes as mere adaptations 
to toxic affects. However this interpretation depended upon a highly 
selective use of scientific data.
    The truth is that toxicity is not DDT's primary mode of action when 
sprayed on house walls. Throughout the history of DDT use in malaria 
control programs there has always been clear and persuasive data that 
DDT functioned primarily as a spatial repellent.\11\ Today we know that 
there is no insecticide recommended for malaria control that rivals, 
much less equals, DDT's spatial repellent actions, or that is as long-
acting, as cheap, as easy to apply, as safe for human exposure, or as 
efficacious in the control of malaria as DDT. Attached as Annex 1 is a 
more technical explanation of how DDT functions to control Malaria.
---------------------------------------------------------------------------
    \11\ I am including this testimony, as Annex 2, pages from a book 
chapter I wrote entitled ``The contextual determinants of malaria.'' 
This attachment provides a detailed explanation of the importance of 
spatial repellent actions of DDT in controlling malaria.
---------------------------------------------------------------------------
    The 30 years of data from control programs of the Americas plotted 
in Figure 1 illustrate just how effective DDT is in malaria control. 
The period 1960s through 1979 displays a pattern of malaria controlled 
through house spraying. In 1979 the World Health Organization (WHO) 
changed its strategy for malaria control, switching emphasis from 
spraying houses to case detection and treatment. In other words, the 
WHO changed emphasis from malaria prevention to malaria treatment. 
Countries complied with WHO guidelines and started to dismantle their 
spray programs over the next several years. The line graph in Figure 1 
illustrates the progress of the dismantling. As you can see, fewer and 
fewer houses were sprayed. The bar graph illustrates the cumulative 
increase in cases over the baseline of cases that occurred during years 
when adequate numbers of houses were being sprayed (1965-1979). As you 
can also see, as countries reduced numbers of houses sprayed, the 
number of malaria cases continually increased.

[GRAPHIC] [TIFF OMITTED] 38918.090


Figure 1. Impact of the World Health Organization's malaria control 
strategy in 1979 to de-emphasize indoor spraying of house walls and 
adoption of World Health Assembly resolution in 1985 to decentralize 
malaria control programs in the Americas. The x-axis is years and the 
y-axis is cumulative numbers of malaria cases above the baseline. 
Baseline is defined as the average number of malaria cases each year 
from 1965 to 1979.

    With data such as this, I find it amazing that many who oppose the 
use of DDT describe its earlier use as a failure. Our own citizens who 
suffered under the burden of malaria, especially in the rural south, 
would hardly describe it thus.
    Malaria was a serious problem in the United States and for some 
localities, such as Dunklin County, Missouri, it was a very serious 
problem indeed. For four counties in Missouri, the average malaria 
mortality from 1910 to 1914 was 168.8 per 100,000 population. For 
Dunklin County, it was 296.7 per 100,000 a rate almost equal to malaria 
deaths in Venezuela and actually greater than the mortality rate for 
Freetown, Sierra Leone. Other localities in other states were equally 
as malarious.\12\ Growing wealth and improved living conditions were 
gradually reducing malaria rates, but cases resurged during WWII. The 
advent of DDT, however, quickly eradicated malaria from the United 
States.
---------------------------------------------------------------------------
    \12\ Hoffman, F.L. 1916. A plea and a plan for the eradication of 
malaria throughout the Western Hemisphere. Read in abstract before The 
Southern Medical Association, Tenth Annual Meeting, Atlanta, Georgia, 
November 14, 1916:65pp.
---------------------------------------------------------------------------
    DDT routed malaria from many other countries as well. The Europeans 
who were freed of malaria would hardly describe its use as a failure. 
After DDT was introduced to malaria control in Sri Lanka (then Ceylon), 
the number of malaria cases fell from 2.8 million in 1946 to just 110 
in 1961. Similar spectacular decreases in malaria cases and deaths were 
seen in all the regions that began to use DDT. The newly formed 
Republic of China (Taiwan) adopted DDT use in malaria control shortly 
after World War II. In 1945 there were over 1 million cases of malaria 
on the island. By 1969 there were only 9 cases and shortly thereafter 
the disease was eradicated from the island and remains so to this 
day.\13\ Some countries were less fortunate. South Korea used DDT to 
eradicate malaria, but without house spray programs, malaria has 
returned across the demilitarized zone with North Korea. As DDT was 
eliminated and control programs reduced, malaria has returned to other 
countries such as Russia and Argentina. Small outbreaks of malaria are 
even beginning to appear more frequently in the United States.
---------------------------------------------------------------------------
    \13\ World Health Organization, (1971) Executive Board, 42nd 
Session, Appendix 14 ``The Place of DDT in Operations Against Malaria 
and Other Vector Borne Diseases'' p 177. WHO, Geneva.
---------------------------------------------------------------------------
    These observations have been offered in testimony to document first 
that there were fundamental misunderstandings about how DDT functioned 
to exert control over malaria. Second, that regardless of systematic 
misunderstandings on the part of those who had influence over malaria 
control strategies and policies, there was an enduring understanding 
that DDT was the most cost-effective compound yet discovered for 
protecting poor rural populations from insect-borne diseases like 
malaria, dengue, yellow fever, and leishmaniasis. I want to emphasize 
that misunderstanding the mode of DDT action did not lead to the 
wholesale abandonment of DDT. It took an entirely new dimension in the 
misuse of science to bring us to the current humanitarian disaster 
represented by DDT elimination.
    The misuse of science to which I refer has found fullest expression 
in the collection of movements within the environmental movement that 
seek to stop production and use of specific man-made chemicals.\14\ 
Operatives within these movements employ particular strategies to 
achieve their objectives. By characterizing and understanding the 
strategies these operatives use, we can identify their impact in the 
scientific literature or in the popular press.
---------------------------------------------------------------------------
    \14\ http://www.philotast.de/ecologism.htm
---------------------------------------------------------------------------
    The first strategy is to develop and then distribute as widely as 
possible a broad list of claims of chemical harm. This is a sound 
strategy because individual scientists can seldom rebut the scientific 
foundations of multiple and diverse claims. Scientists generally 
develop expertise in a single, narrow field and are disinclined to 
engage issues beyond their area of expertise. Even if an authoritative 
rebuttal of one claim occurs, the other claims still progress. A broad 
list of claims also allows operatives to tailor platforms for 
constituencies, advancing one set of claims with one constituency and a 
different combination for another. Clever though this technique is, a 
list of multiple claims of harm is hardly sufficient to achieve the 
objective of a ban. The second strategy then is to mount an argument 
that the chemical is not needed and propose that alternative chemicals 
or methods can be used instead. The third strategy is to predict that 
grave harm will occur if the chemical continues to be used.
    The success of Rachel Carson's Silent Spring serves as a model for 
this tricky triad. In Silent Spring, Rachel Carson used all three 
strategies on her primary target, DDT. She described a very large list 
of potential adverse effects of insecticides, DDT in particular. She 
argued that insecticides were not really needed and that the use of 
insecticides produces insects that are insecticide resistant, which 
only exacerbates the insect control problems. She predicted scary 
scenarios of severe harm with continued use of DDT and other 
insecticides. Many have written rebuttals to Rachel Carson and others 
who have, without scientific justification, broadcast long lists of 
potential harms of insecticides. One such rebuttal (see page 143) is 
attached to my testimony. It is a paper by Dr. J. Gordon Edwards 
entitled ``DDT: A case study in scientific fraud.''
    As shown in Annex 2, time and science have discredited most of 
Carson's claims.\15\ Rachel Carson's descriptions of inappropriate uses 
of insecticides that harmed wildlife are more plausible. However harm 
from an inappropriate use does not meet the requirements of anti-
pesticide activists. They can hardly lobby for eliminating a chemical 
because someone used it wrongly. No, success requires that even the 
proper use of an insecticide will cause a large and systematic adverse 
effect. However, the proper uses of DDT yield no large and systematic 
adverse effects. Absent such adverse actions, the activists must then 
rely on claims about insidious effects, particularly insidious effects 
that scientists will find difficult to prove one way or the other and 
that activists can use to predict a future catastrophe.
---------------------------------------------------------------------------
    \15\ Dr. Edwards mentions some of those claims. See page 143.
---------------------------------------------------------------------------
    Rachel Carson relied heavily on possible insidious chemical actions 
to alarm and frighten the public. Many of those who joined her campaign 
to ban DDT and other insecticides made extensive use of claims of 
insidious effects. These claims were amplified by the popular press and 
became part of the public perception about modern uses of chemicals. 
For example, four well-publicized claims about DDT were:

        1. DDT will cause the obliteration of higher tropic\16\ levels. 
        If not obliterated, populations will undergo reproductive 
        failure. Authors of this claim speculated that, even if the use 
        of DDT were stopped, systematic and ongoing obliterations would 
        still occur.\17\
---------------------------------------------------------------------------
    \16\ A tropic level can be defined by an organism's position within 
a food chain. The number of energy transfers to get to that level can 
establish the organism's position. For example, humans are at the 
highest atrophic level. As lions are at the top of their food chain , 
they are at the highest tropic level in that chain.
    \17\ Harrison, HL, Loucks, OL, Mitchell, JW, Parkhurst, DF, Tracy, 
CR, Watts, DG, Yannacone, VJ. Systems studies of DDT transport. Science 
170, 30 October 1970, 503-508.
---------------------------------------------------------------------------
        2. DDT causes the death of algae.\18\ This report led to 
        speculations that use of DDT could result in global depletion 
        of oxygen.
---------------------------------------------------------------------------
    \18\ Wurster, C, DDT reduces photosynthesis by marine 
phytoplankton. Science, 29 March 1968.
---------------------------------------------------------------------------
        3. DDT pushed the Bermuda Petrel to the verge of extinction and 
        that full extinction might happen by 1978.\19\
---------------------------------------------------------------------------
    \19\ Wurster, CF, Wingate, DB. DDT residues and declining 
reproduction in the Bermuda petrel. Science 159(818):979-81.
---------------------------------------------------------------------------
        4. DDT was a cause of premature births in California sea 
        lions.\20\

    \20\ Science 1973;181:1168-1170
---------------------------------------------------------------------------
    Science magazine, the most prestigious science journal in the 
United States, published these and other phantasmagorical allegations 
and/or predictions of DDT harm. Nonetheless, history has shown that 
each and every one of these claims and predictions were false.
    1.) The obliteration of higher tropic levels did not occur; no 
species became extinct; and levels of DDT in all living organisms 
declined precipitously after DDT was de-listed for use in agriculture. 
How could the prediction have been so wrong? Perhaps it was so wrong 
because the paper touting this view used a predictive model based on an 
assumption of no DDT degradation. This was a startling assertion even 
at the time as Science and other journals had previously published 
papers that showed DDT was ubiquitously degraded in the environment and 
in living creatures. It was even more startling that Science published 
a paper that flew so comprehensively in the face of previous data and 
analysis.
    2.) DDT's action against algae reportedly occurred at 
concentrations of 500 parts per billion. But DDT cannot reach 
concentrations in water higher than about 1.2 parts per billion, the 
saturation point of DDT in water.
    3.) Data on the Bermuda petrel did not show a cause and effect 
relationship between low numbers of birds and DDT concentrations. DDT 
had no affect on population numbers, for populations increased before 
DDT was de-listed for use in agriculture and after DDT was delisted as 
well.\21\
---------------------------------------------------------------------------
    \21\ http://www.audubon.org/local/latin/bulletin3/featured.html
---------------------------------------------------------------------------
    4.) Data gathered in subsequent years showed that ``despite 
relatively high concentrations [of DDT], no evidence that population 
growth or the health of individual California sea lions have been 
compromised. The population has increased throughout the century, 
including the period when DDT was being manufactured, used, and its 
wastes discharged off southern California.''\22\
---------------------------------------------------------------------------
    \22\ http://www.audubon.org/local/latin/bulletin3/featured.html
---------------------------------------------------------------------------
    If time and science have refuted all these catastrophic 
predictions, why do many scientists and the public not know these 
predictions were false? In part, we do not know the predictions were 
false because the refutations of such claims rarely appear in the 
literature.
    When scientists hear the kinds of claims described above, they 
initiate research to confirm or refute the claims. After Charles 
Wurster published his claim that DDT kills algae and impacts 
photosynthesis, I initiated research on planktonic algae to quantify 
DDT's effects. From 1968-1969, I spent a year of honest and demanding 
research effort to discover that not enough DDT would even go into 
solution for a measurable adverse effect on planktonic algae. In 
essence, I conducted a confirmatory study that failed to confirm an 
expected result. I had negative data, and journals rarely accept 
negative data for publication. My year was practically wasted. Without 
a doubt, hundreds of other scientists around the world have conducted 
similar studies and obtained negative results, and they too were unable 
to publish their experimental findings. Much in the environmental 
science literature during the last 20-30 years indicates that an 
enormous research effort went into proving specific insidious effects 
of DDT and other insecticides. Sadly, the true magnitude of such 
efforts will never be known because while the positive results of 
research find their way into the scientific literature, the negative 
results rarely do. Research on insidious actions that produce negative 
results all too often ends up only in laboratory and field notebooks 
and is forgotten.\23\ For this reason, I place considerable weight on a 
published confirmatory study that fails to confirm an expected result.
---------------------------------------------------------------------------
    \23\ An internationally recognized epidemiologist recently told me 
that three different journals had rejected his negative data on the 
association of DDT with human health harm.
---------------------------------------------------------------------------
    The use of the tricky triad continues. A copy of a recent paper 
(see page 150) published in The Lancet\24\ illustrates the triad's 
modern application. Two scientists at the National Institute of 
Environmental Health Sciences, Walter Rogan and Aimin Chen, wrote this 
paper, entitled ``Health risks and benefits of bis (4-chlorophenyl)-
1,1,1-trichloroethane (DDT).'' It is interesting to see how this single 
paper spins all three strategies that gained prominence in Rachel 
Carson's Silent Spring.
---------------------------------------------------------------------------
    \24\ Rogan, WJ, Chen, A. Health risks and benfits of bis (4-
chlorophenyl)-1,1,1-trichloroethane (DDT). The Lancet 366, August 27, 
2005:763-773.
---------------------------------------------------------------------------
    The journal Emerging Infectious Diseases had already published a 
slim version of this paper,\25\ which international colleagues and I 
promptly rebutted.\26\ The authors then filled in some parts, added to 
the claims of harm, and republished the paper in the British journal, 
The Lancet. To get the paper accepted by editors, the authors described 
studies that support (positive results) as well as studies that do not 
support (negative results) each claim. Complying with strategy number 1 
of the triad, Rogan and Chen produce a long list of possible harms, 
including the charge that DDT causes cancer in nonhuman primates. The 
literature reference for Rogan and Chen's claim that DDT causes cancer 
in nonhuman primates was a paper by Takayama et al.\27\ Takayama and 
coauthors actually concluded from their research on the carcinogenic 
effect of DDT in nonhuman primates that ``the two cases involving 
malignant tumors of different types are inconclusive with respect to a 
carcinogenic effect of DDT in nonhuman primates.'' Clearly, the people 
who made the link of DDT with cancer were not the scientists who 
actually conducted the research.
---------------------------------------------------------------------------
    \25\ Chen, A, Rogan, WJ. Nonmalarial infant deaths and DDT use for 
malaria control. Emerging Infectious Diseases 2003 Aug. Available from: 
URL: http://www.cdc.gov/ncidod/EID/vol9no8/03-0082.htm
    \26\ http://www.cdc.gov/ncidod/EID/vol10no6/03-0787--03-1116.htm
    \27\ Takayama, S, Sieber, SM, Dalgard, DW, Thorgeirsson, UP, 
Adamson, RH. Effects of long-term oral administration of DDT on 
nonhuman primates. J Cancer Res Clin Oncol (1999) 125: 219-225.
---------------------------------------------------------------------------
    The authors enacted strategy number two of the triad by conducting 
a superficial review of the role of DDT in malaria control with the 
goal of discrediting DDT's value in modern malaria control programs. 
The authors admitted that DDT had been very effective in the past, but 
then argued that malaria control programs no longer needed it and 
should use alternative methods of control. Their use of the second 
strategy reveals, in my opinion, the greatest danger of granting 
authority to anti-pesticide activists and their writings. As The Lancet 
paper reveals, the NIEHS scientists assert great authority over the 
topic of DDT, yet they assume no responsibility for the harm that might 
result from their erroneous conclusions. After many malaria control 
specialists have expressed the necessity for DDT in malaria control, it 
is possible for Rogan and Chen to conclude that DDT is not necessary in 
malaria control only if they have no sense of responsibility for levels 
of disease and death that will occur if DDT is not used.
    Rogan and Chen also employ the third strategy of environmentalism. 
Their list of potential harms caused by DDT includes toxic effects, 
neurobehavior effects, cancers, decrements in various facets of 
reproductive health, decrements in infant and child development, and 
immunology and DNA damage. After providing balanced coverage of diverse 
claims of harm, the authors had no option but to conclude they could 
not prove that DDT caused harm. However, they then promptly negated 
this honest conclusion by asserting that if DDT is used for malaria 
control then great harm might occur. So, in an amazing turn, they 
conclude they cannot prove DDT causes harm, but still predict severe 
harm if it is used.
    Rogan and Chen end their paper with a call for more research. One 
could conclude that the intent of the whole paper is merely to lobby 
for research to better define DDT harm, and what's the harm in that? 
Surely increasing knowledge is a fine goal. However, if you look at the 
specific issue of the relative need for research, you will see that the 
harm of this technique is great. Millions of children and pregnant 
women die from malaria every year, and the disease sickens hundreds of 
millions more. This is an indisputable fact: impoverished people engage 
in real life and death struggles every day with malaria. This also is a 
fact: not one death or illness can be attributed to an environmental 
exposure to DDT. Yet, a National Library of Medicine literature search 
on DDT reveals over 1,300 published papers from the year 2000 to the 
present, almost all in the environmental literature and many on 
potential adverse effects of DDT. A search on malaria and DDT reveals 
only 159 papers. DDT is a spatial repellent and hardly an insecticide 
at all, but a search on DDT and repellents will reveal only 7 papers. 
Is this not an egregiously disproportionate research emphasis on non-
sources of harm compared to the enormous harm of malaria? Does not this 
inequity contribute to the continued suffering of those who struggle 
with malaria? Is it possibly even more than an inequity? Is it not an 
active wrong?
    Public health officials and scientists should not be silent about 
enormous investments into the research of theoretical risks while 
millions die of preventable diseases. We should seriously consider our 
motivations in apportioning research money as we do. For example 
consider this: the United States used DDT to eradicate malaria. After 
malaria disappeared as an endemic disease in the United States, we 
became richer. We built better and more enclosed houses. We screened 
our windows and doors. We air conditioned our homes. We also developed 
an immense arsenal of mosquito control tools and chemicals. Today, when 
we have a risk of mosquito borne disease, we can bring this arsenal to 
bear and quickly eliminate risks. And, as illustrated by aerial spray 
missions in the aftermath of hurricane Katrina, we can afford to do so. 
Yet, our modern and very expensive chemicals are not what protect us 
from introductions of the old diseases. Our arsenal responds to the 
threat; it does not prevent the appearance of old diseases in our 
midst. What protects us is our enclosed, screened, air-conditioned 
housing, the physical representation of our wealth. Our wealth is the 
factor that stops dengue at the border with Mexico, not our arsenal of 
new chemicals. Stopping mosquitoes from entering and biting us inside 
our homes is critical in the prevention of malaria and many other 
insect-borne diseases. This is what DDT does for poor people in poor 
countries. It stops large proportions of mosquitoes from entering 
houses. It is, in fact, a form of chemical screening, and until these 
people can afford physical screening or it is provided for them, this 
is the only kind of screening they have.
    DDT is a protective tool that has been taken away from countries 
around the world, mostly due to governments acceding to the whims of 
the anti-pesticide wing of environmentalism, but it is not only the 
anti-pesticide wing that lobbies against DDT. The activists have a 
sympathetic lobbying ally in the pesticide industry. As evidence of 
insecticide industry working to stop countries from using DDT, I am 
attaching an e-mail message dated September 23, 2005 and authored by a 
Bayer official (see page 161). The Bayer official states ``[I speak] 
Not only as the responsible manager for the vector control business in 
Bayer, being the market leader in vector control and pointing out by 
that we know what we are talking about and have decades of experiences 
in the evolution of this very particular market. [but] Also as one of 
the private sector representatives in the RBM Partnership Board and 
being confronted with that discussion about DDT in the various WHO, RBM 
et al circles. So you can take it as a view from the field, from the 
operational commercial level-but our companies point of view. I know 
that all of my colleagues from other primary manufacturers and 
internationally operating companies are sharing my view.''
    The official goes on to say that ``DDT use is for us a commercial 
threat (which is clear, but it is not that dramatic because of limited 
use), it is mainly a public image threat.''
    However the most damming part of this message was the statement 
that ``we fully support EU to ban imports of agricultural products 
coming from countries using DDT''
    The e-mail (see page 161) provides clear evidence of international 
and developed country pressures to stop poor countries from using DDT 
to control malaria. This message also shows the complicity of the 
insecticide industry in those internationally orchestrated efforts.
    Pressures to eliminate spray programs, and DDT in particular, are 
wrong. I say this not based on some projection of what might 
theoretically happen in the future according to some model, or some 
projection of theoretical harms, I say this based firmly on what has 
already occurred. The track record of the anti-pesticide lobby is well 
documented, the pressures on developing countries to abandon their 
spray programs are well documented, and the struggles of developing 
countries to maintain their programs or restart their uses of DDT for 
malaria control are well documented. The tragic results of pressures 
against the use of DDT, in terms of increasing disease and death, are 
quantified and well documented. How long will scientists, public health 
officials, the voting public, and the politicians who lead us continue 
policies, regulations and funding that have led us to the current state 
of a global humanitarian disaster? How long will support continue for 
policies and programs that favor phantoms over facts?
                                 ______
                                 
      Responses of Donald R. Roberts to Additional Questions from 
                            Senator Jeffords
    Question 1. You have testified that ``proper uses of DDT yield no 
large and systematic adverse effects.'' Would you clarify for us what 
is the ``proper'' use of DDT?
    Response. The proper use of DDT is in public health, not 
agriculture.
    A fundamental trait of public health programs is limited resources, 
to include financial, material, and human resources. Because of limited 
resources the public health use of DDT has always been limited, meaning 
that its use was highly selective in application.
    There have been two very different but major public health uses of 
DDT. One was in malaria control, the other was to eradicate Aedes 
aegypti from the Americas. In each case, I consider the two different 
uses of DDT as ``appropriate.'' There have been other public health 
uses, such as spraying DDT in clothing to effectively stop typhus 
epidemics, and DDT to combat plague in wild rodents. Thus, its 
contributions to human health have been many; but DDT was used 
continuously over many years for malaria and Aedes aegypti eradication. 
I will explain briefly how DDT was used in the two programs.
    For malaria control, DDT was applied to house walls at a rate of 2 
grams of active ingredient per square meter of wall surface. Each house 
was to be sprayed every 6 months. All houses in an endemic area were 
supposed to be sprayed. Theory was that at least 80 percent of houses 
must be sprayed (some claimed that complete coverage was necessary). 
The goal of such a program was disease eradication. Even today the 
guidelines for using DDT hark back to the goals of eradication, not 
malaria control. In 1969 the World Health Organization abandoned the 
goal of eradication. After 1969 an internationally orchestrated program 
of DDT elimination snuffed out the realignment of programs to use DDT 
for disease control, opposed to eradication.
    DDT was used in programs of peri-focal spraying for eradication of 
Aedes aegypti from countries of the Americas. This meant that it was 
sprayed in and around containers of water used by the mosquito for 
their larvae. If the container was next to a wall, the wall closest to 
the container was sprayed. If the container was near a bush, the bush 
was sprayed. The use of peri-focal spraying of DDT for eradicating 
Aedes aegypti from countries of the Americas was highly successful; but 
environmental activist pressures in the United States ended the program 
in 1969.
    There are important distinctions between the two uses of DDT 
described here; but there were also similarities. For example, in each 
of the two uses, if eradication was achieved for a particular area, 
region, or country, there was no need to continue spraying DDT. So for 
both malaria and Aedes aegypti eradication there was an identifiable 
end point beyond which routine spraying of DDT was no longer needed, or 
need was greatly reduced.
    Unlike the goal of Aedes aegypti eradication, poverty and poor 
living conditions made malaria eradication a non-attainable goal in 
many, if not most, tropical countries. In contrast, Aedes aegyti 
eradication was indeed demonstrated and carried out in many tropical 
countries. Once the mosquito was eradicated, DDT was then needed only 
when a re-invasion of the mosquito was detected. Largely ignored in our 
historical record is that the United States was the major country of 
the Americas that failed in its obligation to eradicate Aedes aegytpi. 
Not surprisingly, as environmental pressure gained strength in the 
United States during the late 1960s, our fledgling eradication program 
was stopped. Once the United States stopped, the rest of the countries 
of the Americas collapsed their programs and Aedes aegypti started to 
reinvade all of the Americas.
    Basically, I have described here two uses of DDT.
    The use of DDT to eradicate Aedes aegypti was realistic and largely 
successful. This hemisphere-wide program should have been carried to 
completion. The struggle against Aedes aegypti and the diseases it 
transmits to humans would not have ended with eradication. But the 
dimensions of the fight would have been greatly lessened and would have 
been continued through active surveillance and vigilance. As it is 
today, the mosquito has returned to all its old haunts and is 
inflicting great human health harm and suffering on counties of the 
Americas outside the United States.
    As for the use of DDT to eradicate malaria, the goal was not 
realistic, but that lesson was learned slowly. In the end, use of DDT 
for control of malaria, opposed to eradication, was overtaken by 
environmental activism for DDT elimination. So today we are faced with 
growing problems of malaria and a growing need to make use of DDT for 
purposes of control, not eradication. Regrettably, environmental 
activism poisoned the politics of insecticide research to the point 
that there has been almost no research in the United States to find an 
acceptable alternative to DDT. For that reason, even now there is no 
cost-effective DDT alternative for preventing malaria transmission 
inside houses.
    Question 2.  You have done a great deal of work in mapping to 
predict the presence of mosquitoes and target homes for spray in 
developing countries. Am I correct in my understanding that the spray 
regime that you advocate is not spraying of every house in a developing 
country?
    Response. You are correct in your understanding. I definitely do 
not advocate spraying of every house in a developing country.
    In the history of house spray programs, I know of no country that 
sprayed even a majority of houses. Programs were highly successful by 
spraying only a small proportion of houses. Using advance geographic 
information system technology we can achieve better targeting of houses 
today than ever before. As houses are sprayed, the distribution of 
disease will change and the distribution of spraying should change as a 
result.
    I have studied the history of spraying programs in countries of the 
Americas. There is almost no country where every single house was 
sprayed. Where this might have occurred, it was a temporary condition 
and spraying quickly declined to levels commensurate with greatly 
reduced levels of disease risk as a result of the spray program. The 
spraying of every house would be an abusive use of DDT--it would be 
costly, wasteful, and unaffordable.
    Question 3.  Though you have concerns about DDT bans, do you concur 
that restriction of the use of DDT in agriculture was an appropriate 
action for the U.S. to take?
    Response. I concur that DDT should have been phased-out of 
agriculture use. I do not concur that DDT should have been de-listed 
for agricultural uses in such a short timeframe as occurred in 1972. I 
also question the validity of de-listing DDT use in agriculture when 
the replacement chemical (methyl parathion) was multiple times more 
toxic.
    In essence, EPA de-listed DDT for agricultural uses even though 
there was no convincing proof that it caused human health harm (as 
revealed in the EPA hearing of 1971-72). EPA opined that DDT was not 
necessary and that a substitute could be used, knowing full well that 
the substitute would almost certainly result in human deaths (methyl 
parathion, the replacement chemical, is one of the most toxic 
insecticides in existence). Dangerous toxicity of parathion eventually 
resulted in it being de-listed for most agricultural uses in the United 
States, and even banned for all uses in many countries. In conclusion, 
I agree that DDT should have been phased out of agricultural use; but 
do not concur that the 1972 decision was appropriate. There should be 
no doubt that innocent Americans died as a result of that decision.
    Question 4.  You have looked at DDT's efficacy as a repellent. Have 
you examined the efficacy of the alternatives to DDT, and are they 
similarly effective?
    Response. Yes, we have examined alternatives to DDT for efficacy as 
spatial repellents. In fact, we have now tested hundreds of chemicals 
and have yet to find another chemical equal to DDT. No other 
insecticide presently recommended for use in malaria control programs 
functions as a spatial repellent. The pyrethroid insecticides 
(comprising those insecticides presently used for treating bed nets) 
exhibit contact irritant and contact toxic actions; but no spatial 
repellent actions. No other insecticide presently recommended for 
malaria control will provide protection for as many months as DDT. DDT 
is still the cheapest chemical to buy, offers much greater protection 
to sprayed households, and is the only chemical that will stop the 
mosquitoes from entering houses and transmitting malaria indoors. So 
the short answer to this question is that DDT has a unique set of 
actions and there is no known acceptable replacement insecticide.
    Question 5.  In your testimony, you state that not one death or 
illness can be attributed to DDT. That is in terms of human health, is 
that correct? Do you dispute research into the effect of DDT and its 
byproducts on animal health in the environment?
    Response. Yes, my comment was in reference to human health.
    Yes, I dispute the claims of research into the effect of DDT and 
its by products on animal health in the environment. I dispute those 
claims for the following reasons. There are criteria for evaluating a 
cause and effect relationship, and this relationship is really the 
critical issue of whether DDT has harmed animal health in the 
environment. I propose the following reasonable criteria: 1) 
consistency of results, 2) statistical coherence in the form of a 
proportional dose response relationship, and 3) predictive performance. 
Many claims of harm are just that, claims. No standards or criteria for 
defining cause and effect relationships are used. For these reasons, 
many claims of harm have been proven false. On the other hand, the 
cause and effect relationships between declining uses of DDT for 
malaria control and reemerging malaria fulfill completely the criteria 
listed above.
    As a concluding comment, I personally do not consider the issue of 
DDT causing harm to animals in the environment to be truly relevant to 
the debate for using DDT in malaria control programs. Few would argue 
that spraying DDT on inside walls of houses poses a meaningful risk to 
animal health in the environment.
    Question 6.  You talk about wealth reducing the need for chemical 
repellents to control malaria in your written testimony. Does your work 
show that physical screening ultimately replaces the need for 
chemicals.
    Response. I really cannot answer this question from standpoint of 
my own research. However, the research of others plus the events of 
countries in economic transition after controlling malaria suggest that 
screening, air conditioning, and other facets of a higher standard of 
living provide considerable protection from indoor transmission of 
malaria. Obviously, such protections are greater in temperate 
environments, less so in tropical environments. My own opinion is that 
you might never eliminate need for chemical control in some tropical 
regions; but the need would be much less if houses were well enclosed, 
with windows and doors screened, or houses air conditioned.
    To provide a better answer to this question, consider the scenario 
that is played out in households across the United States. Family 
members are sitting on their porch on a warm summer day. As it begins 
to get dark the mosquitoes begin to bite. After a time, family members 
tire of the mosquitoes and go inside away from the mosquitoes. Inside, 
there are no mosquitoes. If one moves this scenario to a malaria 
endemic tropical country, very different conditions prevail. Family 
members sitting outside feel the bites and move indoors. Indoors they 
do not get away from mosquitoes; but the mosquitoes indoors may be very 
different from the ones biting outside. The mosquitoes inside are the 
truly dangerous ones. The mosquitoes inside the house bite as people 
sleep and acquire infection from sick people or transmit infection to 
those who are not sick. In the United States our well-enclosed houses 
afford protection, but the open houses of the tropics actually provide 
a gathering place for the most dangerous mosquitoes. Preventing those 
mosquitoes from being indoors is the work of DDT.
                                 ______
                                 
Statement of David B. Sandalow, Director, Environment & Energy Project 
                       The Brookings Institution
    Thank you Mr. Chairman. Tomorrow it will be one month since 
Hurricane Katrina made landfall on the Gulf Coast. The suffering caused 
by this storm is well known, but no less tragic for being so. Today 
countless thousands of Americans grieve relatives lost in the storm, 
and many more search for ways to restore shattered lives and 
livelihoods. As we join together as a nation to rebuild this region, 
our thoughts and prayers are with them all.
    Many observers have characterized Katrina as a defining moment in 
our nation's history. Former Speaker Newt Gingrich said the impact of 
Katrina will be ``30 to 100 times bigger than 9/11,'' arguing that the 
``after effects of this extreme disaster will last longer and be more 
complex than any domestic event since World War II.'' Commentators have 
focused on the importance of this event to race relations, anti-poverty 
programs, the federal budget, homeland security and more.
    Then, this past weekend our Gulf Coast was struck by another storm. 
Hurricane Rita was smaller and less powerful than Katrina, but only by 
comparison to its predecessor could Rita be considered a minor event. 
More than three million people were evacuated from their homes, causing 
traffic jams that stretched for more than one hundred miles. The full 
death toll is not yet known but, including fatalities that occurred 
during the evacuation of Houston, appears to number at least 30. The 
governor of Texas estimates damages exceeding $8 billion in his state 
alone.
    Your hearing, Mr. Chairman, is timely. The two hurricanes that 
struck our nation in the past month raise important questions about 
science policy, environmental policy, and the intersection between the 
two. How can we better predict natural disasters of this kind? Will our 
response to Katrina be shaped by the best available science? What 
forces of global change shaped these two disasters, and what impact 
will these forces have in the years to come?
    Because these questions are so important, today I am recommending 
the Senate ask the U.S. National Academy of Sciences to examine them. 
Specifically, I recommend the Senate ask the US National Academy of 
Sciences to conduct a major new study on extreme weather events, 
including hurricanes, droughts and floods. The report would assess the 
state of scientific knowledge in several areas, including (i) our 
ability to predict extreme weather events and how that ability might be 
improved, (ii) the causes of extreme weather events, both natural and 
anthropogenic, (iii) land restoration in the Mississippi Delta, both as 
part of the response to Katrina and to protect against future storms, 
and (iv) human health and other risks related to the clean-up of toxic 
chemicals released as a result of Katrina. This study should be done in 
phases, with an early product intended to help guide immediate recovery 
efforts in the Gulf Coast region, and then an ongoing and more 
comprehensive program.
    Today I will touch briefly on several questions raised by the 
Katrina and Rita, and then on questions of science and environmental 
policy more broadly.
                   1. katrina, rita and sound science
    Sound science should guide all government policy, including in 
particular matters as consequential as our response to Katrina and 
Rita. Among the areas that require priority attention are:
A. Improving our ability to predict extreme weather events
    More than 100 years ago, on September 8, 1900, a Category 4 
hurricane blasted into Galveston, Texas. In an era before satellites, 
airplanes or modern communications, the population had scant 
information about the fury arriving over warm Gulf waters. Eight 
thousand people lost their lives.
    Today we take for granted our ability to watch storm clouds gather 
from satellite photos beamed to our living rooms. We expect government 
agencies to provide advance warning of impending danger. But we should 
not be satisfied with our current predictive powers. Rapidly improving 
information and communications technologies can steadily improve these 
powers, preventing property damage and saving lives. New data on ocean 
currents, for example, may help us predict weather patterns and even 
project the paths of hurricanes with greater confidence than today.
    Nor should our quest be limited to hurricanes. This summer, new 
heat records were set in more than 200 United States cities. Drought 
has been a chronic problem for several years in the American West. In 
2004, more than 1700 tornadoes struck the United States, by far the 
most ever recorded in a single year.
    Much more work is needed to develop the capacity to predict such 
events and better understand the forces causing them. Generations 
hence, our current abilities to predict extreme weather may seem as 
quaint and outmoded as those from 1900 do today.
B. Land Restoration in the Mississippi Delta
    Wetlands have been called nature's ``speed bumps,'' protecting 
coastal cities and from waves and storm surges. But Louisiana's 
wetlands have been receding for decades, largely because levees on the 
Mississippi River send silt-rich waters away from marshlands and 
directly out to sea. No restoration program can succeed without 
strengthening the natural buffer that protects New Orleans and other 
parts of Louisiana from the next hurricane.
    Although a regional plan called Coastal 2050 was developed several 
years ago, new work is needed to understand the implications of Katrina 
and Rita on the strategies developed and critically--to set priorities. 
Furthermore, questions of first impression concerning land restoration 
will be raised in the process of rebuilding New Orleans. Can enough 
fill be found to raise the level of whole neighborhoods? Would such 
fill be stable and safe? These questions require the expertise of a 
team of national and international experts from diverse disciplines.
C. Toxic Clean-Up
    The clean-up challenge in New Orleans is unprecedented. Experts 
have advised residents to exercise extreme caution in returning to 
flooded homes, in part because of contaminants that may have settled 
out of still waters. E coli and fecal coliform are the best understood, 
but other contaminants may also threaten health and safety. At one site 
within New Orleans, a Superfund site was covered in several feet of 
water and may have leached toxic chemicals. Oil spills throughout the 
region rival the Exxon Valdez oil spill in total volume.
    The clean-up will involve not just extraordinary resources, but 
difficult choices. Decisions will need to be made about steps to 
protect human health and safety, to restore damaged ecosystems and to 
re-open and rebuild parts of Louisiana's devastated sea food industry. 
These decisions must be informed by the best available science. Current 
resources within the federal and state environmental protection 
agencies are insufficient and should be supplemented with outside 
expertise.
D. Responsibly Addressing Global Warming
    Today, there is ample evidence that heat-trapping gases from human 
activities may produce more powerful hurricanes. We should proceed 
responsibly with respect to this risk, steadily improving our knowledge 
and shaping smart policies in response.
    Much is already known on this topic. Heat-trapping gases from human 
activities-mainly the burning of fossil fuels--are warming both the 
atmosphere and oceans. As sea surface temperatures rise, average 
hurricane strength is predicted to increase as well. These predictions 
are consistent with observations from the historical record. During the 
past 30 years, as the total number of hurricanes globally has remained 
roughly constant, the percentage of Category 4 and 5 storms has nearly 
doubled. In our hemisphere, during this period, peak wind speeds of 
hurricanes have increased by roughly 50 percent.
    As several observers have noted, we are starting to play with 
loaded dice. There is no way to determine whether any single hurricane 
is or is not the result of global warming, but as heat-trapping gases 
build in our atmosphere, the average hurricane will become more 
intense.
    These observations are especially troubling because, according to 
many experts, Atlantic hurricanes will likely be more frequent in the 
years ahead as a result of natural cycles. Hurricanes in our hemisphere 
appear to fluctuate on a multi-decadal basis-they were more frequent 
during the 1950's and 1960's, dropped from the early 1970's through 
mid-1990's, and have climbed in number since then.
    Thus, in the years ahead the United States faces a double threat--
more frequent hurricanes due to natural cycles and more intense 
hurricanes due to human activities. This is a risk we ignore at our 
peril.
    Today, there are no federal controls on the major heat-trapping 
gases, although the Senate supported such controls in a resolution this 
summer. As the Senate considers how best to translate this resolution 
into legislation, it should be informed by the best available 
scientific evidence concerning risks from extreme weather events and 
global warming.
    2. Recent Developments in the Role of Science in Federal 
Environmental Policy
    Sound science is central to wise environmental policymaking. Our 
major environmental statutes all contemplate expert scientific and 
technical analyses as the prerequisite for federal government action. 
That analysis must be objective and unbiased. As the chair of this 
committee, Senator James Inhofe, has said: ``Scientific inquiry cannot 
be censored-scientific debate must be open, must be unbiased and it 
must stress facts rather than political agendas.''
    Unfortunately, the past few years have not been a happy time for 
the role of science in federal environmental policy. Last year, 48 
Nobel laureates and 62 National Medal of Science recipients were among 
the more than 4,000 scientists who signed a statement expressing 
concern about the ``manipulation of the process through which science 
enters into [the Federal Government's] decisions.'' Among the specific 
matters noted in the scientists' statement were several relating to 
environmental policy.
    The specific concerns expressed by these scientists and others 
include:
    a. The suppression or distortion of scientific conclusions from 
federal environmental agencies. In 2003, for example, the White House 
insisted on changes to the climate change sections of an EPA report. 
Because its scientists considered the proposed changes scientifically 
indefensible, EPA eliminated the discussion of climate change from its 
overall report. Similarly, the New York Times reported recently on 
extensive edits to an EPA document concerning the science of climate 
change by a White House political aide.
    b. Political manipulation of expert advisory committees. For 
example, substantial concerns have been expressed about adjustments to 
the composition of the CDC Advisory Committee on Childhood Lead 
Poisoning during 2002. Experts recommended by CDC staff were rejected 
and replaced with individuals characterized by their opposition to 
tighter federal standards, some of whom may have had financial ties to 
the lead industry.
    These are issues of great consequence. Sound policymaking cannot 
proceed in the face of such concerns. These issues demand priority 
attention from this committee and the Senate as a whole.
    One approach is suggested by the Restore Scientific Integrity to 
Federal Research and Policy Making Act, introduced in the House as H.R. 
839. Among other things, the Act would
    Help prevent the manipulation of data;
    Strengthen the independence of federal science advisory committees; 
and
    Require an annual report to Congress by the Director of the Office 
of Science and Technology Policy on the state of Federal scientific 
integrity.
    This legislation would help to address many of the most serious 
concerns that have arisen in recent years and is worthy of 
consideration by this body as well.
    Thank you for the opportunity to address the committee. I would be 
pleased to answer any questions.
                                 ______
                                 
    Statement of James Hansen, Director, Columbia University Earth 
           Institute and Goddard Institute for Space Studies
    Michael Crichton's latest fictional novel, ``State of Fear'', 
designed to discredit concerns about global warming, purports to use 
the scientific method. The book is sprinkled with references to 
scientific papers, and Crichton intones in the introduction that his 
``footnotes are real''. But does Crichton really use the scientific 
method? Or is it something closer to scientific fraud?
    I have not read Crichton's book, but several people have pointed 
out to me that Crichton takes aim at my 1988 congressional testimony 
and claims that I made predictions about global warming that turned out 
to be 300 percent too high. Is that right?
    In my testimony in 1988, and in an attached scientific paper 
written with several colleagues at the Goddard Institute for Space 
Studies (GISS) and published later that year in the Journal of 
Geophysical Research (volume 93, pages 9341-9364), I described climate 
simulations made with the GISS climate model. We considered three 
scenarios for the future, labeled A, B and C, to bracket likely 
possibilities.
    Scenario A was described as ``on the high side of reality'', 
because it assumed rapid exponential growth of greenhouse gases and it 
assumed that there would be no large volcanoes (which inject small 
particles into the stratosphere and cool the Earth) during the next 
half century. Scenario C was described as ``a more drastic curtailment 
of emissions than has generally been imagined'', specifically 
greenhouse gases were assumed to stop increasing after 2000. The 
intermediate Scenario B was described as ``the most plausible''. 
Scenario B had continued growth of greenhouse gas emissions at a 
moderate rate and it sprinkled three large volcanoes in the 50-year 
period after 1988, one of them in the 1990s.
    Not surprisingly, the real world has followed a course closest to 
that of Scenario B. The real world even had one large volcano in the 
1990s, the eruption of Mount Pinatubo, which occurred in 1991, while 
Scenario B placed a volcano in 1995.
    In my testimony to congress I showed one line graph with scenarios 
A, B, C and observed global temperature, which I update below. However, 
all of the maps of simulated future temperature that I showed in my 
congressional testimony were for scenario B, which formed the basis for 
my testimony. No results were shown for the outlier scenarios A and C.
    Back to Crichton: how did he conclude that I made an error of 300 
percent? Apparently, rather than studying the scientific literature, as 
his footnotes would imply, his approach was to listen to ``global 
warming skeptics''. One of the skeptics, Pat Michaels, has taken the 
graph from our 1988 paper with simulated global temperatures for 
scenarios A, B and C, erased the results for scenarios B and C, and 
shown only the curve for scenario A in public presentations, pretending 
that it was my prediction for climate change. Is this treading close to 
scientific fraud?
    Crichton's approach is worse than that of Michaels. Crichton 
uncritically accepts Michaels' results, and then concludes that 
Hansen's prediction was in error ``300 percent''. Where does he get 
this conclusion?
    Let's reproduce here (Figure 1) the global temperature curves from 
my 1988 congressional testimony, without erasing the results for 
scenarios B and C. Figure 1 updates observations of global temperature 
using the same analysis of meteorological station data as in our 1988 
paper (which removes or corrects station data from urban locations)\1\. 
The 2005 data point is a preliminary estimate based on the first eight 
months of the year.
---------------------------------------------------------------------------
    \1\The warming is slightly less (change less than 0.1 C) in our 
analysis of observations if we combine ocean temperature measurements 
with the meteorological station data. However, the result is slightly 
more warming in the British analysis of observations by Phil Jones and 
associates. So the observational analysis shown in Figure 1 is 
representative of the various analyses of global surface temperature 
change.
---------------------------------------------------------------------------
    The observations, the black curve in Figure 1, show that the Earth 
is indeed getting warmer, as predicted. The observed temperature 
fluctuates a lot, because the real world is a ``noisy'', chaotic 
system, but there is a clear warming trend. Curiously, the scenario 
that we described as most realistic is so far turning out to be almost 
dead on the money. Such close agreement is fortuitous. For example, the 
model used in 1988 had a sensitivity of 4.2 C for doubled 
CO<INF>2</INF>, but our best estimate for true climate sensitivity\2\ 
is closer to 3 C for doubled CO<INF>2</INF>. There are various other 
uncertain factors that can make the warming larger or smaller\3\. But 
it is becoming clear that our prediction was in the right ballpark.
---------------------------------------------------------------------------
    \2\Climate sensitivity is usually expressed as the equilibrium 
global warming expected to result from doubling the amount of 
CO<INF>2</INF> in the air. Empirical evidence from the Earth's history 
indicates that climate sensitivity is about 3 C, with an uncertainty 
of about 1 C. A climate model yields its own sensitivity, based on the 
best physics that the users can incorporate at any given time. The 1988 
GISS model sensitivity was 4.2 C, while it is 2.7 C for the 2005. It 
is suspected that the sensitivity of the 2005 model may be slightly too 
small because of the sea ice formulation being too stable.
    \3\Our papers related to global warming can be obtained from 
pubs.giss.nasa.gov
---------------------------------------------------------------------------
    So how did Crichton conclude that our prediction was in error 300 
percent? Beats me. Crichton writes fiction and seems to make up things 
as he goes along. He doesn't seem to have the foggiest notion about the 
science that he writes about. Perhaps that is o.k. for a science 
fiction writer\4\.
---------------------------------------------------------------------------
    \4\Discussion of Crichton's science fiction is provided on the blog
---------------------------------------------------------------------------
    However, I recently heard that, in considering the global warming 
issue, a United States Senator is treating words from Crichton as if 
they had scientific or practical validity. If so, wow--Houston, we have 
a problem!
    Acknowledgement. I thank Makiko Sato for reproducing and updating 
the figure.

[GRAPHIC] [TIFF OMITTED] 38918.091


                                 ______
                                 
 Statement of Ralph J. Cicerone, Ph.D. President, National Academy of 
                    Sciences, The National Academies
    Good morning, Mr. Chairman and members of the Committee. My name is 
Ralph Cicerone, and I am President of the National Academy of Sciences. 
Prior to this position, I served as Chancellor of the University of 
California at Irvine, where I also held the Daniel G. Aldrich Chair in 
Earth System Science. In addition, in 2001 I chaired the National 
Academies Committee that wrote the report, Climate Change Science: An 
Analysis of Some Key Questions, at the request of the White House.
    This morning I will summarize briefly the current state of 
scientific understanding on climate change, based largely on the 
findings and recommendations in recent National Academies' reports. 
These reports are the products of a study process that brings together 
leading scientists, engineers, public health officials and other 
experts to provide consensus advice to the nation on specific 
scientific and technical questions.
    The Earth is warming. Weather station records and ship-based 
observations indicate that global mean surface air temperature 
increased about 0.7  F (0.4  C) since the early 1970's (See Figure). 
Although the magnitude of warming varies locally, the warming trend is 
spatially widespread and is consistent with an array of other evidence 
(including melting glaciers and ice caps, sea level rise, extended 
growing seasons, and changes in the geographical distributions of plant 
and animal species). The ocean, which represents the largest reservoir 
of heat in the climate system, has warmed by about 0.12  F (0.06 C) 
averaged over the layer extending from the surface down to 750 feet, 
since 1993. Recent studies have shown that the observed heat storage in 
the oceans is consistent with expected impacts of a human-enhanced 
greenhouse effect.
    The observed warming has not proceeded at a uniform rate. Virtually 
all the 20th century warming in global surface air temperature occurred 
between the early 1900s and the 1940s and from the 1970s until today, 
with a slight cooling of the Northern Hemisphere during the interim 
decades. The causes of these irregularities and the disparities in the 
timing are not completely understood, but the warming trend in global-
average surface temperature observations during the past 30 years is 
undoubtedly real and is substantially greater than the average rate of 
warming during the twentieth century.
    Laboratory measurements of gases trapped in dated ice cores have 
shown that for hundreds of thousands of years, changes in temperature 
have closely tracked atmospheric carbon dioxide concentrations. Burning 
fossil fuel for energy, industrial processes, and transportation 
releases carbon dioxide to the atmosphere. Carbon dioxide in the 
atmosphere is now at its highest level in 400,000 years and continues 
to rise.
    Nearly all climate scientists today believe that much of Earth's 
current warming has been caused by increases in the amount of 
greenhouse gases in the atmosphere, mostly from the burning of fossil 
fuels. The degree of confidence in this conclusion is higher today than 
it was 10, or even 5 years ago, but uncertainties remain. As stated in 
the Academies 2001 report, ``the changes observed over the last several 
decades are likely mostly due to human activities, but we cannot rule 
out that some significant part of these changes is also a reflection of 
natural variability.''
    One area of debate has been the extent to which variations in the 
Sun might contribute to recent observed warming trends. The Sun's total 
brightness has been measured by a series of satellite-based instruments 
for more than two complete 11-year solar cycles. Recent analyses of 
these measurements argue against any detectable long-term trend in the 
observed brightness to date. Thus, it is difficult to conclude that the 
Sun has been responsible for the warming observed over the past 25 
years.
    Carbon dioxide can remain in the atmosphere for many decades and 
major parts of the climate system respond slowly to changes in 
greenhouse gas concentrations. The slow response of the climate system 
to increasing greenhouse gases also means that changes and impacts will 
continue during the twenty-first century and beyond, even if emissions 
were to be stabilized or reduced in the near future.
    Simulations of future climate change project that, by 2100, global 
surface temperatures will be from 2.5 to 10.4 F (1.4 to 15.8 C) above 
1990 levels. Similar projections of temperature increases, based on 
rough calculations and nascent theory, were made in the Academies first 
report on climate change published in the late 1970s. Since then, 
significant advances in our knowledge of the climate system and our 
ability to model and observe it have yielded consistent estimates. 
Pinpointing the magnitude of future warming is hindered both by 
remaining gaps in understanding the science and by the fact that it is 
difficult to predict society's future actions, particularly in the 
areas of population growth, economic growth, and energy use practices.
    Other scientific uncertainties about future climate change relate 
to the regional effects of climate change and how climate change will 
affect the frequency and severity of weather events. Although 
scientists are starting to forecast regional weather impacts, the level 
of confidence is less than it is for global climate projections. In 
general, temperature is easier to predict than changes such as 
rainfall, storm patterns, and ecosystem impacts.
    It is important to recognize however, that while future climate 
change and its impacts are inherently uncertain, they are far from 
unknown. The combined effects of ice melting and sea water expansion 
from ocean warming will likely cause the global average sea-level to 
rise by between 0.1 and 0.9 meters between 1990 and 2100. In colder 
climates, such warming could bring longer growing seasons and less 
severe winters. Those in coastal communities, many in developing 
nations, will experience increased flooding due to sea level rise and 
are likely to experience more severe storms and surges. In the Arctic 
regions, where temperatures have risen more than the global average, 
the landscape and ecosystems are being altered rapidly.
    The task of mitigating and preparing for the impacts of climate 
change will require worldwide collaborative inputs from a wide range of 
experts, including natural scientists, engineers, social scientists, 
medical scientists, those in government at all levels, business leaders 
and economists. Although the scientific understanding of climate change 
has advanced significantly in the last several decades, there are still 
many unanswered questions. Society faces increasing pressure to decide 
how best to respond to climate change and associated global changes, 
and applied research in direct support of decision making is needed.
    My written testimony describes the current state of scientific 
understanding of climate change in more detail, based largely on 
important findings and recommendations from a number of recent National 
Academies' reports.
                          the earth is warming
    The most striking evidence of a global warming trend are closely 
scrutinized data that show a relatively rapid increase in temperature, 
particularly over the past 30 years. Weather station records and ship-
based observations indicate that global mean surface air temperature 
increased about 0.7 F (0.4 C) since the early 1970's (See Figure). 
Although the magnitude of warming varies locally, the warming trend is 
spatially widespread and is consistent with an array of other evidence 
(e.g., melting glaciers and ice caps, sea level rise, extended growing 
seasons, and changes in the geographical distributions of plant and 
animal species).
    Global annual-mean surface air temperature change derived from the 
meteorological station network. Data and plots available from the 
Goddard Institute for Space Sciences (GISS) at http://
data.giss.nasa.gov/gistemp/graphs/.
    The ocean, which represents the largest reservoir of heat in the 
climate system, has warmed by about 0.12 F (0.06 C) averaged over the 
layer extending from the surface down to 750 feet, since 1993. Recent 
studies have shown that the observed heat storage in the oceans is what 
would be expected by a human-enhanced greenhouse effect. Indeed, 
increased ocean heat content accounts for most of the planetary energy 
imbalance (i.e., when the Earth absorbs more energy from the Sun than 
it emits back to space) simulated by climate models with mid-range 
climate sensitivity.
    The observed warming has not proceeded at a uniform rate. Virtually 
all the 20th century warming in global surface air temperature occurred 
between the early 1900s and the 1940s and since the 1970s, with a 
slight cooling of the Northern Hemisphere during the interim decades. 
The troposphere warmed much more during the 1970s than during the two 
subsequent decades, whereas Earth's surface warmed more during the past 
two decades than during the 1970s. The causes of these irregularities 
and the disparities in the timing are not completely understood.
    A National Academies report released in 2000, Reconciling 
Observations of Global Temperature Change, examined different types of 
temperature measurements collected from 1979 to 1999 and concluded that 
the warming trend in global-average surface temperature observations 
during the previous 20 years is undoubtedly real and is substantially 
greater than the average rate of warming during the twentieth century. 
The report concludes that the lower atmosphere actually may have warmed 
much less rapidly than the surface from 1979 into the late 1990s, due 
both to natural causes (e.g., the sequence of volcanic eruptions that 
occurred within this particular 20-year period) and human activities 
(e.g., the cooling of the upper part of the troposphere resulting from 
ozone depletion in the stratosphere). The report spurred many research 
groups to do similar analyses. Satellite observations of middle 
troposphere temperatures, after several revisions of the data, now 
compare reasonably with observations from surface stations and 
radiosondes, although some uncertainties remain.
                  humans have had an impact on climate
    Laboratory measurements of gases trapped in dated ice cores have 
shown that for hundreds of thousands of years, changes in temperature 
have closely tracked with atmospheric carbon dioxide concentrations. 
Burning fossil fuel for energy, industrial processes, and 
transportation releases carbon dioxide to the atmosphere. Carbon 
dioxide in the atmosphere is now at its highest level in 400,000 years 
and continues to rise. Nearly all climate scientists today believe that 
much of Earth's current warming has been caused by increases in the 
amount of greenhouse gases in the atmosphere. The degree of confidence 
in this conclusion is higher today than it was 10, or even 5 years ago, 
but uncertainties remain. As stated in the Academies 2001 report, ``the 
changes observed over the last several decades are likely mostly due to 
human activities, but we cannot rule out that some significant part of 
these changes is also a reflection of natural variability.''
    Carbon dioxide can remain in the atmosphere for many decades and 
major parts of the climate system respond slowly to changes in 
greenhouse gas concentrations. The slow response of the climate system 
to increasing greenhouse gases also means that changes and impacts will 
continue during the twenty-first century and beyond, even if emissions 
were to be stabilized or reduced in the near future.
    In order to compare the contributions of the various agents that 
affect surface temperature, scientists have devised the concept of 
``radiative forcing.'' Radiative forcing is the change in the balance 
between radiation (i.e., heat and energy) entering the atmosphere and 
radiation going back out. Positive radiative forcings (e.g., due to 
excess greenhouse gases) tend on average to warm the Earth, and 
negative radiative forcings (e.g., due to volcanic eruptions and many 
human-produced aerosols) on average tend to cool the Earth. The 
Academies recent report, Radiative Forcing of Climate Change: Expanding 
the Concept and Addressing Uncertainties (2005), takes a close look at 
how climate has been changed by a range of forcings. A key message from 
the report is that it is important to quantify how human and natural 
processes cause changes in climate variables other than temperature. 
For example, climate-driven changes in precipitation in certain regions 
could have significant impacts on water availability for agriculture, 
residential and industrial use, and recreation. Such regional impacts 
will be much more noticeable than projected changes in global average 
temperature of a degree or more.
    One area of debate has been the extent to which variations in the 
Sun might contribute to recent observed warming trends. Radiative 
Forcing of Climate Change: Expanding the Concept and Addressing 
Uncertainties (2005) also summarizes current understanding about this 
issue. The Sun's brightness--its total irradiance--has been measured 
continuously by a series of satellite-based instruments for more than 
two complete 11-year solar cycles. These multiple solar irradiance 
datasets have been combined into a composite time series of daily total 
solar irradiance from 1979 to the present. Different assumptions about 
radiometer performance lead to different reconstructions for the past 
two decades. Recent analyses of these measurements, taking into account 
instrument calibration offsets and drifts, argue against any detectable 
long-term trend in the observed irradiance to date. Likewise, models of 
total solar irradiance variability that account for the influences of 
solar activity features--dark sunspots and bright faculae--do not 
predict a secular change in the past two decades. Thus, it is difficult 
to conclude from either measurements or models that the Sun has been 
responsible for the warming observed over the past 25 years.
    Knowledge of solar irradiance variations is rudimentary prior to 
the commencement of continuous space-based irradiance observations in 
1979. Models of sunspot and facular influences developed from the 
contemporary database have been used to extrapolate daily variations 
during the 11-year cycle back to about 1950 using contemporary sunspot 
and facular proxies, and with less certainty annually to 1610. 
Circumstantial evidence from cosmogenic isotope proxies of solar 
activity (14C and 10Be) and plausible variations in Sun-like stars 
motivated an assumption of long-term secular irradiance trends, but 
recent work questions the evidence from both. Very recent studies of 
the long term evolution and transport of activity features using solar 
models suggest that secular solar irradiance variations may be limited 
in amplitude to about half the amplitude of the 11-year cycle.
    warming will continue, but its impacts are difficult to project
    The Intergovernmental Panel on Climate Change (IPCC), which 
involves hundreds of scientists in assessing the state of climate 
change science, has estimated that, by 2100, global surface 
temperatures will be from 2.5 to 10.4 F (1.4 to 5.8 C) above 1990 
levels. Similar projections of temperature increases, based on rough 
calculations and nascent theory, were made in the Academies first 
report on climate change published in the late 1970s. Since then, 
significant advances in our knowledge of the climate system and our 
ability to model and observe it have yielded consistent estimates. 
Pinpointing the magnitude of future warming is hindered both by 
remaining gaps in understanding the science and by the fact that it is 
difficult to predict society's future actions, particularly in the 
areas of population growth, economic growth, and energy use practices.
    One of the major scientific uncertainties is how climate could be 
affected by what are known as ``climate feedbacks.'' Feedbacks can 
either amplify or dampen the climate response to an initial radiative 
forcing. During a feedback process, a change in one variable, such as 
carbon dioxide concentration, causes a change in temperature, which 
then causes a change in a third variable, such as water vapor, which in 
turn causes a further change in temperature. Understanding Climate 
Change Feedbacks (2003) looks at what is known and not known about 
climate change feedbacks and identifies important research avenues for 
improving our understanding.
    Other scientific uncertainties relate to the regional effects of 
climate change and how climate change will affect the frequency and 
severity of weather events. Although scientists are starting to 
forecast regional weather impacts, the level of confidence is less than 
it is for global climate projections. In general, temperature is easier 
to predict than changes such as rainfall, storm patterns, and ecosystem 
impacts. It is very likely that increasing global temperatures will 
lead to higher maximum temperatures and fewer cold days over most land 
areas. Some scientists believe that heat waves such as those 
experienced in Chicago and central Europe in recent years will continue 
and possibly worsen. The larger and faster the changes in climate, the 
more difficult it will be for human and natural systems to adapt 
without adverse effects.
    There is evidence that the climate has sometimes changed abruptly 
in the past--within a decade--and could do so again. Abrupt changes, 
for example the Dust Bowl drought of the 1930's displaced hundreds of 
thousands of people in the American Great Plains, take place so rapidly 
that humans and ecosystems have difficulty adapting to it. Abrupt 
Climate Change: Inevitable Surprises (2002) outlines some of the 
evidence for and theories of abrupt change. One theory is that melting 
ice caps could ``freshen'' the water in the North Atlantic, shutting 
down the natural ocean circulation that brings warmer Gulf Stream 
waters to the north and cooler waters south again. This shutdown could 
make it much cooler in Northern Europe and warmer near the equator.
    It is important to recognize that while future climate change and 
its impacts are inherently uncertain, they are far from unknown. The 
combined effects of ice melting and sea water expansion from ocean 
warming will likely cause the global average sea-level to rise by 
between 0.1 and 0.9 meters between 1990 and 2100. In colder climates, 
such warming could bring longer growing seasons and less severe 
winters. Those in coastal communities, many in developing nations, will 
experience increased flooding due to sea level rise and are likely to 
experience more severe storms and surges. In the Arctic regions, where 
temperatures have risen almost twice as much as the global average, the 
landscape and ecosystems are being altered rapidly.
   observations and data are the foundation of climate change science
    There is nothing more valuable to scientists than the measurements 
and observations required to confirm or contradict hypotheses. In 
climate sciences, there is a peculiar relation between the scientist 
and the data. Whereas other scientific disciplines can run multiple, 
controlled experiments, climate scientists must rely on the one 
realization that nature provides. Climate change research requires 
observations of numerous characteristics of the Earth system over long 
periods of time on a global basis. Climate scientists must rely on data 
collected by a whole suite of observing systems--from satellites to 
surface stations to ocean buoys--operated by various government 
agencies and countries as well as climate records from ice cores, tree 
rings, corals, and sediments that help reconstruct past change.
        collecting and archiving data to meet the unique needs 
                       of climate change science
    Most of the instrumentation and observing systems used to monitor 
climate today were established to provide data for other purposes, such 
as predicting daily weather; advising farmers; warning of hurricanes, 
tornadoes and floods; managing water resources; aiding ocean and air 
transportation; and understanding the ocean. However, collecting 
climate data is unique because higher precision is often needed in 
order to detect climate trends, the observing programs need to be 
sustained indefinitely and accommodate changes in observing technology, 
and observations are needed at both global scales and at local scales 
to serve a range of climate information users.
    Every report on climate change produced by the National Academies 
in recent years has recommended improvements to climate observing 
capabilities. A central theme of the report Adequacy of Climate 
Observing Systems (1999) is the need to dramatically upgrade our 
climate observing capabilities. The report presents ten climate 
monitoring principles that continue to be the basis for designing 
climate observing systems, including management of network change, 
careful calibration, continuity of data collection, and documentation 
to ensure that meaningful trends can be derived.
    Another key concept for climate change science is the ability to 
generate, analyze, and archive long-term climate data records (CDRs) 
for assessing the state of the environment in perpetuity. In Climate 
Data Records from Environmental Satellites (2004), a climate data 
record is defined as a time series of measurements of sufficient 
length, consistency, and continuity to determine climate variability 
and change. The report identifies several elements of successful 
climate data record generation programs, ranging from effective, expert 
leadership to long-term commitment to sustaining the observations and 
archives.
    integrating knowledge and data on climate change through models
    An important concept that emerged from early climate science in the 
1980s was that Earth's climate is not just a collection of long-term 
weather statistics, but rather the complex interactions or 
``couplings'' of the atmosphere, the ocean, the land, and plant and 
animal life. Climate models are built using our best scientific 
knowledge, first modeling each process component separately and then 
linking them together to simulate these couplings.
    Climate models are important tools for understanding how the 
climate operates today, how it may have functioned differently in the 
past, and how it may evolve in the future in response to forcings from 
both natural processes and human activities. Climate scientists can 
deal with uncertainty about future climate by running models with 
different assumptions of future population growth, economic 
development, energy use, and policy choices, such as those that affect 
air quality or influence how nations share technology. Models then 
offer a range of outcomes based on these different assumptions.
                    modeling capability and accuracy
    Since the first climate models were pioneered in the 1970s, the 
accuracy of models has improved as the number and quality of 
observations and data have increased, as computational abilities have 
multiplied, and as our theoretical understanding of the climate system 
has improved. Whereas early attempts at modeling used relatively crude 
representations of the climate, today's models have very sophisticated 
and carefully tested treatment of hundreds of climate processes.
    The National Academies' report Improving Effectiveness of U.S. 
Climate Modeling (2001) offers several recommendations for 
strengthening climate modeling capabilities, some of which have already 
been adopted in the United States. At the time the report was 
published, U.S. modeling capabilities were lagging behind some other 
countries. The report identified a shortfall in computing facilities 
and highly skilled technical workers devoted to climate modeling. 
Federal agencies have begun to centralize their support for climate 
modeling efforts at the National Center for Atmospheric Research and 
the Geophysical Fluid Dynamics Laboratory. However, the U.S. could 
still improve the amount of resources it puts toward climate modeling 
as recommended in Planning Climate and Global Change Research (2003).
                 climate change impacts will be uneven
    There will be winners and losers from the impacts of climate 
change, even within a single region, but globally the losses are 
expected to outweigh the benefits. The regions that will be most 
severely affected are often the regions that are the least able to 
adapt. For example, Bangladesh, one of the poorest nations in the 
world, is projected to lose 17.5% of its land if sea level rises about 
40 inches (1 m), displacing tens of thousands of people. Several 
islands throughout the South Pacific and Indian Oceans will be at 
similar risk of increased flooding and vulnerability to storm surges. 
Coastal flooding likely will threaten animals, plants, and fresh water 
supplies. Tourism and local agriculture could be severely challenged.
    Wetland and coastal areas of many developed nations including 
United States are also threatened. For example, parts of New Orleans 
are as much as eight feet below sea level today. However, wealthy 
countries are much more able to adapt to sea level rise and threats to 
agriculture. Solutions could include building, limiting or changing 
construction codes in coastal zones, and developing new agricultural 
technologies.
    The Arctic has warmed at a faster rate than the Northern Hemisphere 
over the past century. A Vision for the International Polar Year 2007-
2008 (2004) reports that this warming is associated with a number of 
impacts including: melting of sea ice, which has important impacts on 
biological systems such as polar bears, ice-dependent seals, and local 
people for whom these animals are a source of food; increased snow and 
rainfall, leading to changes in river discharge and tundra vegetation; 
and degradation of the permafrost.
                      preparing for climate change
    One way to begin preparing for climate change is to make the wealth 
of climate data and information already collected more accessible to a 
range of users who could apply it to inform their decisions. Such 
efforts, often called ``climate services,'' are analogous to the 
efforts of the National Weather Service to provide useful weather 
information. Climate is becoming increasingly important to public and 
private decision making in various fields such as emergency management 
planning, water quality, insurance premiums, irrigation and power 
production decisions, and construction schedules. A Climate Services 
Vision (2001) outlines principles for improving climate services that 
include making climate data as user-friendly as weather services are 
today, and active and well-defined connections among the Government 
agencies, businesses, and universities involved in climate change data 
collection and research.
    Another avenue would be to develop practical strategies that could 
be used to reduce economic and ecological systems' vulnerabilities to 
change. Such ``no-regrets'' strategies, recommended in Abrupt Climate 
Change: Inevitable Surprises (2002), provide benefits whether a 
significant climate change ultimately occurs or not, potentially 
reducing vulnerability at little or no net cost. No-regrets measures 
could include low-cost steps to: improve climate forecasting; slow 
biodiversity loss; improve water, land, and air quality; and make 
institutions--such as the health care enterprise, financial markets, 
and transportation systems--more resilient to major disruptions.
                 reducing the causes of climate change
    The climate change statement issued in June 2005 by 11 science 
academies, including the National Academy of Sciences, stated that 
despite remaining unanswered questions, the scientific understanding of 
climate change is now sufficiently clear to justify nations taking 
cost-effective steps that will contribute to substantial and long-term 
reduction in net global greenhouse gas emissions. Because carbon 
dioxide and some other greenhouse gases can remain in the atmosphere 
for many decades and major parts of the climate system respond slowly 
to changes in greenhouse gas concentrations, climate change impacts 
will likely continue throughout the 21st century and beyond. Failure to 
implement significant reductions in net greenhouse gas emissions now 
will make the job much harder in the future--both in terms of 
stabilizing their atmospheric abundances and in terms of experiencing 
more significant impacts. At the present time there is no single 
solution that can eliminate future warming. As early as 1992 Policy 
Implications of Greenhouse Warming found that there are many 
potentially cost-effective technological options that could contribute 
to stabilizing greenhouse gas concentrations.
  meeting energy needs is a major challenge to slowing climate change
    Energy--either in the form of fuels used directly (i.e., gasoline) 
or as electricity produced using various fuels (fossil fuels as well as 
nuclear, solar, wind, and others) --is essential for all sectors of the 
economy, including industry, commerce, homes, and transportation. 
Energy use worldwide continues to grow with economic and population 
growth. Developing countries, China and India in particular, are 
rapidly increasing their use of energy, primarily from fossil fuels, 
and consequently their emissions of CO<INF>2</INF>. Carbon emissions 
from energy can be reduced by using it more efficiently or by switching 
to alternative fuels. It also may be possible to capture carbon 
emissions from electric generating plants and then sequester them.
    Energy efficiency in all sectors of the U.S. economy could be 
improved. The 2002 National Academies' report, Effectiveness and Impact 
of Corporate Average Fuel Economy (CAFE) Standards, evaluates car and 
light truck fuel use and analyzes how fuel economy could be improved. 
Steps range from improved engine lubrication to hybrid vehicles. The 
2001 Academies report, Energy Research at DOE, Was It Worth It? 
addresses the benefits of increasing the energy efficiency of lighting, 
refrigerators and other appliances. Many of these improvements (e.g., 
high-efficiency refrigerators) are cost-effective means to 
significantly reducing energy use, but are being held back by market 
constraints such as consumer awareness, higher initial costs, or by the 
lack of effective policy.
    Electricity can be produced without significant carbon emissions 
using nuclear power and renewable energy technologies (e.g., solar, 
wind, and biomass). In the United States, these technologies are too 
expensive or have environmental or other concerns that limit broad 
application, but that could change with technology development or if 
the costs of fossil fuels increase. Replacing coal-fired electric power 
plants with more efficient, modern natural-gas-fired turbines would 
reduce carbon emissions per unit of electricity produced.
    Several technologies are being explored that would collect 
CO<INF>2</INF> that would otherwise be emitted to the atmosphere from 
fossil-fuel-fired power plants, and then sequester it in the ground or 
the ocean. Successful, cost-effective sequestration technologies would 
weaken the link between fossil fuels and greenhouse gas emissions. The 
2003 National Academies' report, Novel Approaches to Carbon Management: 
Separation, Capture, Sequestration, and Conversion to Useful Products, 
discusses the development of this technology. Capturing CO<INF>2</INF> 
emissions from the tailpipes of vehicles is essentially impossible, 
which is one factor that has led to considerable interest in hydrogen 
as a fuel. As with electricity, hydrogen must be manufactured from 
primary energy sources. Significantly reducing carbon emissions when 
producing hydrogen from fossil fuels (currently the least expensive 
method) would require carbon capture and sequestration. Substantial 
technological and economic barriers in all phases of the hydrogen fuel 
cycle must first be addressed through research and development. The 
2004 National Academies' report, The Hydrogen Economy: Opportunities, 
Costs, Barriers and R&D Needs, presents a strategy that could lead 
eventually to production of hydrogen from a variety of domestic 
sources--such as coal (with carbon sequestration), nuclear power, wind, 
or photo-biological processes--and efficient use in fuel cell vehicles.
       continued scientific efforts to address a changing climate
    The task of mitigating and preparing for the impacts of climate 
change will require worldwide collaborative inputs from a wide range of 
experts, including natural scientists, engineers, social scientists, 
medical scientists, those in government at all levels, business 
leaders, and economists. Although the scientific understanding of 
climate change has advanced significantly in the last several decades, 
there are still many unanswered questions. Society faces increasing 
pressure to decide how best to respond to climate change and associated 
global changes, and applied research in direct support of decision 
making is needed.
           national academies' reports cited in the testimony
    Radiative Forcing of Climate Change: Expanding the Concept and 
Addressing Uncertainties (2005)
    Climate Data Records from Environmental Satellites (2004)
    Implementing Climate and Global Change Research (2004)
    A Vision for the International Polar Year 2007-2008 (2004)
    The Hydrogen Economy: Opportunities, Costs, Barriers and R&D Needs 
(2004)
    Understanding Climate Change Feedbacks (2003) Planning Climate and 
Global Change Research (2003)
    Novel Approaches to Carbon Management: Separation, Capture, 
Sequestration, and Conversion to Useful Products (2003)
    Abrupt Climate Change: Inevitable Surprises (2002)
    Effectiveness and Impact of Corporate Average Fuel Economy (CAFE) 
Standards (2002)
    Climate Change Science: An Analysis of Some Key Questions (2001)
    Improving the Effectiveness of U.S. Climate Modeling (2001)
    A Climate Services Vision: First Steps Towards the Future (2001)
    Energy Research at DOE, Was It Worth It? (2001)
    Reconciling Observations of Global Temperature Change (2000)
    Adequacy of Climate Observing Systems (1999)
    Policy Implications of Greenhouse Warming (1992)
    [GRAPHIC] [TIFF OMITTED] 38918.009
    
    [GRAPHIC] [TIFF OMITTED] 38918.010
    
    [GRAPHIC] [TIFF OMITTED] 38918.011
    
    [GRAPHIC] [TIFF OMITTED] 38918.012
    
    [GRAPHIC] [TIFF OMITTED] 38918.013
    
    [GRAPHIC] [TIFF OMITTED] 38918.014
    
    [GRAPHIC] [TIFF OMITTED] 38918.015
    
    [GRAPHIC] [TIFF OMITTED] 38918.016
    
    [GRAPHIC] [TIFF OMITTED] 38918.017
    
    [GRAPHIC] [TIFF OMITTED] 38918.018
    
    [GRAPHIC] [TIFF OMITTED] 38918.019
    
    [GRAPHIC] [TIFF OMITTED] 38918.020
    
    [GRAPHIC] [TIFF OMITTED] 38918.021
    
    [GRAPHIC] [TIFF OMITTED] 38918.022
    
    [GRAPHIC] [TIFF OMITTED] 38918.023
    
    [GRAPHIC] [TIFF OMITTED] 38918.024
    
    [GRAPHIC] [TIFF OMITTED] 38918.025
    
    [GRAPHIC] [TIFF OMITTED] 38918.026
    
    [GRAPHIC] [TIFF OMITTED] 38918.027
    
    [GRAPHIC] [TIFF OMITTED] 38918.028
    
    [GRAPHIC] [TIFF OMITTED] 38918.029
    
    [GRAPHIC] [TIFF OMITTED] 38918.030
    
    [GRAPHIC] [TIFF OMITTED] 38918.031
    
    [GRAPHIC] [TIFF OMITTED] 38918.032
    
    [GRAPHIC] [TIFF OMITTED] 38918.033
    
    [GRAPHIC] [TIFF OMITTED] 38918.034
    
    [GRAPHIC] [TIFF OMITTED] 38918.035
    
    [GRAPHIC] [TIFF OMITTED] 38918.036
    
    [GRAPHIC] [TIFF OMITTED] 38918.037
    
    [GRAPHIC] [TIFF OMITTED] 38918.038
    
    [GRAPHIC] [TIFF OMITTED] 38918.039
    
    [GRAPHIC] [TIFF OMITTED] 38918.040
    
    [GRAPHIC] [TIFF OMITTED] 38918.041
    
    [GRAPHIC] [TIFF OMITTED] 38918.042
    
    [GRAPHIC] [TIFF OMITTED] 38918.043
    
    [GRAPHIC] [TIFF OMITTED] 38918.044
    
    [GRAPHIC] [TIFF OMITTED] 38918.045
    
    [GRAPHIC] [TIFF OMITTED] 38918.046
    
    [GRAPHIC] [TIFF OMITTED] 38918.047
    
    [GRAPHIC] [TIFF OMITTED] 38918.048
    
    [GRAPHIC] [TIFF OMITTED] 38918.049
    
    [GRAPHIC] [TIFF OMITTED] 38918.050
    
    [GRAPHIC] [TIFF OMITTED] 38918.051
    
    [GRAPHIC] [TIFF OMITTED] 38918.052
    
    [GRAPHIC] [TIFF OMITTED] 38918.053
    
    [GRAPHIC] [TIFF OMITTED] 38918.054
    
    [GRAPHIC] [TIFF OMITTED] 38918.055
    
    [GRAPHIC] [TIFF OMITTED] 38918.056
    
    [GRAPHIC] [TIFF OMITTED] 38918.057
    
    [GRAPHIC] [TIFF OMITTED] 38918.058
    
    [GRAPHIC] [TIFF OMITTED] 38918.059
    
    [GRAPHIC] [TIFF OMITTED] 38918.072
    
    [GRAPHIC] [TIFF OMITTED] 38918.073
    
    [GRAPHIC] [TIFF OMITTED] 38918.074
    
    [GRAPHIC] [TIFF OMITTED] 38918.075
    
    [GRAPHIC] [TIFF OMITTED] 38918.076
    
    [GRAPHIC] [TIFF OMITTED] 38918.077
    
    [GRAPHIC] [TIFF OMITTED] 38918.079
    
    [GRAPHIC] [TIFF OMITTED] 38918.080
    
    [GRAPHIC] [TIFF OMITTED] 38918.081
    
    [GRAPHIC] [TIFF OMITTED] 38918.082
    
    [GRAPHIC] [TIFF OMITTED] 38918.083
    
    [GRAPHIC] [TIFF OMITTED] 38918.084
    
    [GRAPHIC] [TIFF OMITTED] 38918.085
    
    [GRAPHIC] [TIFF OMITTED] 38918.086
    
    [GRAPHIC] [TIFF OMITTED] 38918.087
    
    [GRAPHIC] [TIFF OMITTED] 38918.088
    
    [GRAPHIC] [TIFF OMITTED] 38918.089
    
E-mail message distributed on September 23, 2005 by Dr. Gerhard Hess of 
                  Bayer Environmental Sciences S.A.S.
    Dear Robert,
    Sorry for joining the ongoing discussion rather late, You can be 
assured that I followed the discussion very closely, travelling now 
through Asia and having met my Indian and African colleagues here in 
Bangkok for a meeting, during which we discussed intensively the DDT 
issue. I can give you the following additions to the discussion. Not 
only as the responsible manager for the vector control business in 
Bayer, being the market leader in vector control and pointing out by 
that we know what we are talking about and have decades of experiences 
in the evolution of this very particular market. Also as one of the 
private sector representatives in the RBM Partnership Board and being 
confronted with that discussion about DDT in the various WHO, RBM et al 
circles. So you can take it as a view from the field, from the 
operational commercial level but our companies point of view. I know 
that all of my colleagues from other primary manufacturers and 
internationally operating companies are sharing my view. Even the 
international pesticide manufacturers association Crop life 
International has standpoint on that (I can make contacts if you wish).
    DDT use is for us a commercial threat (which is clear, but it is 
not that dramatic because of limited use), it is mainly a public image 
threat
    We agree with WHO that DDT should be used as an exception, when 
there is no alternative efficacy and economically wise, we can proof 
from the field that there are alternatives in nearly all cases where 
DDT is re-introduced (but these alternatives are not considered as it 
should be, reasoning to be speculated!
    We agree with WHO that DDT should be used for indoor residual 
spraying for malaria mosquito control only. It is an open secret in the 
market that considerable quantities of the DDT ends up in agriculture, 
worst case from one country program showed a ``loss'' of 40 percent of 
the allocated DDT volume during the spraying operation. Checking 
agricultural products from ``DDT countries'' show increasing residues.
    Therefore we fully support EU to ban imports of agricultural 
products coming from countries using DDT.
    We are in discussion with WHO's Pesticide Evaluation Scheme 
(WHOPES) on manufacturers association level (here Public Health Project 
Team from CropLife International) about the significance of the DDT 
specification available. The value of that specification is more than 
questionable, it is very old, non updated since than, and done only 
according to the old specification procedure. This is due to the reason 
that there is not a single DDT manufacturer in the world but a group of 
producers, which are not always (to be polite) producing WHO standard 
quality material. So WHO has to admit that it is very difficult to 
guarantee to the country programs, seeking advice from WHO, a WHO 
confirmed quality of the product ``recommended''.
    This brings us into the situation that WHOPES evaluated and 
recommended products are split into a two class society: the DDT class 
with basically no guarantee possible for quality and conformity to the 
specs, and the other pesticides which have to run through the WHOPES 
system with a necessary dossier about tox, efficacy, chem/phys data 
etc. etc., and which are encouraged to update their specification 
according to the new system to stay in ``business''. WHOPES is a 
perfect and marvelous system from WHO to guarantee the highest efficacy 
and quality for products used in public health in general and in vector 
control in special.
    Needless to say that if one DDT supplier (or a consortium) will go 
nowadays through the expensive and time consuming WHOPES, he will fail 
already in Phase I when it comes to the supply of the tox data and the 
risk and safety assessment. Every new compound which is evaluated in 
WHOPES and the data fill proves that it accumulates in the food chain, 
and that there are doubts about the long term tox impacts will be 
rejected. But there is no supplier of DDT doing that, so there is no 
change in listing of DDT as recommended product for indoor residual 
spraying against mosquitoes by WHO. This seems to be the weakness of 
the system.
    Difficult and sensitive area: country cases and how the use of DDT 
sometimes evolves (not a general statement but some anecdotal data). 
India has widespread DDT (and Pyrethroid and OP) resistance in malaria 
vectors, still DDT (and pyrethroids) are used accepting control levels 
below 40 percent.
    Resistance management programs are hardly accepted by the central 
authorities despite pressure from WHO, the State authorities and the 
academical side, because resistance is denied. Here international 
donors (like World Bank for India), Global Fund etc. giving funds to 
those countries are asked to take necessary restrictive actions when it 
comes to product choice and strategies selected, here WHO can play the 
referee role.
    Southern Africa: political pressure is made on neighboring 
countries from the Republic of South Africa to use DDT (reasons can 
only be speculated). Surprisingly at the end let me define a role for 
DDT: if there is widespread resistance to pyrethroids e.g. being the 
major class of insecticides for indoor residual spraying nowadays and 
there is no confirmed cross-resistance to DDT-than DDT might play a 
role for a short term rotational partner in a resistance management 
scheme. Short term in the sense unless the level of resistance for the 
other insecticides in use reaches a level which allows re-introduction 
of these. Of course close monitoring and evaluation of the resistance 
has to be included in the scheme. Needless to say that there are other 
alternatives like carbonates which can be used in rotational programs.
    It would be interesting to get the findings of the various 
resistance networks, e.g. the African network, discussed in this forum, 
especially what is the level of resistance for DDT.
    Thanks for having the chance to share these thoughts with you, 
looking forward to feedback.
    Best regards
    Gerhard
    Dr. Gerhard Hesse
    Bayer Environmental Science S.A.S.
    Business Manager Vector Control
    email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1a7d7f68727b687e34727f69697f5a787b637f687968756a6979737f74797f34797577">[email&#160;protected]</a>
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
